<html>
<title> - VARIOUS NATIONAL PARKS BILLS</title>
<body><pre>[Senate Hearing 112-124]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-124
 
                      VARIOUS NATIONAL PARKS BILLS

=======================================================================


                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON

                      ENERGY AND NATURAL RESOURCES

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON
                                     

                         S. 114                                S. 404

                          S. 127                                S. 508

                          S. 140                                S. 535

                           S. 161                                S. 564

                           S. 177                                S. 599

                           S. 247                                S. 713

                           S. 279                                S. 765

                           S. 302                                S. 779

                           S. 313                                S. 849

                           S. 323                                S. 858

                           S. 403





                               __________

                              MAY 11, 2011


                       Printed for the use of the

               Committee on Energy and Natural Resources




                  U.S. GOVERNMENT PRINTING OFFICE

70-701                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            RAND PAUL, Kentucky
MARK UDALL, Colorado                 DANIEL COATS, Indiana
JEANNE SHAHEEN, New Hampshire        ROB PORTMAN, Ohio
AL FRANKEN, Minnesota                JOHN HOEVEN, North Dakota
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel

                                 ------                                

                     Subcommittee on National Parks

                     MARK UDALL, Colorado, Chairman

MARY L. LANDRIEU, Louisiana          RICHARD BURR, North Carolina
BERNARD SANDERS, Vermont             JOHN BARRASSO, Wyoming
DEBBIE STABENOW, Michigan            RAND PAUL, Kentucky
AL FRANKEN, Minnesota                DANIEL COATS, Indiana
JOE MANCHIN, III, West Virginia      ROB PORTMAN, Ohio
CHRISTOPHER A. COONS, Delaware       BOB CORKER, Tennessee

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................    15
Burr, Hon. Richard, U.S. Senator From North Carolina.............    13
Carper, Hon. Tom, U.S. Senator From Delaware.....................    17
Coons, Hon. Chris, U.S. Senator From Delaware....................    17
Holtrop, Joel, Deputy Chief, National Forest System, Forest 
  Service, Department of Agriculture.............................    43
Loretto, Raymond, Chairman, Valles Caldera Trust.................    50
Udall, Hon. Mark, U.S. Senator From Colorado.....................     1
Whitesell, Stephen E., Associate Director, Park Planning, 
  Facilities, and Lands, National Park Service, Department of the 
  Interior.......................................................    21
Wyden, Hon. Ron, U.S. Senator From Oregon........................    16

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    55

                              Appendix II

Additional material submitted for the record.....................    59


                      VARIOUS NATIONAL PARKS BILLS

                              ----------                              


                        WEDNESDAY, MAY 11, 2011

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
     The subcommittee met, pursuant to notice, at 2:31 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Mark Udall 
presiding.

    OPENING STATEMENT OF HON. MARK UDALL, U.S. SENATOR FROM 
                            COLORADO

    Senator Udall. The Subcommittee on National Parks will come 
to order.
    This afternoon, the Subcommittee on National Parks is 
holding a hearing to consider 21 pending bills. I would like to 
welcome our administration witnesses and look forward to 
hearing their testimony in just a few minutes.
    We have 21 bills on today's agenda, which is an unusually 
high number of bills, even for this subcommittee. All of these 
bills were considered by the subcommittee last Congress and 
majority reported by the committee on a bipartisan basis.
    The purpose of today's hearing is to simply update the 
record on these bills and to allow members, especially those 
who are new to the subcommittee, an opportunity to ask any 
questions they may have.
    I want to make it clear that this hearing is a one-time 
event. It is my intention to return to our standard format with 
fewer bills for future legislative hearings.
    I know Senator Burr and I are both interested in pursuing a 
more active oversight role for this subcommittee, and by 
hearing all of these bills at one time instead of over several 
months, we will have more time for oversight hearings.
    Because of the number of bills on today's agenda, I won't 
read through the list, but at this time I will include the 
complete list of bills in the hearing record.
    [The information referred to follows:]

    S. 114, to authorize the Secretary of the Interior to enter into a 
cooperative agreement for a park headquarters at San Antonio Missions 
National Historical Park, to expand the boundary of the Park, to 
conduct a study of potential land acquisitions, and for other purposes; 
S. 127, to establish the Buffalo Bayou National Heritage Area in the 
State of Texas, and for other purposes; S. 140, to designate as 
wilderness certain land and inland water within the Sleeping Bear Dunes 
National Lakeshore in the State of Michigan, and for other purposes; S. 
161, to establish Pinnacles National Park in the State of California as 
a unit of the National Park System, and for other purposes; S. 177, to 
authorize the Secretary of the Interior to acquire the Gold Hill Ranch 
in Coloma, California; S. 247, to establish the Harriet Tubman National 
Historical Park in Auburn, New York, and the Harriet Tubman Underground 
Railroad National Historical Park in Caroline, Dorchester, and Talbot 
Counties, Maryland, and for other purposes; S. 279, to direct the 
Secretary of the Interior to carry out a study to determine the 
suitability and feasibility of establishing Camp Hale as a unit of the 
National Park System; S. 302, to authorize the Secretary of the 
Interior to issue right-of-way permits for a natural gas transmission 
pipeline in nonwilderness areas within the boundary of Denali National 
Park, and for other purposes; S. 313, to authorize the Secretary of the 
Interior to issue permits for a microhydro project in nonwilderness 
areas within the boundaries of Denali National Park and Preserve, to 
acquire land for Denali National Park and Preserve from Doyon Tourism, 
Inc., and for other purposes; S. 323, to establish the First State 
National Historical Park in the State of Delaware, and for other 
purposes; S. 403, to amend the Wild and Scenic Rivers Act to designate 
segments of the Molalla River in the State of Oregon, as components of 
the National Wild and Scenic Rivers System, and for other purposes; S. 
404, to modify a land grant patent issued by the Secretary of the 
Interior; S. 508, to establish the Chimney Rock National Monument in 
the State of Colorado; S. 535, to authorize the Secretary of the 
Interior to lease certain lands within Fort Pulaski National Monument, 
and for other purposes; S. 564, to designate the Valles Caldera 
National Preserve as a unit of the National Park System, and for other 
purposes; S. 599, to establish a commission to commemorate the 
sesquicentennial of the American Civil War; S. 713, to modify the 
boundary of Petersburg National Battlefield in the Commonwealth of 
Virginia, and for other purposes; S. 765, to modify the boundary of the 
Oregon Caves National Monument, and for other purposes; S. 779, to 
authorize the acquisition and protection of nationally significant 
battlefields and associated sites of the Revolutionary War and the War 
of 1812 under the American Battlefield Protection Program; S. 849, to 
establish the Waco Mammoth National Monument in the State of Texas, and 
for other purposes; and S. 858, to authorize the Secretary of the 
Interior to conduct a special resource study to determine the 
suitability and feasibility of designating the Colonel Charles Young 
Home in Xenia, Ohio as a unit of the National Park System, and for 
other purposes.

    Senator Udall. I would like to briefly comment on two 
Colorado bills, S. 279 and S. 508, both of which have the 
support of my colleague, Senator Bennet.
    The first, S. 279, directs the Secretary of the Interior to 
study the feasibility and suitability of establishing Camp Hale 
as a unit of the National Park system. The second bill, S. 508, 
establishes Chimney Rock National Monument in southern 
Colorado. Both of these bills provide an important opportunity 
to protect these critical natural resources. I look forward to 
working with the Administration to assure their passage.
    If I might at this moment, I want to include several 
statements for the record that the committee has received from 
the following senators: Bennet, Boxer, Cardin, Carper, Cornyn, 
Gillibrand, Hutchison, Levin, and Webb. Without objection, 
these statements will be included in the hearing record along 
with any other statements submitted.
    [The prepared statements of several Senators and 
Representatives follow:]
Prepared Statement of Hon. Barbara Boxer, U.S. Senator From California, 
                          on S. 161 and S. 177
    Thank you, Chairman Udall and Ranking Member Burr, for considering 
the Pinnacles National Park Act and the Gold Hill-Wakamatsu 
Preservation Act in today's hearing.
    S. 161, the Pinnacles National Park Act, would elevate the 
Pinnacles National Monument to a National Park. I am pleased to have 
worked with Senator Feinstein and Representative Sam Farr on this 
legislation.
    A National Park designation generally signifies a greater variety 
and higher value of resources than a National Monument designation. The 
Pinnacles have a breadth of important geological, ecological, cultural, 
and recreational resources that warrant the area's elevation to a 
National Park. As Ken Burns and Dayton Duncan, creators of the 
documentary The National Parks: America's Best Idea, wrote, ``A 
Pinnacles National Park would preserve a unique portion of our land: 
not only a critical record of geological time. . . but also a rare 
habitat for condors, a wide array of flowers, and 400 species of 
bees.''
    Established by President Theodore Roosevelt, the Pinnacles National 
Monument highlights the spectacular remains of the Neenach Volcano. 
Colossal monoliths, sheer-walled canyons and talus caves exhibit 
millions of years of volcanic evolution and tectonic plate movement. 
The Pinnacles are a rare example of Mediterranean habitat, which 
comprises less than two percent of the Earth's surface area. They are 
also home to the critically endangered California condor. The area has 
a rich cultural history, and has held significance for several Native 
American tribes, early Spanish settlers, and Western homesteaders.
    Today, the Pinnacles are a global destination for naturalists and 
outdoor enthusiasts of all kinds, who are attracted by the park's 
scenic trails, natural resources, and some of the most unique rock-
climbing in the world. The Pinnacles National Monument is an important 
driver of the local tourist economy and jobs, and elevating this site 
to a National Park will draw even more attention to this incredible 
destination.
    Originally 2500 acres, the monument has grown to encompass 26,000 
acres of diverse California wildlands. The recent expansion of the 
Monument further warrants its elevation to a National Park status.
    My legislation also authorizes the further expansion of the 
Pinnacles through the purchase of the neighboring Rock Springs Ranch, 
which will help showcase the features of the San Andreas Fault and 
protect an important condor nesting area. However, I understand that 
the National Park Service has recently completed a study examining the 
feasibility of acquiring this site, and that some potential obstacles 
were identified. I would like to point out that the provision in my 
bill is permissive rather than mandatory, but I look forward to 
discussing this issue further with the National Park Service and 
working to address their concerns.
    In addition to changing the Monument's designation, my bill would 
also rename the current Pinnacles Wilderness as the Hain Wilderness 
after Schuyler Hain, a local rancher and early conservationist whose 
efforts led to the designation of the Monument in 1908. The bill would 
further expand this wilderness by 2905 acres.
    My bill has strong local support from San Benito and Monterey 
Counties, the owner of the Rock Springs Ranch, as well as the 
California Wild Heritage Campaign, a coalition of over 500 businesses 
and organizations. I am pleased to have worked with Congressman Sam 
Farr on this legislation, and look forward to working with my 
colleagues in Congress to advance it.
                                 s. 177
    S. 177, the Gold Hill-Wakamatsu Preservation Act, would authorize 
the Bureau of Land Management to acquire the Gold Hill Ranch in western 
El Dorado County--the location of the first Japanese settlement in the 
United States. I am pleased to have worked with Representative Tom 
McClintock on this bill.
    In 1869, 22 Japanese expatriates fled the turmoil of Japan's Meiji 
restoration and made their way across the Pacific Ocean to California. 
There, they purchased land in the heart of gold rush country, and began 
producing traditional Japanese crops such as mulberry trees for silk, 
bamboo roots, tea seeds, grape seedlings, and short-grain rice.
    The Wakamatsu Tea and Silk Colony, as it was called, played an 
important role in bridging Japanese and American cultures. The 
colonists and surrounding community learned about each others' customs 
and agricultural techniques, and stories of the colony were reported in 
newspapers such as the San Francisco Chronicle and New York Times. 
Unfortunately, drought and financial problems forced the colonists to 
disperse and settle throughout California beginning in 1871, and the 
272-acre property was purchased by the neighboring Veerkamp family.
    Despite the colony's short history, its contributions to American 
history have endured. The significance of this site for Japanese 
Americans has been compared to that of Plymouth Rock or Jamestown for 
European Americans. The successful migration and assimilation of these 
first Wakamatsu colonists established California as the gateway for 
waves of Japanese immigrants entering our nation in the late 19th and 
early 20th centuries. The new agricultural products they introduced 
contributed to California's eventual preeminence as an agricultural and 
economic leader.
    Many of the original structures on the site remain intact, 
including a farmhouse, the grave of a young girl named Okei, artifacts, 
and agricultural plantings. Japanese-Americans and other visitors come 
to see the site and place offerings on Okei's grave. Governor Reagan 
recognized the property as a state historic site in 1969, and the site 
was listed in 2010 on the National Register of Historic Places at the 
national level of significance.
    Mr. Chairman, I have received numerous letters of support for this 
project and would like to ask that they be entered into the record. 
These supporters include the Japanese American Citizens League, the 
National Japanese American Historical Society, People-to-People 
International, the Consulate General of Japan in San Francisco, the 
American River Conservancy, the California Rice Commission, the El 
Dorado County Board of Supervisors, the El Dorado County Chamber of 
Commerce, and many local elected officials, businesses, and 
constituents.
    The remarkable history of the Wakamatsu colonists, and their 
lasting impact on the State of California and our nation of immigrants, 
is a story that must carry on for future generations. I look forward to 
working with my Senate colleagues to pass this legislation so that we 
can preserve this site for future visitors.
                                 ______
                                 
 Prepared Statement of Hon. John Coryn, U.S. Senator From Texas, on S. 
                                  849
    Chairman Udall and Ranking Member Burr, thank you for the 
opportunity to submit my remarks for the record regarding my 
legislation, the Waco Mammoth National Monument Establishment Act of 
2011 (S. 849), before the Subcommittee today. I introduced this 
legislation on April 14, 2011, which Senator Hutchison has cosponsored. 
A companion bill in the House of Representatives was also introduced by 
Rep. Flores.
    S. 849 would make the Waco Mammoth Site in Waco, Texas, a new unit 
of the National Park Service (NPS). The Waco Mammoth Site holds the 
biggest concentration of Columbian mammoths in North America, ranging 
from 3 to 55 years of age, which appear to have died around 68,000 
years ago. The first bones at site were discovered in 1978, and since 
that time Baylor University staff, students and volunteers have spent 
countless hours excavating the site.
    As the Subcommittee is aware, the NPS previously found that the 
Waco site met all the criteria for designation as a unit of the 
National Park System, and proposed that the site be managed by the Park 
Service in partnership with the City of Waco and Baylor University. In 
the last Congress, I introduced similar legislation along with Rep. 
Edwards in the House of Representatives (S. 625/H.R. 1376) which passed 
the House 308-74 on July 27, 2009, and was reported by the Senate 
Energy & Natural Resources Committee on December 16, 2009. The bill was 
not considered by the full Senate due in part to its cost and the 
considerable backlog of maintenance needs within the National Park 
System. The CBO estimated that implementing H.R. 1376 would cost about 
$1 million over three years to develop a management plan for the site 
and construct exhibits and interpretive facilities, and about $400,000 
a year thereafter for the federal share of annual operating costs. The 
Interior Department estimated deferred maintenance for the NPS for 
FY2009 at between $8.23 billion and $12.11 billion, with a midrange 
figure of $10.17 billion.
    The bill being considered at today's hearing shares the same 
important goal as last Congress' version (S. 625/H.R. 1375)--to 
establish the Waco Mammoth site as a unit of the National Park System, 
however, the bill has been revised--recognizing the hurdles to securing 
new authorization of federal funding. S. 849 is supported by the local 
partners who have worked tirelessly to protect the Mammoth site--while 
seeking national recognition of it. The actions taken by the City of 
Waco, Baylor University and the Waco Mammoth Foundation, which raised 
$4M, demonstrate their commitment to bringing this discovery to the 
public. These funds allowed them to build a structure to protect the 
fossils and allow the public to visit the site. The Waco Mammoth Site 
now includes a dig shelter and a suspended walkway provides a stunning 
overhead view of the mammoths.
    S. 849 would not confer any federal burden for construction, 
maintenance, or operation and all costs for acquisition of the five 
acre site and the development of the visitor center will be borne 
locally. The property is owned by the City of Waco, and would be 
transferred to the NPS. The bill requires a general management plan for 
the site to be completed with the Secretary of Interior in consultation 
with the University and the City of Waco to include measures to 
preserve the site and develop the use of the site. Local partners would 
take responsibility for the annual management and operations costs, and 
only non-federal funds could be used to develop a management plan for 
the site and construct exhibits and interpretive facilities. Through 
ticket sales, fundraising, and City of Waco's general funds, there is a 
local commitment to bear all associated costs now and in the future in 
order to achieve the national recognition this site deserves. Further 
demonstrating the local commitment, if the local partners cannot 
sustain the park without federal funding, then they would lose the 
national park designation.
    While I recognize this is an unorthodox approach to establishing a 
National Park unit, due to our fiscal restraints--I believe we must 
consider allowing local partners to support this worthy site. There 
will be questions and possibly concerns raised by the NPS about this 
approach, and I stand ready to work with them and my colleagues to 
address any issues to allow this legislation to move forward.
    The uniqueness of this site makes the landmark a national treasure 
that should be preserved for public enjoyment, scientific study, and 
historical integrity for generations to come. I encourage support for 
the goal of establishing this National Park unit and for Senators to 
learn more about this incredible discovery in Waco, Texas.
    Thank you, Chairman Udall and Ranking Member Burr.
                                 ______
                                 
  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator From 
                      Texas, on S. 114 and S. 127
    I want to thank Chairman Bingaman and Ranking Member Murkowski of 
the Senate Energy and Natural Resources Committee for holding today's 
joint hearing between the Subcommittee on National Parks and 
Subcommittee on Public Lands and Forests to consider the lands bills 
which are important to Texas. Two bills in particular, S. 114, the San 
Antonio Missions National Historical Park Boundary Expansion Act of 
2011, and S. 127, the Buffalo Bayou National Heritage Area Act, are of 
particular concern to many of my constituents.
    The first bill, S. 114, the San Antonio Missions National 
Historical Park Boundary Expansion Act, would authorize a boundary 
study that would identify possible lands for inclusion in the park 
within Bexar and Wilson Counties. The San Antonio Missions played an 
important historical role in the City of San Antonio.
    The San Antonio Missions National Historical Park not only honors 
an important time period in San Antonio and the United States but also 
encompasses the largest concentration of historical Catholic missions 
in North America. In addition, the park showcases some of the best 
preserved Spanish colonial architecture in the United States.
    In the 1700s, Spanish explorers travelled through modern-day Texas 
while accompanied by missionaries and soldiers. The missionaries and 
soldiers built forts and missions along the way, becoming what is now 
the San Antonio Missions National Historical Park. The missions were 
originally established to protect Spanish land as well as spread the 
influence of Spain's expanding empire. The San Antonio Missions 
National Historical Park preserves four of the five Spanish frontier 
missions and provides visitors opportunities to learn about the 
significant influence of the area in vocational and educational 
training during the 18th Century.
    This legislation enjoys the strong support of officials from Bexar 
County, Wilson County, the City of San Antonio, the City of 
Floresville, the San Antonio River Authority, the San Antonio 
Conservation Society, Los Compadres, and others. This bill would 
further the preservation and interpretation of the missions for current 
and future generations.
    The second bill being considered today, S. 127, the Buffalo Bayou 
National Heritage Area Act, would designate the Buffalo Bayou as a 
National Heritage Area. The Buffalo Bayou was an important part of 
Texas' history during the Battle of San Jacinto. Along the Buffalo 
Bayou's banks, General Sam Houston guided the Texas Army to final 
victory over Mexico's General Antonio Lopez de Santa Anna, leading 
Texas to independence.
    The Buffalo Bayou is also a major economic access point into the 
United States. Currently, the 52 miles of the Buffalo Bayou is the 
nation's number one port in foreign cargo and one of the largest in the 
world. The petrochemical plants of the Buffalo Bayou employ more than 
35,000 people. As an important part of Houston's economy, 13 percent of 
the nation's oil and gas refining capacity is based along the bayou.
    In 2002, Congressman Gene Green and I introduced the Buffalo Bayou 
National Heritage Study Act which required the National Park Service 
(NPS) to study the area in order to verify the Buffalo Bayou was 
eligible for designation. The NPS study showed the Buffalo Bayou is 
critical to oil refining, commercial trade, and petrochemical 
production. In addition, the study concluded the Buffalo Bayou is 
eligible for and would benefit from the designation.
    The Buffalo Bayou truly has played an important role in the history 
of the State of Texas as well as the United States. Nationally, the 
history of the oil industry along the Buffalo Bayou has played a 
critical role in our country having the strongest economy in the world. 
These important factors have led me to introduce S. 127, the Buffalo 
Bayou National Heritage Area Act, to designate the Buffalo Bayou for 
National Heritage Area designation.
    In addition to these two bills, I would also like to extend my 
support to S. 849, the Waco Mammoth National Monument Establishment Act 
of 2011 which the committee will also consider today. The bill would 
establish a Columbian mammoth discovery site in Waco, Texas as a 
national monument. I am pleased to be a co-sponsor of this legislation 
introduced by Senator John Cornyn.
    Chairman Bingaman and Ranking Member Murkowski, I am certain 
today's hearing will provide the committee a more complete 
understanding of why these regions are important to our nation's 
history, and why legislation is important in preserving the San Antonio 
Missions, the Buffalo Bayou Heritage Area, and the Waco Mammoth Site. I 
thank you for your attention to these three pieces of legislation.
    Thank you.
                                 ______
                                 
Prepared Statements of Hon. Carl Levin, U.S. Senator From Michigan, on 
                           S. 140 and S. 404
                                 s. 140
    Thank you, Chairman Udall and Ranking Member Burr for holding this 
hearing on the Sleeping Bear Dunes Conservation and Recreation Act, 
which would designate 32,557 acres of Michigan land as wilderness, 
permanently protecting this land from harmful development and other 
impacts. I also want to thank Senator Stabenow for co-sponsoring this 
bill and for supporting it as a member of this subcommittee. I am also 
pleased that Congressman Huizenga is sponsor of a companion bill in the 
House of Representatives, and that this bill has eight cosponsors.
    This legislation reflects a lengthy public outreach process, and I 
am pleased there is broad public support for this bill, including by a 
local organization, Citizens for Access to the Lakeshore (CAL), that 
had initially organized to oppose a wilderness designation. Today CAL 
is submitting testimony in strong support of this bill.
    Located in the Northwest corner of Michigan's Lower Peninsula on 
Lake Michigan, Sleeping Bear Dunes National Lakeshore, as its name 
reflects, features ancient sand dunes that are the products of wind, 
wave, and ice action over thousands of years, and are truly one of 
nature's great masterworks. Nature lovers and photographers, hikers and 
children eager to roll down the sandy dunes, all enjoy this natural 
wonder. The Lakeshore, which encompasses more than 70,000 acres, also 
protects and interprets an extraordinary history of Native Americans, 
early pioneers, farmsteads, and maritime activities. This wilderness 
designation would allow the area's immense recreational opportunities 
and historic preservation efforts to continue to thrive, while 
providing important protections for natural areas.
    This bill is not only about conservation, but about access, 
recreation, and historic preservation. The lakeshore is meant to be 
enjoyed by the public, and yet because of a requirement included in a 
1982 law (P.L. 97-361) directing the National Park Service to manage 
areas included in a 1981 ``Wilderness Recommendation'' as wilderness, 
the public cannot access some roadways and historic areas. This 
restriction is due to the fact that the 1981 wilderness recommendation 
included county roads and other areas the local community did not 
believe should be managed as wilderness. Our legislation excludes these 
features from the wilderness designation to ensure that access, 
recreation, and historic preservation are provided at the Lakeshore, 
reflecting community input. The 1982 law specified that its directive 
apply ``until Congress determines otherwise.'' This bill provides the 
Congressional direction the 1982 law envisioned.
    The wilderness designation before you redefines the areas that 
should be managed as wilderness to reflect a balanced approach to 
conservation, recreation, and historic preservation, which are all 
important goals of this lakeshore. The wilderness areas are undeveloped 
and possess significant and valuable natural characteristics. In 
contrast, developed county roads and state highways, boat launches and 
many historical structures have all been excluded from the wilderness 
designation to maintain access and recreational opportunities and 
ensure preservation and interpretation of historical resources. 
Hunting, fishing, trail use, and camping at Sleeping Bear Dunes 
National Lakeshore would continue. Motor boats would still be allowed 
offshore of the dunes, and allowed to beach in areas adjacent to the 
wilderness area.
    This Lakeshore is emblematic of the rich natural and cultural 
history of Michigan. I urge the Committee to approve this legislation 
to protect these resources for current and future generations, and to 
enable thousands more to enjoy the scenic beauty and appreciate the 
generations of farmers, hunters, and mariners who came before.
                                 s. 404
    Thank you, Chairman Udall and Ranking Member Burr, for holding this 
hearing on the land patent modification bill for the Great Lakes 
Shipwreck Historical Society, a not-for-profit organization. This 
measure is simply a technical correction to a land patent involving 
about eight acres of land that was originally issued in 1998 to the 
Great Lakes Shipwreck Historical Society for the interpretation and 
preservation of maritime history at the United States Coast Guard 
Whitefish Point Light Station in the Upper Peninsula of Michigan.
    Whitefish Point sits on the southern shore of the mighty Lake 
Superior. When this area was first settled, its bountiful fishing and 
mineral deposits brought commercial vessel traffic to the area, but the 
treacherous waters of Lake Superior also took a terrible toll in 
shipwrecks and lost lives. Lake Superior's first lighthouse was 
constructed at Whitefish Point in 1848 and began operation in 1849. The 
lighthouse was essential to safe passage through these dangerous 
waters, marking the turning point for vessels entering and exiting Lake 
Superior.
    In 1970, the light tower at Whitefish Point was automated, and the 
station no longer needed to be manned. Sadly, the buildings surrounding 
the light station fell into disrepair. The Great Lakes Shipwreck 
Society, through volunteer efforts and fundraising, took on the mission 
to preserve, restore and interpret the maritime history at this site, 
among others. Through an agreement with the U.S. Coast Guard, the 
society established the Great Lakes Shipwreck Museum, where about 
60,000 people visit each year. The museum tells the story of the 
sailors who braved the treacherous waters of Lake Superior and those in 
the U.S. Life Saving Service, the predecessor to the U.S. Coast Guard, 
who risked their own lives to save others.
    The current land patent, originally issued in 1998, allows for 
development consistent with the Whitefish Point Comprehensive Plan of 
1992 or for a gift shop. Pursuant to a court-ordered settlement 
agreement, a new plan, the Human Use/Natural Resource Management Plan 
for Whitefish Point of December 2002, was prepared for the land. The 
2002 plan was developed by consensus of the parties to the litigation: 
the Great Lakes Shipwreck Historical Society, the Michigan Audubon 
Society, and the U.S. Fish and Wildlife Service. While the 2002 plan 
should guide development at the site, the land patent still references 
the 1992 plan. The bill under consideration by this committee would 
modify the land patent such that development of new facilities and the 
expansion of existing facilities and infrastructure would be consistent 
with the 2002 plan instead of the obsolete 1992 plan.
    In addition to the historic maritime assets of Whitefish Point, the 
area is also an important birding area and a stopover for migratory 
birds. The 2002 plan includes restrictions during bird migration as 
well as other restrictions on humans to protect sensitive shoreline 
habitats, including that of the endangered piping plover. Recommended 
management practices are also included in the 2002 plan to protect 
environmentally sensitive habitat. The 2002 plan also specifies that 
implementation of the plan would be led by a ``Joint Committee,'' 
comprised of representatives from the U.S. Fish and Wildlife Service, 
the Great Lakes Shipwreck Historical Society, and the Michigan Audubon 
Society. By having all of these entities involved with the plan 
implementation, protection of natural resources and management of human 
uses can be better ensured.
    I urge you to favorably report this bill so that the full Senate 
could promptly consider it and Michigan's rich maritime history and 
wildlife habitat at Whitefish Point can be preserved and interpreted 
for the public.
                                 ______
                                 
    Prepared Statement of Hon. Michael F. Bennet, U.S. Senator From 
                            Colorado, S. 508
    Chairman Udall, Ranking Member Burr, I thank you for the 
opportunity to submit testimony on S. 508, the Chimney Rock National 
Monument Establishment Act. As you know, I introduced this legislation 
last Congress and it was favorably reported out of this committee on 
July 21, 2010.
    Unfortunately the full Senate was not able to consider this 
legislation in the 111th Congress, but I am hopeful and optimistic that 
we'll be able to pass this popular bill into law this time around.
    I introduced this legislation in the 112th Congress this past 
March. Chairman Udall, I want to extend a special thanks to you for 
joining me as an original cosponsor.
    I write today to express my strong support for S. 508, the Chimney 
Rock National Monument Establishment Act. The parcel of land in 
question is the Chimney Rock Archeological Area, located roughly 20 
miles west of Pagosa Springs--in the southwest part of my home state of 
Colorado.
    This 4,700 acre site is located on San Juan National Forest land 
and is recognized by archeologists the world over as perhaps the most 
significant historical site managed by the entire US Forest Service.
    The twin spires of Chimney Rock attracted the ancestors of the 
modern Pueblo Indians to this area nearly a thousand years ago.
    This unique culture had their main settlement in Chaco Canyon, New 
Mexico, and had a settlement at what is now Mesa Verde National Park 
near Cortez, Colorado.
    The Chaco People established a remote outpost at the base of 
Chimney Rock called The Great House Pueblo. The Great House is situated 
just south of the twin spires and also shown beside me.
    The House was built from six million stones, 5,000 logs and 25,000 
tons of earth and clay. All of these materials were arduously hauled 
1,000 feet up from the valley floor.
    We think they established this outpost to observe a rare lunar 
event. A so-called ``major lunar standstill,'' occurs once every 18.6 
years when the moon appears to rise in the exact same spot three nights 
in a row.
    The Chaco People built the Great House Pueblo to observe this 
spectacular celestial event. There are only two other places in the 
world where archeologists have found evidence that ancient people used 
stone structures to mark a lunar standstill. Stonehenge is one of them.
    Chimney Rock has incredible historical and cultural significance. 
Yet the site lacks a designation equal to that stature. This 
discrepancy is why countless preservation groups got involved with 
Chimney Rock.
    This constituency, coupled with a bipartisan group of local 
officials, local Colorado counties, municipalities and tribes have 
joined in an effort to give Chimney Rock the proper designation.
    They came together and asked me to carry legislation to designate 
Chimney Rock a National Monument. I was happy to answer that call. This 
legislation will provide much-needed protection, and much-deserved 
recognition, for the site.
    Passage of this bill will also provide increased tourism and 
economic development in southwest Colorado, one of the many reasons the 
legislation enjoys unanimous support from the local city and county 
governments.
    This bill was drafted with the help of the US Forest Service, the 
Archuleta County Commissioners, the Pagosa Springs Town Council, 
historic preservation groups, and Native American Tribes in the region.
    Through this robust stakeholder process, we've written a 
commonsense piece of legislation for this important archeological 
treasure. I would draw the Committee's attention to a number of letters 
I'd like to submit for the record today:

          A letter of support from the Archuleta County Commissioners 
        from Archuleta County, Colorado, dated February 4, 2011
          The Pagosa Springs Area Chamber of Commerce

    These letters are in addition to several other support letters from 
local governments and historical preservation groups submitted to the 
Committee when this legislation received a hearing in the 111th 
Congress.
    The bill is largely the same as it was last Congress, though I have 
made small changes to reflect recommendations from your Committee and 
stakeholders in Colorado.
    One particular change I would draw the Committee's attention to is 
contained in section 4(h) of the legislation where we outline the 
designation of a Manager for the Monument. This clarifies my 
legislative language from last Congress to clarify that the Monument 
Manager at Chimney Rock is not precluded from fulfilling other 
obligations within the San Juan National Forest.
    The people of southwest Colorado deserve to have a dedicated 
Manager to be the steward of this remarkable archeological treasure.
    I know the Forest Service sought this clarification when they 
testified on the bill last year and I now understand they're supportive 
of the concept of a dedicated Manager, provided that Manager can 
fulfill other duties on the Forest.
    My staff and I stand ready to work with the members of the 
committee, and the Administration, to address the Manager provision as 
well as any other concerns that arise with the legislation as drafted.
    It is my hope that we can work collaboratively to improve and 
strengthen the legislation. It is then my hope that the Committee will 
support the bill and once again favorably report it out for 
consideration by the Full Senate.
    Thank you again Chairman Udall and Senator Burr for allowing me the 
opportunity to submit testimony on behalf of this measure.
                                 ______
                                 
   Prepared Statement of Hon. Benjamin L. Cardin, U.S. Senator From 
                          Maryland, on S. 247
    Thank you Chairmen Bingaman and Udall and Ranking Members Murkowksi 
and Burr for holding today's hearing and for placing my bill, S. 247, 
The Harriet Tubman National Historical Park and The Harriet Tubman 
Underground Railroad National Historical Park Act. This bill is to pay 
fitting tribute to one of America's most remarkable heroes. I am 
pleased to have my colleagues Senators Schumer, Mikulski, and 
Gillibrand as original co-sponsors.
    The woman, who is known to us as Harriet Tubman, was born in 
approximately 1822 in Dorchester County, Maryland and given the name 
Araminta (Minty) Ross. She spent nearly 30 years of her life in slavery 
on Maryland's Eastern Shore. As an adult she took the first name 
Harriet, and when she was 25 she married John Tubman.
    Harriet Tubman escaped from slavery in 1849. She did so in the dead 
of night, navigating the maze of tidal streams and wetlands that, to 
this day, comprise the Maryland Eastern Shore landscape. She did so 
alone, demonstrating courage, strength and fortitude that became her 
hallmarks. Not satisfied with attaining her own freedom, she returned 
repeatedly for more than 10 years to the places of her enslavement in 
Dorchester and Caroline counties where, under the most adverse 
conditions, she led away many family members and other slaves to 
freedom in the Northeastern United States. Tubman became known as 
``Moses'' by African-Americans and white abolitionists. She is the most 
famous and most important conductor of the network of resistance known 
as the Underground Railroad.
    During the Civil War, Tubman served the Union forces as a spy, a 
scout and a nurse. She served in Virginia, Florida and South Carolina. 
She is credited with leading slaves from those slave states to freedom 
during those years.
    Following the Civil War, Tubman settled in Auburn, New York. There 
she was active in the women's suffrage movement, and she also 
established one of the first incorporated African-American homes for 
aged. In 1903 she bequeathed the home to the African Methodist 
Episcopal Zion Church in Auburn. Harriet Tubman died in Auburn in 1913 
and she is buried there in the Fort Hill Cemetery.
    Slaves were forced to live in primitive buildings even though many 
were skilled tradesmen who constructed the substantial homes of their 
owners. Not surprisingly, few of the structures associated with the 
early years of Tubman's life still stand. The landscapes of the Eastern 
Shore of Maryland, however, remain evocative of the time that Tubman 
lived there. Farm fields and forests dot the landscape, which is also 
notable for its extensive network of tidal rivers and wetlands. In 
particular, a number of properties including the homestead of Ben Ross 
(her father), Stewart's Canal (where he worked), the Brodess Farm 
(where she worked as a slave), and others are within the master plan 
boundaries of the Blackwater National Wildlife Refuge.
    Similarly, Poplar Neck, the plantation from which she escaped to 
freedom, is still largely intact in Caroline County. The properties in 
Talbot County, immediately across the Choptank River from the 
plantation, are today protected by various conservation easements. Were 
she alive today, Tubman would recognize much of the landscape that she 
knew intimately as she secretly led black men, women and children to 
their freedom.
    In New York, on the other hand, many of the buildings associated 
with Tubman's life remain intact. Her personal home, as well as the 
Tubman Home for the Aged, the church and rectory of the Thompson 
Memorial AME Zion Episcopal Church, and the Fort Hill Cemetery are all 
extant.
    In 1999, the Congress approved legislation authorizing a Special 
Resource Study to determine the appropriateness of establishing a unit 
of the National Park Service to honor Harriet Tubman. The Study has 
taken an exceptionally long time to complete, in part because of the 
lack of remaining structures on Maryland's Eastern Shore. There has 
never been any doubt that Tubman led an extraordinary life. Her 
contributions to American history are surpassed by few. Determining the 
most appropriate way to recognize that life and her contributions, 
however, has been exceedingly difficult. Eventually, the National Park 
Service determined that designating a Historical Park that would 
include two geographically separate units would be an appropriate 
tribute to the life of this extraordinary American. The New York unit 
would include the tightly clustered Tubman buildings in the town of 
Auburn. The Maryland portion would include large sections of landscapes 
that are evocative of Tubman's time and are historically relevant. The 
Special Resource Study, completed by the National Park Service in the 
Fall of 2008, confirmed these findings and on July 15, 2009, the 
National Park Service endorsed S. 227 as introduced in the 111th 
Congress during a legislative hearing in the Senate Energy and Natural 
Resources Committee.
    During the process of preparing S. 227 for markup in the Senate 
Energy and Natural Resources Committee, the Chairman of the Committee, 
Mr. Bingaman, drafted a substitute amendment of the bill. The contents 
of the Bingaman substitute are the result of his work to accommodate 
concerns that the Ranking Member on the Senate Energy and Natural 
Resources Committee had with S. 227 as introduced. An agreement was 
reached on the contents of the substitute amendment. An opportunity to 
markup S. 227, consider the Bingaman substitute, and hold a vote in 
Committee never happened in the final months of the 111th Congress.
    My bill incorporates the proposed changes from the Bingaman 
substitute to S. 227. The bill establishes two parks.
    The Harriet Tubman National Historical Park is comprised of 
important historical structures in Auburn, New York. They include 
Tubman's home, the Home for the Aged that she established, the African 
Methodist Episcopal AME Zion Church, and the Fort Hill Cemetery where 
she is buried.
    The Harriet Tubman Underground Railroad National Historical Park 
includes historically important landscapes in Dorchester, Caroline and 
Talbot counties, Maryland, that are evocative of life of Harriet 
Tubman.
    In Dorchester County, the parcels would not be contiguous, but 
would include about 2,775 acres. All of these parcels are located 
within the established master plan boundaries of the Blackwater 
National Wildlife Refuge but are not currently owned by the U.S. Fish 
and Wildlife Service. The four parcels located within the Blackwater 
National Wildlife Refuge Boundary, are sites significant to the life of 
Harriet Tubman. These parcels include the Anthony Thompson plantation 
parcel where Harriet Tubman likely was born, The Brodess Plantation 
parcel where Tubman worked as a young girl, the Cook Plantation parcel 
where as a teenager Harriet Tubman worked as a seamstress, and the 
Jacob Jackson parcel which is believed to be the location of one of the 
first safe houses along the Underground Railroad. The Park would be 
established upon the fee simple acquisition, by the National Park 
Service, of any of these parcels located within the current boundary of 
the Blackwater National Wildlife Refuge.
    Additional areas that would comprise the Harriet Tubman historic 
area include about 2,200 acres in Caroline County that comprise the 
Poplar Neck plantation that Tubman escaped from in 1849. The 725 acres 
of viewshed across the Choptank River in Talbot County would also be 
included in the Park. These parcels are authorized to come under 
protection through conservation easements held by the private property 
owners.
    The bill authorizes such sums as necessary to meet the goals and 
objectives of the bill. Funds can be used for the construction of the 
Harriet Tubman Park Visitors Center (through a cost sharing 
requirement), for easements, or acquisition of the designated parcels 
eligible for fee simple acquisition.
    Harriet Tubman was a true American patriot. She was someone for 
whom liberty and freedom were not just concepts. She lived those 
principles and shared that freedom with hundreds of others. In doing 
so, she has earned a nation's respect and honor.
    This year, I introduced the bill on February 1st to mark the first 
day of Black History Month. Harriet Tubman is one of many great 
Americans that we honor and celebrate every February during Black 
History Black Month. In schools across the country, American History 
curriculums teach our children about Tubman's courage, conviction, her 
fight for freedom and her contributions to the greatness of our nation 
during a contentious time in U.S. history. Now it is time to add to 
Tubman's legacy by preserving, protecting and commemorating the places 
evocative of Harriet Tubman's extraordinary life.
    I once again want to thank the subcommittee for hearing my bill 
today and I look forward to working with my colleagues on the committee 
to establish this important and fitting tribute to Harriet Tubman, a 
life worthy of recognition.
    I am also submitting the following letters of support for my bill 
to be inserted into the subcommittee Record with my statement.
                                 ______
                                 
Prepared Statement of Hon. Kirsten E. Gillibrand, U.S. Senator From New 
                            York, on S. 247
    Chairman Udall and Ranking Member Burr and members of the 
Subcommittee, I thank you for your attention to these important bills, 
which help to protect America's history and our natural resources.
    Today, I lend my support to S. 247, the Harriet Tubman National 
Historical Parks Act. This legislation would establish two national 
parks to preserve and promote the legacy of Harriet Tubman, one of the 
strongest leaders in the anti-slavery and women's suffrage movements in 
our nation's history.
    Harriet Ross Tubman has a deep history in both New York and 
Maryland. The National Historic Park in Maryland will highlight the 
years leading up to Tubman's escape from slavery and her involvement in 
the Underground Railroad. The National Historic Park in Auburn, New 
York will focus on Tubman's later years as a leader in the movement for 
women's suffrage, where she also established one of the first 
incorporated homes for aged African Americans.
    In November 2008, the National Parks Service released the results 
of a multi-year study outlining how best to preserve and promote the 
substantively rich, but geographically varied sites that comprise 
Tubman's legacy.
    As we approach the 100th anniversary of Tubman's death in 2013, it 
is absolutely critical that we establish these national parks to 
commemorate and preserve the legacy of this visionary American hero.
    The National Historic Park in Auburn would provide an important 
place where men, women and children of all backgrounds can come 
together to learn and reflect on the significance of Tubman's life, and 
her many accomplishments at a time when women of color had little 
influence over national politics.
    I thank you for your interest in this important legislation, and 
urge your support to honor Harriet Tubman's legacy by making these 
lands an everlasting part of America's story.
                                 ______
                                 
  Prepared Statement of Hon. Jim Webb, U.S. Senator From Virginia, on 
                           S. 599 and S. 713
    Thank you, Chairman Udall and members of the National Parks 
Subcommittee of the Senate Energy and Natural Resources Committee. I 
appreciate the Subcommittee's attention to legislation I have 
introduced: S. 599, the Civil War Sesquicentennial Commission Act, and 
S. 713, the Petersburg National Battlefield Boundary Modification Act. 
S. 599 and S. 713, respectively, seek to ensure the future remembrance 
of the Civil War as a whole, and to highlight one of the most 
significant time periods of the entire conflict, the ``Petersburg 
Campaign.'' Both bills were considered by the Senate Energy and Natural 
Resources Committee last Congress, and I urge their approval this year 
as well.
    As someone with ancestors who fought on both sides of the American 
Civil War, the 150th anniversary has personal significance to me. It is 
important that all Americans remain aware of the many sacrifices made 
by soldiers and civilians on both sides, and of the long-term impact of 
the Civil War on our country. The intent of S. 599 is to ensure the 
proper recognition of the sesquicentennial by establishing a federal 
Civil War Sesquicentennial Commission that would consist of scholars, 
federal agency directors and experts in historical preservation. I 
envision the commission as building upon previous legislative efforts 
to support education and commemoration of this turning point in 
American history. The commission, along with grant funding 
authorization, will help coordinate and enhance the activities that 
state and local Civil War commissions currently have underway.
    The Civil War sesquicentennial is a time to reflect and commemorate 
the bloodiest conflict this country has ever seen. This anniversary 
should look to improve on the challenges the centennial faced, and 
properly tell all stories and perspectives of the American Civil War. 
That is why the National Park Service has supported this concept in a 
similar hearing during the last Congress.
    Along with action by state and local actors in the commemoration of 
the Civil War, many federal agencies, like the National Park Service, 
have been preparing for the Civil War's 150th anniversary. A federal 
commission will be able to provide technical assistance and additional 
benefits for many of the events and actions being planned such as the 
current forums, ancestry website, and remembrances the Commonwealth of 
Virginia have organized for the coming four years. This opportunity 
will translate to a more efficient, effective, and memorable set of 
activities to mark this significant remembrance.
    Beyond the coordination and leadership provided by the federal 
commission itself, the grant funding authorized in S. 599 will aid 
these various state and county Civil War commissions and provide for 
deeper and more valuable ``legacy projects'' for future generations.
    I ask to submit for the record a letter* of support that prominent 
Civil War and historical preservation groups have authored on behalf of 
S. 599. These are the groups and individuals who do noteworthy work 
year in and year out, and are dedicated to ensuring the best possible 
sesquicentennial.
---------------------------------------------------------------------------
    * See Appendix II.
---------------------------------------------------------------------------
    I would also like to discuss S. 713, the Petersburg National 
Battlefield Boundary Modification Act. The Petersburg National 
Battlefield is one memorable Civil War site that will attract attention 
during the 150th anniversary, which is why my legislation is timely and 
needed. S. 713 proposes to modify the boundary of Petersburg National 
Battlefield, adding 7,238 acres to the battlefield, including 
authorizing a small land transfer between the National Park Service and 
the Department of Army within the adjacent Fort Lee Military 
Reservation. This is bipartisan legislation that was approved by this 
full committee last Congress and has wide local support, as well as 
that of the National Park Service.
    In drafting this legislation, I was very specific in my intent that 
the land acquisitions authorized by the National Park Service come from 
willing sellers. Previously, the Congressional Budget Office (CBO) 
estimated the approximate cost of S. 713 to be a manageable $5 million. 
I am confident that this cost, coupled with funds to operate and 
maintain these lands, will be more than recouped by the local 
communities. In addition, the historical preservation and remembrance 
of the ``Petersburg Campaign'' will be beneficial to many outside the 
Commonwealth.
    Founded in 1926, and transferred to the National Park Service in 
1962, the Petersburg National Battlefield saw nearly one quarter of the 
Civil War fought in its surrounding area. The preservation of these 
battlefields is important for future generations to understand and 
appreciate the significance of our nation's history. It is estimated 
that the Petersburg National Battlefield currently attracts more than 
150,000 visitors and generates more than $9 million in local revenue 
each year.
    The conflicts at Petersburg were the most extensive and complex 
battles of the entire war. I introduced S. 713 to further protect and 
honor this location and those involved in the dramatic battles that 
took place from June of 1864 to April 1865, which led to the eventual 
surrender of Robert E. Lee's forces (the Army of Northern Virginia) at 
Appomattox Court House just days later.
    This legislation is necessary to help the Petersburg community and 
the National Park Service protect vulnerable acres in which these 
battles took place, from present and future development pressures. 
These pressures were outlined in the Final General Management Plan the 
National Park Service issued in 2005 that recommended the full 7,238-
acre boundary expansion identified in the Assessment Integrity Report 
``to protect significant core battlefield areas.''
    As with the Civil War Commission legislation, I ask to submit for 
the record a letter** of support for S. 713 from many prominent Civil 
War and historical preservation groups.
---------------------------------------------------------------------------
    ** See Appendix II.
---------------------------------------------------------------------------
    In conclusion, Mr. Chairman and members of the Subcommittee, these 
bills provide long term preservation and economic benefits, and I again 
respectfully urge the National Parks Subcommittee and the full Senate 
Energy and Natural Resources Committee, to pass these bills. I look 
forward to working with my colleagues in the Senate towards final 
passage on the Senate floor.
    Thank you.
                                 ______
                                 
  Prepared Statement of Hon. Bill Huizenga, U.S. Representative From 
                          Michigan, on S. 140
    Thank you Chairman Udall and Ranking Member Burr for holding this 
hearing on the Sleeping Bear Dunes National Lakeshore Conservation and 
Recreation Act. This legislation, which would designate approximately 
32,557 acres as wilderness, enjoys broad public support in Michigan, 
bipartisan sponsorship in Congress and protects an important and 
popular unit of the National Park System in our state. I would also 
like to thank Senator Levin for partnering with me in this effort and 
being the lead Senate sponsor.
    The road to introduction for this legislation was not easy. 
Originally, the National Park Service ignored public input in 
developing the management plan. As a result, the Park Service 
recommendations were flawed and were rejected by the public and the 
Michigan delegation. However, rather than trying to move ahead, the 
Park Service, with prodding from the Congressional delegation, went 
back to the drawing board and engaged in a transparent process with 
extensive discussions with the local citizens and stakeholders. The 
result, embodied in this legislation, is a balanced proposal that will 
ensure access to this popular resource while protecting its most 
fragile aspects.
    An important responsibility of Congress is to hold the Executive 
Branch accountable for their actions particularly when they do not 
consult with the public. However, Congress should also recognize and 
act on those policies and recommendations in which the public has been 
fully engaged. An example of this is S. 140. The Sleeping Bear Dunes 
National Lakeshore Conservation and Recreation Act demonstrates how the 
process can and should work. The local citizens and stakeholders have 
invested significant time and effort in working with us and with the 
National Park Service in developing the appropriate policies for this 
area.
    Again, I would like to thank the Committee for recognizing the high 
level of local involvement by scheduling S. 140 for action, and it is 
my hope that the House of Representatives will soon take similar action 
on my companion legislation.
                                 ______
                                 
Prepared Statement of Hon. Gregorio Kilili Camacho Sablan, Delegate of 
   Northern Mariana Islands, U.S. House of Representatives, on S. 590
    Chairman Bingaman and Ranking Member Murkowski: Thank you for 
introducing S. 590, legislation that conveys certain submerged lands to 
the Commonwealth of the Northern Mariana Islands and is a companion to 
my own bill, H.R. 670. As you understand, the Commonwealth is the only 
U.S. jurisdiction that does not have ownership of the submerged lands 
three miles off its shores. S. 590 corrects that anomaly, providing the 
same interest in submerged lands around the Northern Mariana Islands as 
is now enjoyed by American Samoa, Guam, and the Virgin Islands.
    Yesterday, the House Natural Resources Subcommittee on Fisheries, 
Wildlife, Oceans and Insular Affairs held a legislative hearing on H.R. 
670 and I can report that the measure continues to receive support from 
the Administration and from the Commonwealth government.
    The legislative language under consideration is the same as that 
which passed the House of Representatives unanimously on July 2009 and 
which was reported favorably by the Senate Energy and Natural Resources 
Committee in May 2010. The bill was made part of Senate Majority Leader 
Reid's The America's Great Outdoors Act of 2010, which was formulated 
in the closing days of the 111th Congress. However, the Senate did not 
have the opportunity to act on that legislation before adjournment.
    I would like to underscore how important the conveyance of 
submerged lands is to the people of the Northern Mariana Islands. For 
thousands of years, our people fished the seas and harvested the marine 
resources around our islands. Yet, on February 25, 2005 the people of 
the Mariana Islands awoke to learn that the Ninth Circuit Court of 
Appeals had concluded that these waters and the submerged lands below 
them did not belong to the people of the Northern Marianas, but were 
the property of the United States. Recognizing, perhaps, the oddity of 
this conclusion, the Court did point out in its decision that Congress 
could return these lands to the people of the Northern Mariana Islands. 
And S. 390 does exactly that.
    I request that this letter be made a part of your Committee's 
bearing record on S. 590. It is my hope that this bill will be reported 
favorably and enacted quickly, so that the people of the Northern 
Mariana Islands will get back the land that they have always believed 
belonged to them.

    Senator Udall. Let me at this time recognize my friend and 
ranking member, Senator Burr, for his opening.

    STATEMENT OF HON. RICHARD BURR, U.S. SENATOR FROM NORTH 
                            CAROLINA

    Senator Burr. Mr. Chairman, thank you, and good afternoon. 
As we convene the first legislative hearing of the new Congress 
today before the National Park Subcommittee.
    I know what I might say is an unfortunate circumstance with 
this hearing being called despite the continued objections of 
Republican members of the committee over the record number of 
bills. This is not to single out any bill that we are going to 
take up today, but it is the sheer volume of bills. Twenty-one 
bills is simply too many for one hearing to thoroughly 
understand. My suggestion would still be that this should have 
been split into two hearings.
    While I certainly understand the need and the desire to 
push legislation forward, it is very difficult and overly 
burdensome for both staff and members, especially those new to 
this committee, who are not acquainted with these bills or the 
overarching issues to adequately prepare for 21 individual 
bills.
    In the past we have routinely capped out hearings at about 
10 to 12 bills, and I hope that we can return to that policy 
soon, Mr. Chairman.
    I have to admit that I am disappointed to be beginning this 
year in such a contentious fashion, not to mention that it is 
the second National Park Subcommittee legislative hearing out 
of the past three where there has been objections by the 
minority at proceeding forward with a hearing. Last year, when 
such a hearing was called over one party's objection, I 
remarked then that there had never been a hearing scheduled in 
such a manner during, at least my time on the committee. Just 
last Congress, it is difficult for me to imagine that it bodes 
well for these particular bills in front of us today making it 
through the committee process on an expedited basis.
    I might also note that the House has been very candid about 
their lack of desire at moving these types of bills. So, for 
those members and for those interested parties today, I would 
not get my hopes up.
    Part of my decision to accept the ranking membership of 
this subcommittee was the history of the bipartisanship and 
working relationship of both members and staff. I continue to 
cherish that and hope that this will not serve as a permanent 
blemish on the subcommittee.
    I certainly have great affection for the chairman of the 
subcommittee as well as the full committee, and I certainly 
enjoy working with both and look forward to continued work for 
another 54 minutes before I have to relinquish my role on the 
Energy Committee and become a member of the Finance Committee. 
I apologize for such late notice, but that just took place 
about a half hours ago. I thank the chairman for the guidance 
and accommodations he has made to me while I have been a member 
of the Energy Committee.
    Senator Udall. Let me thank the ranking member, note his 
stalwart and consistent, insightful service on the committee. 
Congratulations as well. This is an important assignment. I 
know Senator Bingaman, the chairman of the full committee, 
serves on Finance, will be somebody to whom I know you can 
look, and I know he will welcome you as well.
    I more than duly note your concerns, and there are serious 
concerns. As we move forward, we will respond to the legitimate 
points that you have made. Thank you for doing so.
    I know we have got a busy afternoon. I wanted to give 
Senator Wyden a chance to make a brief statement, as well as 
Senator Coons and then Senator Bingaman as well.
    Senator Wyden. Mr. Chairman, thank you. I think all of my 
colleagues are sort of in the same boat where we want to just a 
few minutes. So, I can go after Senator Bingaman and Senator 
Coons.
    As a member of the Finance Committee, I want to welcome 
Senator Burr as well. He is going to be a great addition. But I 
will defer to the chairman of the full committee.

 STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW MEXICO

    The Chairman. That is very kind. Thank you very much.
    Let me also tell Senator Burr we will miss him here on the 
Energy Committee, but we will welcome you on the Finance 
Committee. So, that will be good.
    On the issue that you raise about the number of bills, 
there are a lot of bills here. My hope was in my discussions 
with Senator Murkowski were that this hearing would be a chance 
to identify any bills that needed additional hearings, and we 
can have additional hearings on any bills that need additional 
hearings. But that these are all bills that were considered in 
the previous Congress, were passed out of committee in the 
previous Congress. The thought was that we should get going if 
we are 4 months into this year, this new Congress, and we 
needed to move ahead. So, this was the course we decided on, as 
I say. This does not mean that this is the one and only 
opportunity for people to express concerns, ask questions, get 
further elaboration on some of these bills.
    Let me just speak very briefly, Mr. Chairman, about a bill 
that I am particularly interested in, S. 564. Senator Tom Udall 
and I co-sponsored this to transfer jurisdiction of the Valles 
Caldera National Preserve in northern New Mexico to the 
National Park Service. Like other bills on today's agenda, this 
is a carryover from the previous Congress, during which it 
received a favorable hearing. It was reported out of the 
committee.
    We have had a lot of discussion in New Mexico about what 
the best management structure is for this preserve dating back 
to when the Federal Government acquired the Baca Ranch in 2000.
    In recent years, there has been a growing consensus that 
the Valles Caldera Trust, which is an independent government 
corporation that manages the preserve, will be unable to meet 
the requirements in the enabling legislation, that it be 
financially self-sufficient, and that a different management 
structure might be better for the long-term success of the 
preserve.
    In my opinion, the National Park Service is the agency best 
suited for the long-term management of the Valles Caldera. It 
is my hope that inclusion of the preserve in the national park 
system will improve public access, while allowing the Park 
Service to protect the cultural and natural resources.
    Dr. Raymond Loretto, the chairman of the board, is here to 
testify today. I welcome him. Also with him is Dr. Ken Smith, a 
member of the board. I welcome him as well and look forward to 
their testimony and the testimony, of course, of the National 
Park Service and the Forest Service witnesses.
    Thank you for your courtesy in letting me make a short 
statement.
    Senator Udall. Thank you, Mr. Chairman. We are always 
grateful when you are here and for your leadership. Again, I 
apologize for overlooking you initially.
    I owe Senator Wyden a great deal of gratitude.
    Senator Wyden.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. Thank you, and I will be brief. I know 
Senator Coons wants to speak, too.
    Suffice it to say, the history of this, you know, committee 
and this subcommittee has always been to work in a bipartisan 
way. So, Senator Burr's point is one that we are going to have 
to address. We are going to find a way to do it. There has got 
to be a way, and I thought Chairman Bingaman made the key 
point. We have always got to find a way with the schedule to 
get going. At the same time, we have got to be sensitive to the 
bipartisanship that has been a big part of this committee's 
legacy. I think we will always continue it. We are going to 
conscript Senator Burr into that bipartisan effort on tax 
reform that Senator Coates and I have. We will save that for 
another time.
    Let me just be very brief and say that today we are going 
to be looking at two bills that are especially important to 
Oregon, S. 765, the Oregon Caves Revitalization Act, and S. 
403, the Molalla River Wild and Scenic Rivers Act.
    I just wanted to say a quick word about the Oregon Caves 
legislation, Mr. Chairman. This is a piece of legislation that 
would, in effect, expand the monument boundary by incorporating 
land currently managed by the Forest Service and the National 
Park Service land.
    It also includes a voluntary grazing donation of--that has 
been agreed to by environmental folks, by the permittee, all of 
the folks on the ground, timber people, environmental people, 
and the like.
    There have been reservations by the Administration. This is 
the third time we have been able to do it, and it has 
consistently been about the Forest Service and the Park Service 
talking about how they could work out something of their own 
volition, a monument of agreement, something along those lines.
    While all of this talking goes on, we continue to have the 
problems we have now got, the Forest Service clear cutting 
right up to the monument boundary, leading to a road collapse 
and a shutdown of the public water supply because the turbidity 
was so high that the Park Service folks could not even treat 
it.
    So, we have been at this discussion of trying to work this 
out through a memorandum of agreement. It seems like the 
longest running battle since the Trojan War. As of today, 
almost 3 years since we have been told that we were going to 
get a memorandum of agreement, we still have not actually got a 
memorandum of agreement signed. The same concerns about 
protecting the cave resources exist today as we had 3 years 
ago.
    I just do not think this is going to get done unless the 
committee goes forward in a bipartisan kind of fashion. I am 
committed to doing that.
    I thank you. Chairman Bingaman has been very supportive of 
this effort in the past as well. I look forward to working with 
colleagues.
    Senator Udall. Thank you, Senator Wyden.
    Senator Coons is recognized.

          STATEMENT OF HON. CHRIS COONS, U.S. SENATOR 
                         FROM DELAWARE

    Senator Coons. Thank you very much, Chairman Udall, and 
thank you. Congratulations to Senator Burr both for your 
service on this committee and subcommittee and for your new 
opportunity to join my senior senator from Delaware, a 
committee of great importance to our Congress and our country.
    I appreciate the chance, Mr. Chairman, to speak briefly in 
support of S. 323 to establish the first national historical 
park in the State of Delaware and for other purposes.
    As the chairman knows, my own twin boys are here today, 
and, thus, I may excuse myself briefly before we got to other 
matters so that I could visit with them. My wife and I as 
parents have had the opportunity to visit many national parks 
with our children. National parks are a critical part of what 
it means to be Americans and to have an opportunity to 
appreciate and understand the natural beauty, and the history, 
and the diversity of our Nation's wild lands and of our 
history.
    Delaware is the only State without a national park, and I 
want to commend my senior senator, Tom Carper, for his tireless 
work on behalf of this bill and on behalf of the concept of 
creating a national park in Delaware. This proposed park would 
showcase the first Atunichrol in shaping the founding of our 
Nation, and would offer an opportunity for all Delawareans to 
reconnect with our past and share a bit of our valued history 
with the rest of the country.
    So, as a co-sponsor, I just want to speak in support of 
that bill. Thank you for the opportunity to speak in support of 
the testimony I know will be given be Senator Carper of 
Delaware. Mr. Chairman.
    Senator Udall. Thank you, Senator Coons.
    Now, it is my great privilege to recognize the senior 
senator from Delaware, Senator Carper, for his statement. 
Senator Carper.

          STATEMENT OF HON. TOM CARPER, U.S. SENATOR 
                         FROM DELAWARE

    Senator Carper. Thank you very much, Mr. Chairman. I want 
to join in the congratulations to Senator Burr. Welcome to the 
Finance Committee as well.
    Mr. President, as you know, Senator Coons and I and 
Congressman John Carney and I go back and forth on the train 
just about every day, every night, to Delaware. My first year 
in the Senate, 2001, I got off the train, and I was invited 
over to speak to the Greater Wilmington Visitors and Convention 
Bureau, a pretty big dinner. I got there, and they introduced 
me to speak and talked about the economy, talked about how 
tourism figures into the economy. Then we had a Q&A. One of the 
first questions that was raised was, why do we not have a 
national park, Senator? You have been there like 6 months, and 
we still do not have one. I said, well, you know, that is a 
pretty good question. I said, well, let us see if we can gather 
some ideas. We actually used the Internet to do this. But asked 
the people of our State, is this a good idea? Should we have a 
national park, and in this distinction of, although they are 
the first State to be the only State without a national park. 
We got hundreds of people responding from throughout the State 
and said, yeah, we ought to do this. Some said no, but most 
said, yeah, this would be a most fitting thing.
    The next thing we did was we said, well, give us some 
ideas. Give us some ideas for a national park. A whole slew of 
ideas. One was the, you know, the first Swedes and Fins came to 
America through Delaware. Wilmington, Delaware was the colony 
of New Sweden. There are more Swedish-Americans now than there 
are Swedes. I think there are more Finnish-Americans than there 
are Fins. But they came to this country through Wilmington, 
Delaware.
    They established Fort Christiania. They established the Old 
Swedes Church, which is still there functioning after all these 
hundreds and hundreds of years.
    Almost 400 years ago, the Dutch settled a place called 
Louis, Delaware. If you have ever been to Rehoboth Beach, 
Delaware, just north of there is Louis where we have the oldest 
house in Delaware, over 350 years old, one of the oldest houses 
in America, the Ryves Holt House.
    We have in Old Newcastle land deeded by William Penn over 
300 years ago where our first capital--our first State capital 
was where the courthouse still stands today, and along with the 
sheriff's house right alongside of it.
    Going down to Kent County in the central part of our State, 
we have the Gold Fleece Tavern, at least where it stood, where 
the Constitution was first ratified on December 7, 1787. Before 
any other State had done that, we did.
    A few miles south of there, the Dickinson Mansion where a 
fellow named John Dickinson, the pin man of the American 
Revolution grew up as a child.
    The other things we have to be proud of, the Underground 
Railroad used to run the length of our State and dropped off 
and literally freed slaves and what is now Tubman-Garrett Park 
on the other side of Christiania River; Fort Delaware in the 
middle of the Delaware River where 30,000 Confederate soldiers 
lived during--as prisoners of war during the Civil War; the 
DuPont Company established over 200 years ago with growing out 
of some powder mills along the Brandywine River; ship wrecks. 
One of the neatest ideas that was suggested to us was the idea 
of having off of Cape Henlopen State--off of Cape Henlopen 
where you have dozens and dozens of shipwrecks over the years, 
and to provide for a place for divers to dive. The only way you 
can get to the park is to dive on to the park and go down with 
your snorkeling gear.
    We had all kinds of ideas and a lot to work. We put 
together a citizens group. They barnstormed the State, had a 
lot of public meetings and asked people for their input. They 
worked the National Park Service, the State park folks, the 
Division of Culture--Historical and Cultural Affairs. They came 
up with an idea, and the idea was this: not just to have one 
place or one site for a national park, but to take advantage of 
the existing attractions--Old Swedes Church; Fort Christiana, 
which was once the colony of New Sweden; the beautiful old 
colonial town of New Castle, much like the town of Williamsburg 
deeded by William Penn all those years ago; Dover, Delaware, 
where we have the--where the Constitution was first ratified 
there on the green; the home--the childhood home of John 
Dickinson, who was the pin man of the American Revolution; and 
then the Ryves Holt House in Louis, Delaware, the oldest house 
in Delaware, one of the oldest houses in North America.
    That was the concept, and the idea that sort of grew out of 
the National Park Service when they did their study and went 
all over the State themselves was a way to link all these 
together and a theme that makes sense and makes Delaware 
unique. Here is what they came up with.
    They came up the idea of focus on Delaware to say, why do 
we not say we are going to create a national park that links 
together early colonial settlement--Swedes, Fins, Dutch, 
Brits--and tie that together leading up to the ratification of 
the Constitution? That indeed is what now two administrations 
have endorsed--the George W. Bush Administration and now the 
Obama Administration. We are very grateful for the opportunity 
to work with all of them.
    The last thing I want to say, others have talked--Chris 
Coons talked about his own family and vacations. My family--my 
boys are 21 and 22 now. Many a summer getting ready for our 
August recess, we would plan our summer vacations, and we would 
do it by going to the National Park website. We went to places 
as close by as Philadelphia, as far away as Denali in Alaska. 
We went to the Grand Canyon. We went to Utah to the national 
parks there. We went to the Bryce and the Zion National Parks. 
We went all over this country visiting national parks.
    Every day people go in this country and around the world to 
the National Park website looking for places to spend their 
vacation and, frankly, their money--hotels to stay in, motels, 
campgrounds, restaurants to eat in, grocery stores to shop in, 
souvenirs to buy, other things. Collectively, the amount of 
money invested through--in our National Park Service, I had no 
idea what it was. The National Park Service actually has 
calculated the economic value that flows out of every national 
park in America.
    They include--I would just say in the State of--I don't 
have them all here, but State of Arizona, where there are 13 
national parks, the economic benefit for the tourism--visitors 
can go to 13 national parks. You ready for this--$300 million. 
We also asked them to look at North Carolina, and North 
Carolina, which has--let us see, not quite as many national 
parks, but the economic benefit for North Carolina--ready for 
this--$700 million. So, in Delaware you get to the economic 
benefit for Delaware from our national park? It's a zero. Quite 
frankly, we have a lot to be proud of.
    In the early part of the settlement of our country and the 
history of our country leading up to the Constitution and all 
is a story that needs to be told, and it is the story we would 
be privileged to tell, not just to people in Delaware, but 
people in this country, people around the world.
    I will close with this, Mr. Chairman. Ken Burns came to 
Delaware about 2 weeks, visited Old New Castle. You know, he is 
a documentary filmmaker--great film ``Baseball,'' ``Jazz,'' all 
kinds of stuff, America's best idea of the national park. He 
actually grew up in Delaware from the age of 2 to 10 and comes 
back from time to time. He said, there is a real irony here, 
that the State--the first State to ratify the Constitution, the 
State that literally was the whole the Unites States of America 
for a short while, is the only State that does not have a 
national park. That said, that is a distinction that I think 
the time has come to end.
    I am grateful to you for your kindness and your support and 
to the chairman of the committee and the ranking member. We 
just look forward to working with you as we take what I think 
is a pretty good idea. It has been cooked long enough. I think 
it is ready for prime time, and we look forward to bringing it 
to the committee and hopefully the full Senate and the House 
later this year.
    Senator Udall. Thank you, Senator Carper. Your enthusiasm 
is always infectious. Delaware was first, and now it will be 
50th, and they are both a reason to celebrate.
    Senator Carper. What does it say in the Bible in the New 
Testament, ``The first shall be last, and the last shall be 
first.'' So, I think it is our turn.
    Senator Udall. Ken Burns, of course, is an iconic figure, 
and that is important news that he made the trip to Delaware 
and he has the connection to Delaware.
    Senator Carper. Thank you.
    Senator Udall. Done. We look forwarding to working with you 
in bringing this to fruition.
    I would like to turn to the chairman if he had any 
questions for Senator Carper.
    The Chairman. No. I commend Senator Carper for his 
initiative here, and strongly support it.
    Senator Carper. Thanks, Mr. Chairman.
    Senator Udall. Thank you, Senator Carper. We will direct 
some additional questions, I am sure, to you through the 
record.
    Senator Carper. Do you think Senator Burr has anything to 
say in his last 30 minutes on this committee? I should be 
careful.
    Senator Burr. A $700 million impact is a little 
undershooting the impact of our national park presence in North 
Carolina, but we are grateful to you for your initiative.
    Senator Carper. Thank you. We will never be a $300 million 
or $700 million, but we can do better than zero. We can do a 
lot better than that, and we should. Thank you.
    Senator Udall. Thank you, Senator Carper.
    With that, let us call the Administration witnesses 
forward, and we look forward to hearing from your--the 
witnesses when they get settled in their chairs.
    We have been joined by Stephen Whitesell, who is the 
associate director of park planning, facilities, and lands from 
the National Park Service, Joel Holtrop, who is the deputy 
chief, the National Forest System, Department of Agriculture, 
and Dr. Raymond Loretto, who is chairman of Valles Caldera 
Trust.
    Let us start with Mr. Whitesell. If you can--we are on a 
tight schedule. If you could keep your remarks under 5 minutes, 
it would be greatly appreciated. Thank you.

 STATEMENT OF STEPHEN E. WHITESELL, ASSOCIATE DIRECTOR OF PARK 
    PLANNING, FACILITIES, AND LANDS, NATIONAL PARK SERVICE, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Whitesell. I will certainly try to do that, Mr. 
Chairman.
    Mr. Chairman, thank you for the opportunity to appear 
before this subcommittee to present the Department's views on 
20 of the bills on today's agenda. Seventeen of these bills 
relate to the National Park Service and three to the Bureau of 
Land Management.
    Robert Towne, Deputy Assistant Director for the BLM, is 
accompanying me today and will be happy to answer questions 
regarding S. 177, S. 403, and S. 404, the 3 BLM bills on 
today's agenda.
    I would like to submit our full statement for each of the 
subjects for the record and briefly summarize the 
Administration's positions on these bills.
    The Department supports the following bills: S. 114, which 
would authorize a cooperative agreement, a boundary adjustment, 
and a boundary study for San Antonio Missions National 
Historical Park in Texas; S. 127, which would establish the 
Buffalo Bayou National Heritage area in Texas; S. 140, which 
would designate a wilderness area at Sleeping Bear Dunes 
National Lakeshore in Michigan; S. 247, which would establish 
the Harriet Tubman National Historical Park in New York and the 
Harriet Tubman Underground Railroad National Historical Park in 
Maryland; S. 279, which would authorize a special resource 
study of Camp Hale in Colorado; S. 302, which would authorize 
right of way permits for a natural gas pipeline through Denali 
National Park in Alaska; S. 313, which would authorize permits 
for microhydro projects and a land exchange also at Denali 
National Park; S. 323, which would establish the First State 
National Historical Park in Delaware; S. 403, which would 
designate 15.1 miles of the Molalla River and 3.2 miles of the 
Table Rock Fork of the Molalla in Oregon as part of the 
National Wild and Scenic River System; S. 404, which would 
modify the land patent for the Whitefish Point Light Station in 
Michigan; S. 535, which would authorize a lease of property at 
Fort Pulaski National Monument in Georgia; S. 564, which would 
designate the Valles Caldera National Preserve in New Mexico as 
a unit of the National Park System; S. 599, which would 
establish a Civil War Sesquicentennial Commemorative 
Commission; S. 713, which would modify the boundary of 
Petersburg National Battlefield in Virginia; S. 779, which 
would expand the American Battlefield Protection Program to 
include battlefields for the Revolutionary War and the War of 
1812; and finally S. 858, which would authorize a special 
resource study of the Colonel Charles Young home in Ohio.
    The reasons for our support for these bills are explained 
in our full statements.
    For several of the bills I just mentioned, we are 
requesting that the committee make minor amendments to the bill 
language. Explanations of these requested amendments are also 
contained in our full statements.
    In addition, the Department supports the goals of S. 177, 
which would authorize the acquisition of the Gold Hill Ranch in 
California by the BLM. But the Bureau would like to work with 
the sponsoring committee to clarify this legislation.
    Regarding S. 161, which would make several changes to 
Pinnacles National Monument in California, the Department 
supports the redesignation of the monument as a national park, 
the expansion of wilderness areas within the park, and the 
renaming of the wilderness as the Hane Wilderness.
    However, the Department does not support authorizing the 
acquisition of the Rock Springs Ranch, an 18,200 acre property 
that is geographically separated from the park. The National 
Park Service recently completed a reconnaissance survey that 
found that the Rock Springs Ranch does not appear to be a 
feasible addition to the park based on high costs for land 
acquisition, resource protection, staffing, and visitor 
services.
    Regarding S. 765, which would modify the boundary of Oregon 
Caves National Monument, the Department supports the intent of 
the legislation as consistent with the general management plan 
for the park, but recommends deferring action on the bill as we 
continue exploring ways to maintain interagency coordination 
with the U.S. Forest Service.
    Finally, regarding S. 849, which would establish the Waco 
Mammoth National Monument in Texas, the Department supports 
establishing a unit of the National Park system at this site 
consistent with the study of the National Park Service 
completed in 2008. However, we oppose S. 849 in its current 
form.
    S. 849 contains significant changes to the versions of this 
legislation introduced in the last Congress. It requires the 
Secretary of the Interior to administer the national monument 
as a unit of the National Park system, but prohibits the 
Secretary from expending any Federal funds to do so. That would 
create an untenable situation. We would like to work with the 
sponsor and the committee on revising the bill so that we can 
support it.
    Mr. Chairman, that concludes my statement, and I would be 
pleased to answer any questions you may have.
    [The prepared statements of Mr. Whitesell follow:]
Prepared Statements of Stephen E. Whitesell, Associate Director of Park 
 Planning, Facilities, and Lands, National Park Service, Department of 
                              the Interior
                                 s. 114
    Mr. Chairman and members of the Subcommittees, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 114, to authorize the Secretary of the Interior 
to enter into a cooperative agreement for a park headquarters at San 
Antonio Missions National Historical Park, to expand the boundary of 
the park, to conduct a study of potential land acquisitions, and for 
other purposes.
    The Department supports S. 114. On September 29, 2010, the 
Department testified in support of S. 3524, an identical bill, before 
this subcommittee, during the last Congress.
    S. 114 would amend Section 201 of Public Law 95-629 to direct the 
Secretary of the Interior (Secretary) to conduct a study of lands in 
Bexar and Wilson Counties to identify lands that would be appropriate 
to include within the boundaries of San Antonio Missions National 
Historical Park (Park). The Secretary is directed to report on the 
findings of the study three years after funds are made available. S. 
114 also authorizes the Secretary to enter into a cooperative agreement 
with the City of San Antonio, or its designee, for operation of a 
facility outside the boundary of the park to provide visitor facilities 
and office space for a headquarters and operational support for the 
park. Funding for the cooperative agreement would be subject to 
appropriations. Finally, the boundary of the park would be expanded by 
approximately 151 acres.
    San Antonio Missions National Historical Park preserves a 
significant link to Mexico and Spain that has influenced the culture 
and history of the United States since before its inception. San 
Antonio is now the seventh largest and third fastest growing city in 
the United States. The city grew 68 percent between 1980 and 2007 and 
now almost entirely surrounds the Park with urban development, 
threatening areas that contain significant Spanish colonial resources 
historically associated with the Park.
    Park headquarters for San Antonio Missions are currently 
inadequate; they do not meet fire, safety or security standards; and 
are in an expired lease space not adjacent to the Park. The Park's 
maintenance operations are dispersed in three separate locations. The 
Park's curatorial collection, which contains almost one million Spanish 
Colonial period objects, is stored in four different locations, 
including two locations that do not meet National Park Service (NPS) 
Curatorial Storage Standards.
    The City of San Antonio, Texas (City) has acquired lands adjacent 
to Mission San Jose and has proposed a partnership with the Park and 
one of its partners for the construction of a park headquarters. A 
cooperative agreement, such as the one described in S. 114, would 
provide the NPS with the ability to enter into an agreement with the 
City or an entity of the City's choosing such as Los Compadres de San 
Antonio Missions National Historical Park (Los Compadres), to assist 
with operation of visitor facilities and office space for a park 
headquarters.
    S. 114 would also expand the boundary of San Antonio Missions 
National Historical Park by approximately 151 acres, of which 118 acres 
are either currently owned by the NPS, are being donated, or are being 
transferred through a land exchange to the Park. All costs associated 
with the land exchange will be paid for by the San Antonio River 
Authority with the NPS only paying for minimal transaction costs. 
Thirty-three acres would either be purchased by the NPS from willing 
sellers or donated to the Park. It is estimated that the acquisition of 
these 33 acres could cost as much as $3,587,110 and operational costs 
associated with adding the 151 acres of land are not expected to exceed 
$100,000 per year. Associated land acquisition funding requests would 
be subject to the Administration's prioritization process that uses 
consistent and merit-based criteria to select projects, and the 
availability of appropriations.
    The Park's General Management Plan and Land Protection Plan 
acknowledge that the current boundary is insufficient to fully achieve 
the Park's purpose. The Park's most recent feasibility study 
recommended a much larger area to best protect the cultural resources 
associated with the Park. Numerous areas that contain significant 
Spanish colonial resources historically associated with the Park still 
remain outside the boundary. In addition, the Park has acquired lands 
that are outside the current boundary and is in the process of 
accepting additional lands that will be included within the boundary as 
a part of a land exchange with the San Antonio River Authority and U.S. 
Army Corps of Engineers to facilitate restoration of the San Antonio 
River.
    S. 114 would also authorize the Secretary to conduct a study of 
lands within Bexar and Wilson counties, in the State of Texas, to 
identify lands that would be suitable for inclusion within the 
boundaries of the Park. The study should also explore management 
alternatives that would best ensure public access, preservation, 
protection, and interpretation of the Missions. We estimate that this 
study will cost approximately $350,000.
    This legislation enjoys the strong support of officials from Bexar 
County, Wilson County, the City of San Antonio, the City of 
Floresville, the San Antonio River Authority, the San Antonio 
Conservation Society, Los Compadres, and others. It would help 
guarantee the preservation, protection, restoration, and interpretation 
of the missions for current and future generations.
    Mr. Chairman, that concludes my prepared remarks. I would be happy 
to answer any questions you or any other members of the Subcommittees 
may have.
                                 s. 127
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 127, a bill to establish the 
Buffalo Bayou National Heritage Area in Texas, and for other purposes.
    The Department recognizes the appropriateness of designating the 
Buffalo Bayou National Heritage Area, but recommends deferring action 
on S. 127 until program legislation is enacted that establishes 
criteria to evaluate potentially qualified national heritage areas and 
a process for the designation and administration of these areas. We 
recommend that Congress enact national heritage area program 
legislation in this Congress. The Department previously testified 
before this subcommittee with the same position on S. 3261, an 
identical bill, on September 29, 2010, during the last Congress.
    There are currently 49 designated national heritage areas, yet 
there is no authority in law that guides the designation and 
administration of these areas. Program legislation would provide a 
much-needed framework for evaluating proposed national heritage areas, 
offering guidelines for successful planning and management, clarifying 
the roles and responsibilities of all parties, and standardizing 
timeframes and funding for designated areas. Program legislation was 
introduced in the 109th and 110th Congresses, and we look forward to 
continuing to work with Congress on this very important issue.
    S. 127 would establish the Buffalo Bayou National Heritage Area 
(NHA) in Harris County, Texas, with the Buffalo Bayou National Heritage 
Area Corporation designated as the National Heritage Area's Management 
Entity. The National Park Service (NPS) completed a suitability and 
feasibility study on the proposed Buffalo Bayou NHA in April 2010 that 
determined that the NHA met the NPS criteria for establishment.
    When brothers Augustus Chapman Allen and John Kirby Allen 
established the city of Houston in 1836, they envisioned a great new 
city, but could not have imagined Houston's role in fueling the rise of 
the United States as a world power in the 20th century. The Houston 
town site was located along the Buffalo Bayou, which was the only semi-
navigable waterway running east and west in Texas. The bayou eventually 
became a major economic access point into the Southwest and a corridor 
to the Gulf of Mexico and beyond.
    Houston's oil industry helped draw and meld cultures that helped 
define its regional character and the economic growth of the Buffalo 
Bayou as a center for oil and petrochemical production shaped the 
community's character.
    Adjacent to the Buffalo Bayou ship channel is the San Jacinto 
Battleground State Historic Site, where Texas gained its independence 
as a republic. A National Historic Landmark and State Park, the San 
Jacinto Battleground provides the cultural and natural landscape for 
the second major theme of the proposed National Heritage Area: Texas 
independence. The historic site also includes the USS Texas battleship, 
also designated as a National Historic Landmark, which was built in the 
``dreadnought'' era and launched in 1912. After serving in World War I, 
the ship was updated for service in World War II, and participated in 
the amphibious invasions of Normandy, Iwo Jima, and Okinawa.
    Historian Lynn M. Alperin has stated that ``Buffalo Bayou has been 
transformed from a meandering stream into a vast industrial complex.'' 
That transformation has not been without environmental consequences. 
However, as with most cities throughout the United States in the second 
half of the 20th century, Houston has worked to balance economic 
development with environmental protection. Parts of the story of the 
proposed Buffalo Bayou National Heritage Area are environmental and 
recreational initiatives, supported by its industries, including 
wetlands restoration, trails development, prairie restoration, 
riverfront park development, and natural preserves. These efforts are 
part of the story of the community's efforts to improve the quality of 
life for Houston's two million people.
    A potential Buffalo Bayou National Heritage Area, through its 
historical, natural, cultural, and recreational resources, its network 
of partner organizations, its diverse population, and consistent with 
the area's economy, would represent a distinctively American story 
about the nation's growth. The nationally significant themes of Houston 
as the Nation's ``Energy Capital'' and Texas independence are 
significant chapters of our history. These important American stories 
are best told through the framework of a National Heritage Area by the 
people of the Buffalo Bayou themselves and the partner organizations 
that represent them.
    Mr. Chairman, that concludes my prepared remarks. I would be happy 
to answer any questions you or any other members of the subcommittees 
may have.
                                 s. 140
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 140, a bill to designate the Sleeping Bear Dunes 
Wilderness at Sleeping Bear Dunes National Lakeshore in the State of 
Michigan.
    The Department strongly supports enactment of S. 140. This 
legislation would designate 32,557 acres, or 46 percent, of Sleeping 
Bear Dunes National Lakeshore in Michigan's Lower Peninsula as 
federally protected wilderness. Management of the wilderness area would 
be in accordance with the 1964 Wilderness Act (16 U.S.C. 1131 et seq.).
    P.L. 91-479 established Sleeping Bear Dunes National Lakeshore on 
October 21, 1970, in order ``. . .that certain outstanding natural 
features including forests, beaches, dune formations, and ancient 
(glacial) phenomena. . .be preserved in their natural setting and 
protected from developments and uses which would destroy the scenic 
beauty and natural character of the area. . .for the benefit, 
inspiration, education, recreation, and enjoyment of the public.'' This 
bill clearly supports the intent of that law.
    The park extends nearly 30 miles along the eastern shore of Lake 
Michigan. It also includes two large Lake Michigan islands with an 
additional 35 miles of shoreline. The park protects and preserves 
superlative scenic and recreational resources including towering 
perched sand dunes that rise as high as 450 feet above Lake Michigan. 
The park contains several federally threatened and endangered species, 
including the Piping Plover, Pitcher's Thistle and Michigan 
Monkeyflower. The park also includes many historic features, including 
a lighthouse and three U.S. life-saving service stations, coastal 
villages, and picturesque farmsteads. Permanent wilderness designation 
will ensure protection of these significant natural, cultural and 
historical resources.
    The park receives nearly 1.2 million visitors each year who enjoy 
the beaches, over 100 miles of backcountry trails and eight 
campgrounds. The region surrounding the park is a popular vacation and 
summer home destination as visitors and residents take advantage of a 
variety of recreational opportunities, including hiking, camping, 
backpacking, hunting, fishing, bird watching, boating, cross-country 
skiing and snowshoeing. The National Park Service estimates that the 
presence of the National Lakeshore brings nearly $78 million of 
economic benefit to the local community each year.* Designation of the 
wilderness area will not limit public access or change the way the area 
is currently being managed for public use and enjoyment.
---------------------------------------------------------------------------
    * Stynes, Daniel J. ``National Park Visitor Spending and Payroll 
Impacts: 2009.'' National Park Service, 2011.
---------------------------------------------------------------------------
    Native American use of the area extends some 3,000 years into the 
past and is represented today primarily by the Grand Traverse Band of 
Ottawa and Chippewa Indians. Nothing in S. 140 would modify, alter, or 
affect any treaty rights.
    The park encompasses a total of 71,291 acres; about 58,571 acres of 
land and 12,720 acres of water. Over 30,000 acres of the proposed 
32,557-acre wilderness area have been managed as wilderness since 1981, 
when a wilderness proposal produced under the park's first 
comprehensive General Management Plan (GMP) was published. Since that 
time, the five areas of the park proposed as wilderness have provided 
outstanding recreational opportunities for hikers, backpackers, 
anglers, paddlers, and hunters with hunting being allowed in accordance 
with State regulations. A network of hiking trails and numerous camping 
opportunities will continue to be maintained in this portion of the 
park, even with the wilderness designation. The additional acres in the 
current proposal arise from the inclusion of the Sleeping Bear Plateau, 
an area only suitable for foot travel that continues to offer 
outstanding opportunities for solitude. Since formal wilderness 
designation would not change the way in which visitor use is currently 
managed in the area proposed as wilderness, there is no reason to 
believe it would have any detrimental impact on visitation or the local 
economy, and formal designation may actually have a beneficial impact.
    The proposed wilderness area does not include any existing county 
roads or areas managed primarily for historic resources. This is to 
ensure the continued availability of the county roads for visitors 
accessing remote trailheads, beaches, backcountry areas and historic 
areas. Although the park's boundary extends one-quarter mile out into 
Lake Michigan, none of the waters of Lake Michigan are proposed as 
wilderness. S. 140 would authorize the use of boat motors on the 
surface water of Lake Michigan adjacent to the wilderness and beaching 
of those boats, subject to applicable laws. This is to ensure continued 
access by boaters to the shoreline beach adjacent to the wilderness 
area. These have been areas of significant public concern.
    Between 2006 and 2009, the NPS developed an updated GMP for the 
park. Because of public concern over the 1981 wilderness proposal, and 
its inclusion of county roads and historic sites, a formal Wilderness 
Study was conducted as part of this comprehensive planning effort. 
After extensive public involvement, review, and comment, including 
overwhelming public support for wilderness designation, the preferred 
alternative in the final GMP/Wilderness Study was approved by the 
Midwest Regional Director on January 6, 2009. The area of proposed 
wilderness was mapped at 32,557 acres, with a portion in all five 
eligible areas, and is the same as the proposed wilderness designation 
in S. 140. The final GMP/Wilderness Study does not propose wilderness 
in several eligible areas, including those areas fragmented by the road 
corridors near the Otter Creek area of the Lakeshore; the land within 
the Port Oneida Rural Historic District; the lands in the historic 
``Cottage Row'' on North Manitou Island; the area in the South Manitou 
Island historic farm loop; an area near the historic Bufka Farm 
identified for a bicycle trail; and the congested area at the top of 
the Dune Climb.
    Passage of S. 140 would support the vision in the new GMP. The bill 
has very strong, broad-based public support. The overwhelming majority 
of local officials, the conservation community, and the Michigan 
delegation are united in their support for this bill as a winning 
resolution to an issue that has been debated since the park's 
establishment in 1970. Parties that had been bitterly polarized over 
earlier proposals have reached consensus that this bill strikes an 
appropriate balance between preserving access and guaranteeing 
outstanding primitive recreational opportunities.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.
                                 s. 161
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
161, a bill to establish Pinnacles National Park in the State of 
California as a unit of the National Park System, and for other 
purposes.
    The Department supports the provisions of S. 161 that would 
redesignate Pinnacles National Monument as Pinnacles National Park, 
expand the park wilderness by 2,715 acres, and rename the wilderness as 
the ``Hain Wilderness'' in honor of an early park proponent. The 
Department does not support authorization of acquisition of Rock 
Springs Ranch as provided for in Section 3(g)(2) of the bill.
    The bill would add 2,715 acres to the designated wilderness at the 
monument and rename the Pinnacles Wilderness as the ``Hain 
Wilderness.'' Congress has recognized wilderness characteristics at 
Pinnacles by previously designating more than one-half of the 
monument's 24,000 acres as wilderness. The additional acreage is 
appropriate for wilderness designation. Naming the wilderness as the 
``Hain Wilderness'' would commemorate the establishment of Pinnacles 
National Monument by immigrant homesteaders from Michigan who first 
arrived at the Pinnacles in 1886. The Hain families were farmers and 
community pioneers who established the first post office and county 
road. In 1893, Schuyler Hain conceived the idea of designating the 
Pinnacles as a public park or even a national park. Mr. Hain 
successfully championed the establishment of the Pinnacles Forest 
Reserve in 1906 and Pinnacles National Monument in 1908. The National 
Park Service (NPS) considers it a high honor to be permanently 
commemorated in a unit of the national park system and seeks to reserve 
this honor for cases where there is a compelling justification for such 
recognition. We believe that there is a compelling justification in 
this case.
    The bill would authorize acquisition of 18,200 acres of land known 
as the ``Rock Springs Ranch Tract.'' The Rock Springs Ranch Tract 
contains open space for wildlife habitat conservation and contributes 
to the rural character of the area. The NPS recently completed a 
reconnaissance survey and found that the Rock Springs Ranch Tract 
resources are potentially nationally significant and suitable for 
inclusion in the national park system. The survey also found, however, 
that the Rock Springs Ranch Tract does not appear to be a feasible 
addition to the system based on high costs for land acquisition, 
resource protection, and staffing and visitor services for this large 
property that is geographically separated from Pinnacles National 
Monument. The NPS is exploring opportunities to work with community 
members, non-profit entities, the Bureau of Land Management, and other 
partners to create a public-private conservation strategy for the ranch 
lands. These strategies would maintain open space and traditional 
working ranch activities with or without direct federal ownership.
    If the committee moves this legislation forward and includes the 
Rock Springs Ranch Tract authorization, we would like to work with the 
committee on amendments to that section that would identify the lands 
authorized to be acquired by reference to a map. Mr. Chairman, this 
concludes my statement. I would be pleased to respond to any questions 
that you may have.
                                 s. 177
    Thank you for the invitation to present testimony on S. 177, the 
Gold Hill-Wakamatsu Preservation Act, which would authorize the 
Secretary of the Interior to acquire the Gold Hill Ranch--by donation, 
exchange, or purchase from a willing seller with donated or 
appropriated funds--to preserve it as a site of historical and cultural 
value. Preservation of cultural and historical resources is a priority 
for the Department of the Interior and the Bureau of Land Management 
(BLM). The BLM supports the goals of the bill but notes that BLM can 
make this acquisition under its existing authorities, and we would like 
to work with the sponsor and the Committee to clarify S. 177.
Background
    The Wakamatsu Colony is an early settlement site of great cultural 
significance to the Japanese-American community. It is the oldest known 
cultural site in North America associated with Japanese immigration. 
The colony was founded in 1869 by twenty immigrants from Aizu-
Wakamatsu, Japan. These colonists fled Japan during the political 
upheaval that accompanied the Meiji Restoration. The colonists 
purchased land at Gold Hill in western El Dorado County, California, 
and established a tea and silk plantation. The colony operated for 2 
years, after which the land--known as the Gold Hill Ranch--was acquired 
by the Veerkamp family in 1871. The Veerkamps recognized its historic 
and cultural significance and in 2010 sold the property to the American 
River Conservancy (Conservancy), a local land trust. The Conservancy 
would like to transfer ownership of the property to a government entity 
for long-term preservation of the site.
    The 272-acre site includes a home from the 1860s that was occupied 
by the colonists, the mulberry trees they planted, and the grave of 
Okei Ito. Her grave is thought to be the oldest grave of a Japanese 
immigrant in North America. Adjacent to the site is the Gold Trail 
Elementary School, which since 1980 has maintained a sister-school 
relationship with Higashiyama Elementary School in Aizu Wakamatsu. The 
school property hosts a monument dedicated by then-Governor Ronald 
Reagan that established the Wakamatsu Tea and Silk Farm Colony as 
California Registered Historical Landmark Number 815.
    Several Japanese-American civic and cultural groups and others have 
written to the BLM to express their support for preservation and 
restoration of the Wakamatsu Colony site. The Gold Hill region is an 
historic California gold rush landscape that is urbanizing rapidly, and 
this legislation could prevent the loss of an important pioneering 
site. Members of that community, including the Japanese American 
Citizens League, U.S. Representative Doris Matsui, and California State 
Assemblyman Alan Nakanishi, worked with the Conservancy to raise the 
funds needed to purchase the site. Their goal is to establish an 
endowment that would fund future restoration, interpretive operations, 
and maintenance of the site. Citing the BLM's highly successful 
management of other nearby acquired lands, local Japanese-American 
community organizations and the Conservancy are advocating that the BLM 
take title to the property.
    Acquisition of the Gold Hill Ranch would be consistent with the 
goals of the BLM's Sierra Resource Management Plan. The BLM's nearby 
Mother Lode Field Office already manages several acquired properties 
for their historical and conservation values, including the historic 
Chung Wah Chinese cemetery about 15 miles to the west of the Ranch, 
which was donated to the BLM by the Chinese-American community in 2007, 
and the Pine Hill Preserve, a rare plant preserve totaling 4,000 acres 
across dozens of parcels about 5 miles southwest of the Ranch.
    S. 177 would authorize the Secretary of the Interior, acting 
through the BLM, to acquire the Gold Hill Ranch--by donation, exchange, 
or purchase from a willing seller with donated or appropriated funds--
to preserve it as a site of historical and cultural value. The BLM 
supports the goals of the bill and acknowledges the efforts to date by 
the private sector to raise funds for the acquisition and long-term 
maintenance of the property. The BLM notes that it can make the 
acquisition under its existing authorities, subject to budget 
priorities and the availability of appropriations. However, this 
project was not included in the land acquisition priority lists for the 
2011 and 2012 budgets.
    The legislation gives the Secretary discretion to enter into a 
cooperative agreement with public or nonprofit entities to interpret 
the history of the site and related pioneer history. The bill also 
provides that the cooperative agreement may include provisions for the 
design and development of a visitor center. The cooperative agreement 
provides an excellent opportunity for further expression of community 
support for preservation and restoration of this historic site.
    The BLM would like to work with the sponsor and the Committee to 
clarify the purposes for which the BLM would be authorized to expend 
appropriated funds.
Conclusion
    Thank you for the opportunity to present testimony in support of 
the goals of S. 177.
                                 s. 247
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 247, a bill to establish the 
Harriet Tubman National Historical Park in Auburn, New York, and the 
Harriet Tubman Underground Railroad National Historical Park in 
Caroline, Dorchester, and Talbot Counties in Maryland.
    The Department supports enactment of S. 247, with two technical 
amendments attached to this testimony. The Department testified in the 
House of Representatives on March 24, 2009, and in the Senate on July 
15, 2009, in support of similar bills introduced during the 111th 
Congress.
    Harriet Tubman is truly an iconic American. Born circa 1822 as an 
enslaved person in Dorchester County, Maryland, she courageously 
escaped her bondage in 1849, returned on many occasions to Dorchester 
and Caroline Counties to free others including members of her family 
and remains known, popularly and appropriately, as ``The Moses of her 
People.'' She was a leading ``conductor'' along the Underground 
Railroad guiding the enslaved to freedom at great risk to her own life. 
Her accomplishments were admired and extolled by her contemporaries 
including the abolitionist leader and former slave Frederick Douglass. 
In 1868 Douglass wrote to Tubman:

          Most that I have done and suffered in the service of our 
        cause has been in public, and I have received much 
        encouragement at every step of the way. You, on the other hand, 
        have labored in a private way. I have wrought in the day--you 
        in the night. . .The midnight sky and the silent stars have 
        been the witnesses of your devotion to freedom and of your 
        heroism.

    Harriet Tubman served honorably during this nation's Civil War as a 
cook, nurse, scout, and spy for Union forces in Virginia, South 
Carolina, and Florida, always at personal risk and always advancing the 
quest for freedom by providing assistance to other enslaved people. In 
June 1863, she guided Union troops in South Carolina for an assault 
along the Combahee River resulting in the emancipation of hundreds of 
the enslaved.
    At the invitation of then U.S. Senator and later Secretary of State 
William H. Seward, Harriet Tubman purchased land from him in Auburn, 
New York, where she lived and cared for members of her family and other 
former slaves seeking safe haven in the North. In later life, she 
became active in progressive causes including efforts for women's 
suffrage. Working closely with activists such as Susan B. Anthony and 
Emily Howland, she traveled from Auburn to cities in the East 
advocating voting rights for women. Harriet Tubman gave the keynote 
speech at the first meeting of the National Federation of Afro-American 
Women upon its founding in 1896.
    Harriet Tubman was an intensely spiritual person and active in the 
African Methodist Episcopal (A.M.E.) Zion Church. In 1903 she donated 
land to the Church in Auburn for the establishment of a home ``for aged 
and indigent colored people.'' She died on March 10, 1913, at this home 
for the aged and was buried with full military honors at Fort Hill 
Cemetery in Auburn. Booker T. Washington, also born into slavery, 
journeyed from Alabama a year later to speak at the installation of a 
commemorative plaque for her at Auburn City Hall.
    Harriet Tubman is an American figure of lore and legend. Today, she 
is an enduring inspiration to those who cherish individual freedom and 
strive for human rights throughout the world.
    On January 12, 2009, the Department transmitted the Harriet Tubman 
Special Resource Study to Congress. The study, authorized by Public Law 
106-516, the Harriet Tubman Special Resource Study Act, concluded that 
the resources associated with Harriet Tubman in Auburn, New York, and 
Caroline, Dorchester, and Talbot Counties, Maryland met the national 
significance, suitability, feasibility, and need for National Park 
Service management criteria for potential units of the National Park 
System. After an intensive and lengthy public involvement process, the 
study found that there is extensive public support, including support 
by affected private property owners within the boundaries proposed by 
S. 247 in New York and Maryland, for the establishment of the two 
units. Locally elected officials in both states have also expressed 
their support.
    S. 247 would authorize the Secretary of the Interior to establish a 
unit of the National Park System, the Harriet Tubman National 
Historical Park in Auburn, New York, upon determination that sufficient 
land or interests in land has been acquired to constitute a manageable 
park unit. The park would consist of the Harriet Tubman Home, the Home 
for the Aged, the Thompson Memorial A.M.E. Zion Church, which is no 
longer used for religious services, and its parsonage. The Secretary 
would be authorized to enter into cooperative agreements and provide 
technical and matching financial assistance to the A.M.E. Zion Church 
and others for historic preservation, rehabilitation, research, 
maintenance, and interpretation of the park and related Harriet Tubman 
resources in Auburn, New York. The Secretary would be further 
authorized to provide uniformed National Park Service staff to operate 
the park in partnership with the Church and to conduct interpretation 
and tours.
    In Maryland, S. 247 would authorize the Secretary of the Interior 
to establish a unit of the National Park System, the Harriet Tubman 
Underground Railroad National Historical Park, in nationally 
significant historic landscapes associated with Harriet Tubman in 
Caroline, Dorchester, and Talbot Counties, upon determination that 
sufficient land or interests in land have been acquired to constitute a 
manageable park unit. This agricultural, forest, and riverine mosaic 
largely retains historic integrity from the time that Tubman was born 
enslaved, worked in the fields and forests, emancipated herself, and 
helped others there to escape to freedom.
    The Secretary of the Interior would be authorized to provide 
matching grants to the state of Maryland for the construction of a 
visitor services facility to be jointly operated by the state and 
uniformed staff of the National Park Service. The Secretary would be 
further authorized to enter into cooperative agreements with various 
organizations and property owners, and provide grants for the 
restoration, rehabilitation, public use, and interpretation of sites 
and resources related to Harriet Tubman. Because a number of closely 
related Harriet Tubman resources exist on lands adjacent to the 
proposed park at Blackwater National Wildlife Refuge, which is managed 
by the U.S. Fish and Wildlife Service, or on lands scheduled for future 
refuge acquisition, the bill provides for an interagency agreement 
between the U.S. Fish and Wildlife Service and the National Park 
Service to promote compatible stewardship and interpretation of these 
resources.
    The estimated cost for the annual operations and maintenance for 
each unit would be approximately $500,000 to $650,000. The estimated 
cost for any acquisitions and the federal share of capital improvements 
is approximately $7.5 million for the Harriet Tubman National 
Historical Park in Auburn, New York. The cost of land acquisition and 
the federal share for the visitor center at the Harriet Tubman 
Underground Railroad National Historical Park in Maryland is estimated 
to be up to $11 million. The estimated cost for the completion of the 
general management plan for each unit would be approximately $600,000 
to $700,000. All funds are subject to NPS priorities and the 
availability of appropriations.
    Mr. Chairman, it is not every day that the Department comes before 
the committee to testify on a bill to establish two units of the 
National Park System to honor an enslaved woman who rose from the most 
difficult and humble beginnings imaginable to indelibly influence the 
causes of human justice and equality in our society, and to have such a 
significant impact on our national story. We do so with full 
understanding of the life and contributions of Harriet Tubman and 
suggest that nearly 100 years after her death the time for this 
abundantly deserved honor has finally arrived.
    That concludes my testimony Mr. Chairman. I would be pleased to 
respond to any questions from you and members of the committee.
Proposed amendment to S. 247
          On page 7, line 6, strike ``Public Law 91-383 (commonly known 
        as the ``National Park Service General Authorities Act'')'' and 
        insert ``the National Park Service General Authorities Act.''
          On page 12, line 21, strike ``Public Law 91-383 (commonly 
        known as the ``National Park Service General Authorities 
        Act'')'' and insert ``the National Park Service General 
        Authorities Act.''
                                 s. 279
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 279, the Camp Hale Study Act. The U.S. Forest 
Service (White River National Forest) currently manages Camp Hale as a 
part of the National Forest System.
    The Department supports S. 279, with an amendment to section two to 
include the U.S. Forest Service in a joint study with the National Park 
Service for the future management of Camp Hale and to delete section 
three. However, we feel that priority should be given to the 40 
previously authorized studies for potential units of the National Park 
System, potential new National Heritage Areas, and potential additions 
to the National Trails System and National Wild and Scenic River System 
that have not yet been transmitted to Congress. The Department 
testified in support of an identical bill in the last Congress, S. 
1418, before this subcommittee on July 22, 2009.
    S. 279 would authorize the Secretary of the Interior (Secretary) to 
conduct a special resource study to determine the suitability and 
feasibility of designating Camp Hale as a unit in the National Park 
System. The study would also determine the methods and means for 
protection and interpretation of the Camp Hale site by the National 
Park Service, other federal, State, or local government entities, or 
private or nonprofit organizations. Not later than three years after 
funds are made available, the Secretary is directed to submit the 
results and recommendations of the study to Congress. The bill includes 
language to assure the study would not impact valid existing water 
rights in place upon the date of enactment. S. 279 also specifies that 
the study would not impact the ability to construct and operate 
infrastructure necessary to develop and use those water rights. We 
estimate that this study will cost approximately $300,000.
    Located in and managed by the White River National Forest, in west-
central Colorado, Camp Hale was established in 1942 to provide winter 
and mountain warfare training during World War II, because of the 
natural setting of a large, flat valley bottom, surrounded by steep 
hillsides suitable for training in skiing, rock climbing and cold 
weather survival skills. The size of Camp Hale varied between 5,000 and 
247,243 acres when it was an active military installation.
    Managed by the U.S. Forest Service (White River National Forest), 
the Camp Hale Formerly Used Defense Site is now used year-round by the 
public as a recreation area and is included on the National Register of 
Historic Places.
    Since the time Camp Hale was used for military training, there have 
been numerous discoveries of unexploded ordinance (UXO) there. As 
recently as 2003, during efforts to contain a wildfire, UXO used during 
the training of U.S. troops in World War II was found on the site.
    Efforts to remediate public risk from any remaining UXO at Camp 
Hale continue. The funding for any response actions at Camp Hale will 
depend on how the UXO sites there rank nationally. Depending on that 
rank, and available federal dollars, the remedial investigations for 
some or all Camp Hale munitions may not occur for several years. The 
Colorado Department of Public Health and Environment has discussed 
evaluating the hazard liabilities and remediating the site with the 
U.S. Army Corps of Engineers prior to a transfer.
    The story of Camp Hale and the men and women who trained there 
reflects the adaptability that our nation showed during World War II. 
Studying and determining how best to preserve and protect Camp Hale and 
to commemorate the sacrifice and heroism so many Americans exhibited as 
a result of their training is laudable.
    We suggest that S. 279 be amended in section two to include the 
U.S. Forest Service in the study to determine the future of Camp Hale 
and to remove section three, which includes language concerning water 
rights. The proposed study would examine the suitability and 
feasibility of designating Camp Hale as a unit in the National Park 
System, including evaluating all current uses and rights associated 
with the land. Since the bill only authorizes a study of the site, 
there is no possibility of the study having any effect on any water 
rights. As such, we believe the water rights language in the bill is 
unnecessary and redundant and we recommend the section be deleted.
    Mr. Chairman, this concludes my prepared remarks. I would be happy 
to answer any questions you or any other members of the subcommittee 
may have.
                                 s. 302
    Mr. Chairman, thank you for the opportunity to testify and provide 
the views of the National Park Service (NPS) on S. 302, a bill to 
authorize the Secretary of the Interior to issue right-of-way permits 
for a natural gas transmission pipeline in nonwilderness areas within 
the boundary of Denali National Park, and for other purposes.
    The Department has no objection to the bill as written.
    The potential owners and operators of such a pipeline have not, at 
this time, determined whether such a line carrying natural gas to 
south-central Alaska is financially feasible, nor have they determined 
the best route for a pipeline. This legislation provides flexibility 
for the backers of a proposed pipeline, and provides assurance to the 
NPS that the National Environmental Policy Act analysis will be 
completed before any permit for work in the park would be issued by the 
Secretary.
    The legislation also provides authority for the Secretary to permit 
distribution lines and related equipment within the park for the 
purpose of providing a natural gas supply to the park. We support this 
provision, but remind the committee that at this time no decisions have 
been made about the financial or engineering feasibility, nor the exact 
configuration of equipment needed to facilitate tapping the larger line 
to allow local use of natural gas in or near Denali National Park.
    Thank you for the opportunity to testify and we would welcome any 
questions you or other members may have.
                                 s. 313
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S.313, a bill to authorize the 
Secretary of the Interior to issue permits for a micro-hydro project in 
non-wilderness areas within the boundaries of Denali National Park and 
Preserve, and for other purposes.
    The Department supports this legislation with amendments and 
recognizes improvements made from the similar bill introduced in the 
previous Congress. S. 313 would authorize the Secretary of the Interior 
to issue permits for micro-hydro projects in a limited area of the 
Kantishna Hills in Denali National Park. The legislation would also 
authorize a land exchange between the National Park Service (NPS) and 
Doyon Tourism, Inc. (Doyon) involving lands near the historic mining 
community of Kantishna that would be mutually beneficial to the NPS and 
Doyon.
    This legislation will reduce the use of fossil fuels in the park, 
and thus lessen the chance of fuel spills along the park road and at 
the Kantishna lodges. It will lower the number of non-visitor vehicle 
trips over the park road, lessen the noise and emissions from diesel 
generators in the Moose Creek valley, and support clean energy projects 
and sustainable practices while ensuring that appropriate review and 
environmental compliance protects all park resources.
    Doyon Tourism, Inc., a subsidiary of Alaska Native Corporation 
Doyon, Ltd., has requested permits from the NPS to install a micro-
hydroelectric project on Eureka Creek, near their Kantishna Roadhouse. 
The NPS supports the intent of this project, however, neither the 
Secretary nor the Federal Energy Regulatory Commission (FERC) has the 
statutory authority to issue permits for portions of hydroelectric 
projects within national parks or monuments. We believe that the 
authorization contained in this legislation is necessary to enable the 
NPS to allow this micro-hydroelectric project within the park.
    The Kantishna Roadhouse, at the end of the 92-mile-long Denali park 
road, has been in business for 28 years, hosts approximately 10,000 
guests per summer, and currently uses an on-site 100 kilowatt (KW) 
diesel generator to provide power for the facility. The proposed 
hydroelectric installation would reduce use of the diesel generator at 
the lodge. Currently, delivery of diesel fuel to the lodge requires a 
tanker truck and trailer to be driven the entire length of the Denali 
park road. Noted for its undeveloped character, the road is unpaved for 
77 miles of its 92-mile length, crosses high mountain passes without 
guardrails, and is just one to 1\1/2\ lanes wide with pullouts. The 
road is justly famous for wildlife viewing opportunities and in order 
to protect wildlife as well as the road's scenic wilderness character, 
vehicle traffic is limited. Reducing the amount of diesel fuel hauled 
over this road in tanker trucks protects park resources by reducing the 
risk of accident or spill, and simultaneously reduces overall vehicle 
use of the road.
    Eureka Creek is a 4-mile-long stream that drains a 5 square-mile 
watershed and discharges about 15 cubic feet per second (cfs) during 
the summer. Most of the floodplain has been disturbed by past placer 
mining, but no mining claims exist on the creek now and no other 
landowners besides Doyon and the NPS own any property near this 
floodplain. The project would include an at-grade water intake, with no 
impoundment, about one mile upstream of where Eureka Creek crosses the 
park road.
    Camp Denali, another lodge in the Kantishna Hills, is within the 
area addressed by this legislation. Camp Denali opened in 1952 and the 
owners installed a micro-hydro generator system prior to the 1978 
Presidential proclamation that included Kantishna as a part of what is 
now Denali National Park. After 1978, Camp Denali became a private in-
holding surrounded by the park, and found that parts of its micro-hydro 
power system were within the park, a situation that the NPS lacks the 
authority to permit or retain. This legislation, if amended, would 
allow the NPS and the owners of Camp Denali to work out permit 
conditions for those parts of the existing hydro project that are now 
on park land. Besides the Kantishna Roadhouse and Camp Denali, two 
other lodges in Kantishna may pursue similar projects in the future and 
thus would benefit from the authority granted in this legislation.
    Doyon owns 18 acres on the patented Galena mining claim in the 
Kantishna Hills and would like to exchange that acreage for park land 
in Kantishna of equal value near its other properties. The NPS would 
also like to pursue this exchange to consolidate land holdings in the 
area. Existing land exchange authority under the Alaska National 
Interest Lands Conservation Act (ANILCA) and other legislation is 
sufficient to affect this exchange. Thus, while we believe that this 
provision is unnecessary, we support its intent.
    Our concerns with the bill are as follows:

          1) The bill as introduced requires the Secretary to complete 
        National Environmental Policy Act compliance within 180 days of 
        enactment. While the Department supports a speedy response to 
        the applicant, we suggest the 180-day clock start upon 
        submission of a complete application to the NPS.
          2) The permitting authority provided by this bill would apply 
        to several micro-hydroelectric projects in the Kantishna area, 
        yet various elements of the bill as introduced appear to apply 
        solely to a project by Doyon. Technical corrections to address 
        this are identified in an attachment to this testimony.

    We believe that the permitting authority granted in S. 313 would 
provide a tool that the Secretary could use to lower fossil fuel use in 
Denali National Park, while protecting park resources, and that a land 
exchange would be hastened through passage of this legislation. We 
would welcome the opportunity to work with the sponsor and this 
committee to address our concerns and recommendations.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you may have.
                               attachment
    The NPS suggests the following technical corrections to H.R. 313

          1) On p. 1, line 2 of the long title, strike ``for a 
        microhydro project in nonwilderness'' and insert ``for 
        microhydro projects in nonwilderness''.
          2) On p. 3, line 1, strike ``(i) the intake pipeline located 
        on Eureka Creek, approximately \1/2\ mile upstream from the 
        Park Road, as depicted on the map;'' and insert ``(i) intake 
        pipelines;''
          3) On p. 3, line 8, strike ``line'' and insert ``lines''.
          4) On p. 3, line 14, strike ``PROJECT'' and insert 
        ``PROJECTS''.

                                 s. 323
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 323, a bill to establish the 
First State National Historical Park in the State of Delaware.
    The Department strongly supports the establishment of a unit of the 
national park system in Delaware as proposed by S. 323.
    In 2008, pursuant to Public Law 109-338, the National Park Service 
completed a Special Resource Study of the coastal area of Delaware and 
identified a number of resources of national significance that were 
determined suitable and feasible to administer as a unit of the 
national park system. These included historic resources that were 
instrumental in early Swedish, Dutch, and English settlement in the 
United States, and others associated with Delaware's role as the 
nation's first state. Although the bill provides the Secretary of the 
Interior the discretion to determine which sites in the State would be 
included within the boundary of the historical park, we anticipate that 
only resources that met the Special Resource Study criteria for 
establishment as a national park unit would be considered for 
inclusion.
    In 1638, Peter Minuet led Swedish colonists to present day 
Wilmington, Delaware, and established New Sweden at a point known as 
``the rocks'' on the Christina River. The settlers constructed Fort 
Christina at this location and this site is now a National Historic 
Landmark. In 1698, Swedish settlers established Holy Trinity (``Old 
Swedes'') Church near the fort, the oldest church building standing as 
originally built in the United States and also a National Historic 
Landmark.
    In 1651, Peter Stuyvesant led Dutch settlers from New Amsterdam and 
constructed Fort Casimir at a place he named ``New Amstel,'' in present 
day New Castle, Delaware. Conflicts between the Swedish and Dutch 
colonists resulted in changing occupations of the fort with the Dutch 
regaining control in 1655. In 1665, the English arrived at New Amstel 
and seized control of the settlement, renaming it ``New Castle.'' 
William Penn landed in New Castle in 1682 and took possession of the 
city. In 1704, Penn established Delaware's Assembly and New Castle 
remained the colonial capital of Delaware until 1776. The New Castle 
Historic District, which contains multiple resources from the time of 
earliest settlement through the Federal era, including the Old New 
Castle Courthouse, is a National Historic Landmark.
    Delaware's representatives to the Continental Congress and the 
Constitutional Convention played important parts in the adoption of the 
Declaration of Independence and crafting of the United States 
Constitution. On June 15, 1776, the Delaware Assembly, meeting in New 
Castle, voted to sever its ties with the English Crown, three weeks 
prior to the signing of the Declaration in Philadelphia on July 4th. 
National Historic Landmarks associated with these early revolutionary 
leaders include the homes of John Dickinson (the ``Penman of the 
Revolution''), Gunning Bedford, Jr., and George Read. The Dover Green 
witnessed Delaware's vote to become the first state to ratify the 
nation's new Constitution.
    S. 323 would authorize the Secretary of the Interior to establish 
the First State National Historical Park consisting of any resources 
listed in Section 3(b) of the bill that the Secretary acquires. The 
staff of the new park would be authorized to interpret related 
resources outside of the boundary, within the state of Delaware. The 
Special Resource Study estimated annual operating costs for the park at 
$450,000 to $550,000 and costs associated with a general management 
plan at $600,000. All funding would be subject to NPS priorities and 
the availability of appropriations. A study of additional resources 
related to the purpose of the park is also authorized to assess their 
potential eligibility for National Historic Landmark designation and 
options for maintaining the historic integrity of such resources.
    S. 323 also proposes to allow including within the park boundary 
the Ryves Holt House--a part of the historic district in Lewes, 
Delaware. This district and the Ryves Holt House are listed on the 
National Register of Historic Places at the local level of significance 
and the National Register nomination for the district indicates that 
today its significance is based primarily on its fine examples of 
Victorian architecture. Although the bill provides the Secretary with 
the discretion to decide which properties may be included within the 
boundary of the park, the Department questions allowing the Ryves Holt 
House to be eligible for addition to the park boundary, since it is not 
a National Historic Landmark, does not meet the required national 
significance criterion for unit designation, and is inconsistent with 
the park's purpose as outlined in Section 3(a) of S. 323.
    However, we note that Section 4(c) of S. 323 permits interpretation 
of resources related to the purposes of the park but located outside of 
its boundary. Any extant resources in Lewes, either within or outside 
of the historic district, which relate to early Dutch, Swedish, and 
English settlement or to Delaware's role as the first state, would thus 
be eligible for interpretation without including this district in the 
park boundary. Such resources would also be candidates for further 
analysis as to their National Historic Landmark potential under the 
bill's study provisions in Section 5.
    Mr. Chairman, that concludes my testimony. I would be happy to 
respond to any questions that you or other members of the committee may 
have.
                                 s. 403
    Thank you for inviting the Department of the Interior to testify on 
S. 403, the Molalla River Wild and Scenic Rivers Act. The Bureau of 
Land Management (BLM) supports S. 403.
Background
    The Molalla River begins its journey to the sea on the western 
slopes of the Cascade Mountains of Oregon. At an elevation of 4,800 
feet, the Molalla flows undammed for 49 miles west and north until it 
joins the Willamette River. For years, the Molalla suffered from too 
much negative attention from its visitors, including vandalism. To 
address these problems, local residents joined together several years 
ago and formed the Molalla River Alliance (MRA). The MRA, a nonprofit 
all volunteer organization, has over 45 public and private partners, 
including Federal, State, and local government agencies, user groups, 
and conservationists. Working cooperatively with BLM's local field 
office, the MRA has provided the Molalla the care it needed. Today, we 
are pleased that this subcommittee is considering designating 
approximately 21 miles of the river as a component of the National Wild 
and Scenic Rivers System.
    The Molalla River is home to important natural and cultural 
resources. Protection of this watershed is crucial as the source of 
drinking water for local communities and the important spawning habitat 
it provides for several fish species, including salmon and steelhead. 
Within an hour's drive of the metropolitan areas of Portland and Salem, 
Oregon, the Molalla watershed provides significant recreational 
opportunities for fishing, canoeing, mountain biking, horseback riding, 
hiking, hunting, camping, and swimming. A 20-mile hiking, mountain 
biking, and equestrian trail system draws over 65,000 visitors 
annually.
    S. 403 proposes to designate 15.1 miles of the Molalla River and 
6.2 miles of the Table Rock Fork of the Molalla as components of the 
National Wild and Scenic Rivers System. In earlier planning analyses, 
the BLM evaluated the Molalla River and the Table Rock Fork of the 
Molalla River and determined that most of these two rivers should be 
considered for designation as wild and scenic rivers. As a result, the 
designation called for in S. 403 would be largely consistent with 
management currently in place, and would cause few changes to BLM's 
current administration of most of this area. The 5,500-acre Table Rock 
Wilderness, designated by Congress in 1984, is embraced by the Molalla 
and Table Rock Fork, and designation of these river segments would 
reinforce the protections in place for the wilderness area.
    Wild and scenic rivers are designated by Congress in one of three 
categories: wild, scenic, or recreational. Differing management 
proscriptions apply for each of these designations. S. 1369 specifies 
that these river segments be classified as recreational. This 
classification is consistent with the strong recreational values of 
this area, as well as the presence of roads along the course of the 
river segments and numerous dispersed campsites along its shorelines.
Conclusion
    Thank you for the opportunity to testify in support of these 
important Oregon designations. The Department of the Interior looks 
forward to welcoming these units into the BLM's National Landscape 
Conservation System.
                                 s. 404
    Thank you for the invitation to present testimony on S. 404, 
legislation to modify a land patent pertaining to the Whitefish Point 
Light Station (Michigan). Although the Bureau of Land Management's 
(BLM) role under the legislation is ministerial, preservation of 
historic lighthouses such as the Whitefish Point Light Station is a 
priority for the Department of the Interior. The BLM supports S. 404.
Background
    In the late 18th and 19th centuries, the United States built a 
series of lighthouses in and around Lake Michigan, Lake Huron, and Lake 
Superior to aid in navigation of the Great Lakes. The role played by 
these lighthouses in the westward expansion and economic growth of the 
United States is part of our national heritage, with ships and 
shipwrecks recalled in story and song. The Great Lakes lighthouses--
including the Whitefish Point Light Station at issue in S. 404--are 
listed on the National Register of Historic Properties.
    The U.S. Coast Guard retains responsibility for aid to navigation 
in the Great Lakes, as it (or its predecessor, the Revenue Marine) has 
since 1790. In the mid-1990s, concerns reached the Congress that the 
Coast Guard, in carrying out its mission in the Great Lakes, was unable 
to assure preservation of the historic lighthouses. Interest in 
preserving the Whitefish Point Light Station led the Congress, in 1996, 
to convey land adjacent to the Light Station to two non-profit 
organizations dedicated to conservation and historic preservation--an 
8.27 acre parcel to the Great Lakes Shipwreck Historical Society 
(Historical Society) and a 2.69 acre parcel to the Michigan Audubon 
Society (Audubon Society) of Chippewa County--and a 33 acre parcel to 
the U.S. Fish and Wildlife Service (FWS) (Public Law 104-208, Omnibus 
Consolidated Appropriations Act, Fiscal Year 1997, Section 5505).
    This law contains limitations on development at the historic 
lighthouse, and explicitly requires compliance with the ``Whitefish 
Point Comprehensive Plan of October 1992.'' The patents the BLM issued 
under this authority (including the most recent, number 61-2000-0007, 
issued March 10, 2000, to the Historical Society) contain this 
reference.
    In 1999, the Audubon Society brought suit against the Historical 
Society and the FWS over plans to develop a museum at the site. The 
parties reached a settlement agreement under which the three groups 
developed the ``Human Use/Natural Resource Plan for Whitefish Point, 
December 2002,'' to supersede the Whitefish Point Comprehensive Plan of 
1992.
    S. 404 directs the Secretary of the Interior to modify patent 
number 61-2000-0007 by striking reference to the Whitefish Point 
Comprehensive Plan of October 1992 and inserting the ``Human Use/
Natural Resource Plan for Whitefish Point, dated December 2002.'' S. 
404 affirms the applicability of the National Historic Preservation Act 
to the Whitefish Point Light Station. S. 404 requires that the property 
be used in a manner that does not impair or interfere with its 
conservation values. The BLM supports this legislation.
Conclusion
    Thank you for the opportunity to present testimony in support of S. 
404.
                                 s. 535
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 535, a bill to authorize the 
Secretary of the Interior to lease certain lands within Fort Pulaski 
National Monument, and for other purposes.
    The Department supports this legislation, which would allow the 
Savannah Bar Pilots Association to lease the land on Cockspur Island 
within Fort Pulaski National Monument in the State of Georgia that the 
association has used continuously since 1940.
    In 1940, the National Park Service authorized by special use permit 
exclusive use of National Park Service land and improvements to the 
Savannah Bar Pilots Association to operate a vessel piloting business. 
The National Park Service has issued a series of permit renewals during 
the ensuing 70 years. However, in recent years, the National Park 
Service has been advised by the Department's Solicitor's Office that 
the association's use of this land should be based on more certain 
legal authority than the special use permitting process. The National 
Park Service believes that a non-competitive lease, which would be 
authorized by S. 535, would be the best option in this unique 
circumstance to enable the Savannah Bar Pilots Association to continue 
traditional operations from its Fort Pulaski location. The Bar Pilots 
serve a function that is vital to the state's deepwater ports and 
inland barge terminals, including directing ship traffic and assisting 
in navigation in the Savannah Harbor.
    There are no other known locations from which Savannah Bar Pilots 
Association can operate more efficiently than its current location. 
Deep water accessibility and the relatively short distance to embarking 
and disembarking ships in Savannah Harbor render the current Cockspur 
Island site the ideal location for continued operations. The Savannah 
Bar Pilots have been operating at the current location with virtually 
no adverse impact on park resources, on the visitor experience, or on 
park operations. Fort Pulaski National Monument derives revenue from 
the current special use permit and would continue to do so from a 
lease. The Savannah Bar Pilots enjoy local support from both the City 
of Savannah and the Georgia Port Authority.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or any members of the subcommittee 
may have.
                                 s. 564
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 564, to designate the Valles Caldera National 
Preserve as a unit of the National Park System, and for other purposes.
    The Department supports the protection of the nationally 
significant natural and cultural resources found at the Valles Caldera 
National Preserve as provided in S. 564. In the last Congress the 
Department testified before this subcommittee on S. 3452, a similar 
bill.
    S. 564 would designate the Valles Caldera National Preserve 
(Preserve), in New Mexico as a unit of the National Park System, 
transferring administrative jurisdiction of the Preserve to the 
Secretary of the Interior (Secretary). The bill would terminate the 
Valles Caldera Trust (Trust) 180 days after enactment unless the 
Secretary determines that the termination date should be extended to 
facilitate the transitional management of the Preserve. All assets and 
liabilities of the Trust would be transferred to the Secretary. The 
bill would also authorize the Secretary to coordinate management and 
operations of the Preserve with Bandelier National Monument and produce 
a management plan no later than three fiscal years after funds are made 
available. If S. 564 is enacted, we look forward to working with the 
Trust, the Secretary of Agriculture, Indian Tribes and Pueblos, State 
and local governments, and the public to develop a management plan and 
capitalize on the proximity of Bandelier National Monument for 
efficiency of operations, while applying Service First principles of 
sharing resources as appropriate with the surrounding National Forest.
    S. 564 would authorize grazing, hunting, and fishing to continue 
within the Preserve and the bill would require the Secretary to ensure 
the protection of traditional cultural and religious sites including 
providing tribal access to the sites and temporarily closing specific 
areas of the Preserve to protect traditional uses. The National Park 
Service (NPS) has a long history of consultation with First Americans 
in the preservation and continuation of traditional practices.
    Finally, S. 564 would require that eligible Trust employees be 
retained for at least 180 days from the date of enactment and the 
Secretary and the Secretary of Agriculture would be authorized to hire 
Trust employees on a noncompetitive basis for comparable positions at 
the Preserve or other units under the jurisdiction of the two 
Secretaries.
    The Valles Caldera National Preserve is an 88,900 acre unit of the 
National Forest System located in the Jemez Mountains of north central 
New Mexico. The Preserve was established by Public Law 106-248, the 
Valles Caldera Preservation Act of 2000, and is managed by the Valles 
Caldera Trust, a wholly owned government corporation established under 
the Act. The Trust is charged with mixing elements of both private and 
public administration while working to achieve resource protection, 
public enjoyment, and financial self sufficiency goals.
    The Valles Caldera is considered to be one of the world's best 
intact examples of a resurgent caldera (the remains of a huge and 
ancient volcano with a prominent uplift at its center, in this case 
present-day Redondo Peak) and is of sufficient size and configuration 
to allow for long-term sustainable resource protection and visitor 
enjoyment. The geologic features of the Preserve retain a high degree 
of integrity and the Preserve's unique setting of expansive grasslands 
and montane forests provides outstanding scenic values and an array of 
opportunities for public recreation, reflection, education, and 
scientific study. The Preserve also would expand and enhance the 
diversity of volcanic sites represented within the National Park 
System.
    The national significance of the geological resources of the Valles 
Caldera was formally recognized in 1975 when the area was designated a 
National Natural Landmark. Moreover, Valles Caldera offers the 
opportunity to illustrate the connection of human history in the region 
that is showcased at Bandelier National Monument with the geologic 
history that shaped the surrounding mesa and canyon landscape.
    As early as 1899, the area around Valles Caldera was proposed as a 
site to be studied for national park designation, and the resulting 
report proposed that 153,620 acres be set aside for ``Pajarito National 
Park''. A portion of this area later became Bandelier National 
Monument, established in 1906. Additionally, the Valles Caldera was the 
subject of site investigations and new area studies that were completed 
by the National Park Service (NPS) in 1939, 1964, 1977, and 1979. An 
Update Report on the NPS 1979 New Area Study was completed by the NPS 
in December 2009, at the request of Senators Bingaman and Tom Udall. 
All of these NPS studies found that the Valles Caldera was nationally 
significant, suitable and feasible for designation as a unit of the 
National Park System, and the 2009 Update Report reaffirmed the results 
of the prior studies. All of these studies found that the Valles 
Caldera was suitable and feasible for designation as a unit of the 
National Park System.
    If added to the National Park System, Valles Caldera would be 
managed in accordance with the 1916 Organic Act and other Acts that 
have guided the NPS for nearly one hundred years ``to provide for the 
enjoyment of the same in such manner and by such means as will leave 
them unimpaired for the enjoyment of future generations'', with 
recognition that the bill allows for continued, sustainable grazing, 
hunting, and fishing. The NPS has experience with these activities in 
our other nineteen preserves.
    Based on current expenses for Valles Caldera and the cost to 
operate park units comparable in size and assets, we anticipate the 
annual cost to operate and manage the park would be approximately $22 
million for developmental costs and $4 million for annual operational 
costs, although more complete cost estimates would be developed through 
the general management plan. In addition, our 2009 Update Report 
identifies 5 parcels of private property within the proposed park 
boundaries, totaling 40 acres. Although appraisals have not been 
completed, the expected costs to acquire this private property and any 
transfer costs are expected to be minimal. Funds would be subject to 
the availability of appropriations and NPS priorities.
    The Valles Caldera is a spectacular landscape containing nationally 
significant resources that are worthy of preservation and protection. 
We look forward to continuing to caring for these resources in the fine 
manner that the Trust and the U.S. Forest Service has cared for them to 
continue to allow for their enjoyment by all Americans.
    Mr. Chairman, that concludes my prepared remarks. I would be happy 
to answer any questions that you or any other members of the Committee 
may have.
                                 s. 599
    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the views of the Department of the Interior on S. 599, 
a bill to establish a commission to commemorate the sesquicentennial of 
the American Civil War.
    The Department supports S. 599 with amendments discussed in this 
testimony. This legislation is similar to S. 1838, introduced in the 
last Congress, which the Department supported in testimony before this 
subcommittee on December 3, 2009. The Department of Justice advises us 
of constitutional concerns with the bill, and in particular with regard 
to the composition of the commission, which the Department of Justice 
will address directly with the sponsor and the committee. We defer to 
the Office of Personnel Management and the Office of Government Ethics 
for matters related to the status of the commission's members and 
employees for purposes of various laws governing Federal employment. 
Lastly, we defer to the National Endowment for the Humanities for any 
concerns about the grant program authorized by Section 7 of the bill.
    S. 599 would establish a Civil War Sesquicentennial Commemoration 
Commission to plan, develop, and carry out programs and activities to 
commemorate the 150th anniversary of the Civil War and to coordinate 
activities related to the commemoration by other federal, state, and 
nongovernmental entities. The bill also authorizes a grant program 
through the National Endowment for the Humanities for appropriate 
activities relating to the sesquicentennial. S. 599 authorizes $500,000 
for each fiscal year from 2012 through 2016 for the commission and $3.5 
million for the grant program.
    The Civil War was, in the words of Robert Penn Warren, ``the great 
single event of our history.'' It was the both the greatest disaster 
that has ever befallen our nation, and also our era of greatest 
achievement. It was a wrenching conflict that resulted in the loss of 
620,000 lives, the liberation of four million African American slaves, 
and the ratification of three Constitutional amendments that forever 
changed the face of American democracy. S. 599 is mindful of this 
reality as it makes a purpose of the Commission to recognize the 
experiences and points of view of all people affected by the Civil War 
and to provide assistance for the development of programs, projects, 
and activities on the Civil War that have lasting educational value.
    As steward of more than 100 battlefields, historic homes and other 
original sites associated with the Civil War and the resulting struggle 
for civil rights, the National Park Service has begun commemorating the 
150th anniversary by initiating a number of activities to provide 
Americans the opportunity to understand and discuss this country's 
greatest national crisis, while exploring its enduring relevance in the 
21st century. These activities include hundreds of commemorative 
programs, special events, and symposia planned for the anniversary 
years. The National Park Service has also developed a new website that 
has a calendar of all anniversary programs and events, as well as 
historical features and timelines designed to illustrate the relevancy 
of events that occurred 150 years ago. And, the National Park Service 
is developing new interpretive media, including a new handbook, The 
Civil War Remembered, that was published in April. Museum galleries, 
wayside exhibits, and audio visual programs are being upgraded at Civil 
War parks throughout the country.
    With its experience and expertise on the subject of the Civil War 
and its causes and consequences, the National Park Service is well-
positioned to assume the responsibilities assigned to it by S. 599. The 
legislation provides for the Director of the National Park Service or 
his designee to serve on the commission, and for the National Park 
Service to provide support services to the commission on a reimbursable 
basis. The establishment of the commission would complement the work 
the National Park Service has already planned. It would provide a means 
for coordinating entities from all levels of government and across a 
spectrum of the private sector who are involved or who want to be 
involved in the sesquicentennial commemoration. The commission would be 
able to give a kind of visibility, stature, and reach to the 
sesquicentennial commemoration beyond what the National Park Service 
can provide, even with the help of the many partners and community 
groups the Service has engaged in this effort.
    The Department recommends that the bill be amended in the following 
ways: First, we recommend that the bill allow for 180 days instead of 
60 days for the selection of the commission members, consistent with 
the time period it normally requires to process commission 
appointments. Second, we recommend that the size of the commission be 
reduced from 25 members to perhaps 15 or 17 members. A smaller 
commission would improve the panel's ability to work efficiently and 
effectively, and reduce the cost of the commission. Third, we recommend 
changing the deadline for the commission's final report from December 
30, 2015, to September 30, 2016, to provide more time after the full 
sesquicentennial has passed to complete that work and for consistency 
with the authorization of appropriations through fiscal year 2016 
provided by the bill. We would be pleased to work with the committee to 
develop amendments for these purposes.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the subcommittee might 
have.
                                 s. 713
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 713, a bill that would modify the boundary of Petersburg National 
Battlefield in the Commonwealth of Virginia.
    The Department supports S. 713 with one technical amendment.
    S. 713 would authorize two modifications to the boundary of 
Petersburg National Battlefield in the Commonwealth of Virginia. First, 
the bill would expand the currently authorized boundary of Petersburg 
National Battlefield by an additional 7,238 acres. The boundary 
expansion proposal results from an analysis of ``core battlefields'' 
and a subsequent boundary adjustment study conducted as part of 
Petersburg National Battlefield's General Management Plan completed in 
2005. Second, the bill authorizes a transfer of administrative 
jurisdiction between the Secretary of the Interior and the Secretary of 
the Army for a 1.171 acre parcel of land to accommodate a security 
perimeter fence at Fort Lee Military Reservation.
    The City of Petersburg lies in the corridor of intensive growth 
from Washington, D.C., to south of Richmond, Virginia. The region 
surrounding Petersburg National Battlefield has been and is currently 
experiencing significant development pressures impacting areas 
immediately adjacent to the park and unprotected battlefield sites. 
This development not only threatens park resources and public 
enjoyment, but also the core portions of the battlefields. The park 
commemorates the Petersburg Campaign, the longest sustained combative 
military front on American soil, in both time and distance. When 
Congress created the park in 1926, only a fraction of the battlefield 
acreage associated with the 26 major battles of the Petersburg Campaign 
was included in the original boundary. The additional battlefields 
proposed to be added to the park by S. 713 will allow the public to 
better understand the size, complexity, and duration of the 9= month 
Petersburg Campaign and siege while offering protection to existing 
park resources.
    In January 2002, in response to significant development pressures 
in the region surrounding the park and as part of its General 
Management Plan process, Petersburg National Battlefield undertook a 
detailed assessment of battlefields in the Petersburg Campaign cited in 
the Civil War Sites Advisory Commission (CWSAC) report of 1993 entitled 
``Report on the Nation's Civil War Battlefields.'' The CWSAC report 
identified 100,000 acres of the Petersburg battlefields as ``core 
battlefields'' encompassing all of the critical phases defined for a 
battle. Of the 100,000 acres cited, 23,000 acres were determined to 
retain historic integrity.
    During its more detailed analyses of the 23,000 acres, the park 
concentrated on those portions of the battlefields that were south of 
the Appomattox River and directly associated with the siege or defense 
of Petersburg, and that were identified as Class A (decisive) and Class 
B (major) by the CWSAC. Additionally, the park used historical maps and 
documentation to further refine the acreage to that constituting the 
portion of the battlefield on which both armies were engaged directly 
and that had a bearing on the outcome for each battle. Park staff 
further analyzed the integrity of these areas and their potential for 
public access and interpretation. The analyses disclosed that 7,238 
acres met the criteria for integrity and interpretability.
    The estimated time period for acquisition of the 7,238 acres of 
these nationally significant lands is 15-20 years. Virtually all of the 
land subject to the boundary adjustment represents a mixture of private 
and non-profit organization-owned parcels. Agricultural and 
conservation easements will be the preferred method of acquisition for 
most parcels. Easements enable protection of these battlefields from 
inappropriate development while retaining private ownership and 
compatible use of the land. Where easements are not possible, and there 
is interest by the landowners, a range of acquisition methods, such as 
donation and fee simple acquisition from willing sellers based on 
available funding, will be utilized for battlefield preservation.
    If all the lands were acquired by the National Park Service through 
fee simple means, the total estimated cost would be $29.7 million. 
Protection of land resources through easements and donations will 
likely significantly lower acquisition costs. The estimated costs for 
capital expenses (trails, wayside exhibits, rehabilitation of existing 
visitor contact station, etc.) and expansion-related costs (surveys, 
hazardous materials studies, etc.) are an additional $1.74 million. 
Development of visitor services and interpretation at these new 
battlefield locations would be minimal and include small parking areas, 
wayside exhibits, and trail and other enhancements to the sites. The 
annual increase in operations and management is estimated to be 
approximately $484,000. All numbers are in 2008 dollars. All funds are 
subject to NPS priorities and the availability of appropriations.
    Public response to the General Management Plan and the proposed 
boundary expansion have been uniformly favorable among local 
governments, organizations, and individuals. The Dinwiddie County Board 
of Supervisors adopted a resolution supporting future legislation to 
expand the boundary of the park as outlined in the General Management 
Plan. Many civic organizations in the Petersburg region have also 
indicated support for the proposal.
    The second main provision of the bill would authorize a transfer of 
administrative jurisdiction between the Secretary of the Army and the 
Secretary of the Interior for a less than two-acre parcel of land. 
Following September 11, 2001, the Army was required to erect a 
perimeter fence around Fort Lee Military Reservation, located adjacent 
to Petersburg National Battlefield. The fence intruded slightly into 
the boundary of the park. The land exchange would transfer to the Army 
land where the perimeter fence is located, in return for a parcel of 
equal size from the military reservation. The Secretary of the Army is 
supportive of this provision. There is no cost associated with this 
authorization.
    The Department recommends an amendment to correct the map 
referenced in Section 3(b) to correctly reflect the acreage numbers for 
the proposed land exchange between the park and the military 
reservation. As introduced, the map referenced in S. 713 uses acreage 
numbers of 1.70 and 1.71. The correct acreage numbers are 1.170 and 
1.171. The NPS will provide a new map with the correct acreage.
    Mr. Chairman, that concludes my statement. I would be happy to 
answer any questions that you or other members of the subcommittee may 
have regarding the proposed boundary expansions.
                                 s. 765
    Mr. Chairman and members of the committee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 765, a bill to modify the boundary of the Oregon Caves National 
Monument, and for other purposes.
    The Department supports the intent of S. 765 as consistent with the 
General Management Plan (GMP) for the park, but recommends deferring 
action on the bill as we continue exploring ways to maintain 
interagency coordination.
    S. 765 would adjust the boundary of Oregon Caves National Monument 
to include the addition of approximately 4,070 acres to enhance the 
protection of resources associated with the monument and to increase 
quality recreation opportunities. The lands that would be added are 
currently managed by the U.S. Forest Service as part of the Rogue 
River-Siskiyou National Forest.
    S. 765 directs the Secretary to revise the fire management plan for 
the Monument to include transferred lands and carry out hazardous fuel 
management activities under that plan. Existing Forest Service 
stewardship or service contracts would continue to completion under the 
authority of the Secretary of Agriculture.
    The bill would authorize the Secretary to permit hunting and 
fishing within the Preserve. It also provides flexibility in managing 
the resources within the preserve by allowing the Secretary, in 
consultation with the Oregon Department of Fish and Wildlife, to limit 
hunting and fishing in designated zones and over certain time periods. 
Based on information collected during the public participation process 
for the GMP, we would prefer to terminate hunting within the preserve 
after five years with the acreage being converted to national monument 
status. Of the 892 comments received on the plan, only 8, less than one 
percent, expressed concern about the loss of hunting should the added 
acres be designated as part of the national monument.
    S. 765 would authorize the Secretary to allow grazing to continue 
within the Preserve at a level not greater than authorized under 
existing permits or leases at enactment. It would also require the 
Secretary to accept voluntary donation of a grazing lease or permit for 
the Big Grayback Grazing Allotment (managed by the U.S. Forest Service) 
and the Billy Mountain Grazing Allotment (managed by the Bureau of Land 
Management) and terminate the donated lease or permit and ensure a 
permanent end to grazing on the land covered by the permit or lease. 
Claim to any range improvements on those lands would be waived. It is 
our understanding that the same individual runs livestock on both the 
Big Grayback and Billy Mountain Allotments. We note that the Billy 
Mountain Grazing Allotment is approximately 15 miles from the boundary 
of the proposed monument expansion. We would like the opportunity to 
work with the Committee and sponsor to further explore these grazing 
provisions.
    This bill would also designate the subterranean segment of Cave 
Creek, known as the River Styx, as a scenic river under the Wild and 
Scenic Rivers Act. Additionally, the bill would authorize a study of 
segments of Cave Creek, Lake Creek, No Name Creek, Panther Creek and 
Upper Cave Creek--all within the Monument and Preserve--under the Wild 
and Scenic Rivers Act.
    In 1907, the Secretary of the Interior withdrew approximately 2,560 
acres for the purposes of establishing a national monument. The 1909 
presidential proclamation establishing Oregon Caves National Monument 
included only 480 acres. The monument was managed by the U.S. Forest 
Service until its administration was transferred to the National Park 
Service in 1933. The remaining withdrawal outside of the monument is 
administered by the USFS as part of the Rogue River-Siskiyou National 
Forest. S. 765 would mirror the 1907 withdrawal and adds some 
additional lands to conform the monument boundary to the watershed.
    The explorer Joaquin Miller extolled ``The Wondrous marble halls of 
Oregon!'' when speaking about the newly proclaimed Oregon Caves 
National Monument in 1909. Oregon Caves is one of the few marble caves 
in the country that is accessible to the public. This park, tucked up 
in the winding roads of southern Oregon, is known for its remoteness, 
the cave majesty and unusual biota. The stream flowing from the cave 
entrance is a tributary to a watershed that empties into the Pacific 
Ocean. This is the only cave in the national park system with an 
unobstructed link to the ocean.
    The caves are nationally significant and a favorite visit for 
school kids and travelers alike. They remain alive and healthy because 
of the watershed above them. The park recognized this when developing 
the 1998 GMP and accompanying Environmental Impact Statement. The plan 
recommended the inclusion of the watershed into the park to provide for 
better cave protection and to protect the surface and subsurface 
hydrology and the public water supply.
    If S. 765 were enacted, there would be no acquisition costs 
associated with the boundary expansion and we estimate National Park 
Service's management, administrative, interpretive, resource 
protection, and maintenance costs to be approximately $300,000 to 
$750,000 annually. The National Park Service is committed to 
coordinating with the U.S. Forest Service on topics such as recreation 
management, management of cave resources, public signing, livestock 
grazing, trail maintenance and construction, fire protection, and fuels 
reduction among others. Mr. Chairman, this concludes my statement. I 
would be happy to answer any questions that you may have.
                                 s. 779
    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the views of the Department of the Interior on S. 779, 
to authorize the acquisition and protection of nationally significant 
battlefields and associated sites of the Revolutionary War and the War 
of 1812 under the American Battlefield Protection Program.
    The Department supports S. 779. This legislation would expand the 
American Battlefield Protection Program to include both the War of 1812 
and Revolutionary War battlefields in addition to Civil War 
battlefields, which are covered under the current program. It would 
authorize $10 million in grants for Revolutionary War and War of 1812 
battlefield sites, as well as $10 million in grants for Civil War 
battlefield sites, for each of fiscal years 2012 through 2022. The 
American Battlefield Protection Program is currently authorized through 
fiscal 2013.
    In March 2008, the National Park Service transmitted the Report to 
Congress on the Historic Preservation of Revolutionary War and the War 
of 1812 Sites in the United States, which identified and determined the 
relative significance of sites related to the Revolutionary War and the 
War of 1812. The study assessed the short and long-term threats to the 
sites. Following the success of the 1993 Civil War Sites Advisory 
Commission Report on the Nation's Civil War Battlefields, this study 
similarly provides alternatives for the preservation and interpretation 
of the sites by Federal, State, and local governments or other public 
or private entities.
    The direction from Congress for the study was the same as for a 
Civil War sites study of the early 1990s. As authorized by Congress for 
this study, the National Park Service looked at sites and structures 
that are thematically tied with the nationally significant events that 
occurred during the Revolutionary War and the War of 1812. The result 
was a more thorough survey that represents twice the field effort 
undertaken for the Civil War study.
    Building upon this study, S. 779 would create a matching grant 
program for Revolutionary War and the War of 1812 sites that closely 
mirrors a very successful matching grant program for Civil War sites. 
The Civil War acquisition grant program was first authorized by 
Congress in the Civil War Battlefield Protection Act of 2002 (Public 
Law 107-359), and was reauthorized through FY 2013 by the Omnibus 
Public Land Management Act of 2009 (Public Law 111-11). That grant fund 
has been tremendously successful in allowing local preservation efforts 
to permanently preserve Civil War battlefield land with a minimum of 
Federal assistance.
    With the release of the Report to Congress on the Historic 
Preservation of Revolutionary War and the War of 1812 Sites in the 
United States, communities interested in preserving their Revolutionary 
War and the War of 1812 sites can take the first steps similar to what 
the Civil War advocates began doing nearly two decades ago. If 
established, this new grant program can complement the existing grant 
program for Civil War battlefields and, in doing so, become a benefit 
to the American people by providing for the preservation and protection 
of a greater number of sites from the Revolutionary War and War 1812. 
All funds would be subject to NPS priorities and the availability of 
appropriations.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
respond to any questions from you and members of the committee.
                                 s. 849
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 849, a bill to establish the Waco Mammoth National Monument in the 
State of Texas, and for other purposes.
    The Department supports establishing a unit of the National Park 
System to commemorate and protect the Waco Mammoth site consistent with 
the study the National Park Service (NPS) completed in 2008. However, 
we oppose S. 849 in its current form. The Department testified in 
support of S. 625, a similar bill, before this subcommittee on July 15, 
2009, during the last Congress. As we explain in this testimony, S. 849 
contains significant changes to the last Congress's bill by requiring 
the Secretary of the Interior (Secretary) to administer the national 
monument as a unit of the National Park System; but prohibiting the 
Secretary from expending any federal funds to do so. We would like to 
work with the sponsor and the committee on revising the bill so that we 
could support it.
    S. 849 would establish a new unit of the National Park System, the 
Waco Mammoth National Monument (monument), near the city of Waco, 
Texas. The bill directs the Secretary to administer the monument in 
accordance only with the provisions found in the bill and with any 
cooperative agreements entered into with Baylor University and the City 
of Waco. The bill also authorizes the Secretary to acquire land for the 
monument by donation from the City of Waco. The Secretary is authorized 
to complete a General Management Plan for the monument within three 
years after enactment, but prohibited from expending any federal funds 
to do so. Finally, no federal funds are authorized to be used to pay 
for costs associated with the monument, and designation of the monument 
as a unit of the National Park System shall terminate if the Secretary 
determines that federal funds are required to operate and maintain the 
monument.
    The NPS was directed to complete a Special Resource Study (SRS) of 
the Waco Mammoth site by Public Law 107-341. This study evaluated a 
109-acre site owned by the City of Waco and Baylor University and found 
that the site met all the criteria for designation as a unit of the 
National Park System.
    The Waco Mammoth Site area is located approximately 4.5 miles north 
of the center of Waco, near the confluence of the Brazos and the Bosque 
rivers. Baylor University has been investigating the site since 1978 
after hearing about bones emerging from eroding creek banks that led to 
the uncovering of portions of five mammoths. Since then several 
additional mammoth remains have been uncovered making this the largest 
known concentration of mammoths dying from the same event.
    The discoveries have received international attention and many of 
the remains have been excavated and are in storage or still being 
researched. The SRS determined that the combination of both in situ 
articulated skeletal remains and the excavated specimens from the site 
represents the nation's first and only recorded nursery herd of 
Pleistocene mammoths. The resource possesses exceptional interpretive 
value and superlative opportunities for visitor enjoyment and 
scientific study.
    From the time the site was discovered until the present, the 
University and the City have managed the site responsibly. The SRS 
examined a range of proposed options for the NPS involvement at the 
site. We believe that NPS joining in partnership with the city of Waco, 
Baylor University, and others would offer the most effective and cost-
efficient management of this unique resource.
    The provisions in S. 849 contradict each other by requiring the 
Secretary to administer the monument as a unit of the National Park 
System, but then deleting the reference to the laws applicable to such 
units, and prohibiting the expenditure of federal funds to carry out 
the administration of the monument. Expenditure of funds is 
specifically prohibited for carrying out the cooperative agreement for 
management of the monument, acquiring land, developing a visitor 
center, operating or maintaining the monument, constructing exhibits, 
or developing the General Management Plan.
    The National Park Service preserves and protects areas of the 
country that are found to be nationally significant. If the Waco 
Mammoth site were designated a unit of the National Park System to be 
administered by the Secretary, then the laws applicable to such units 
would need to apply and federal funds would be needed to carry out 
those responsibilities, as they are for all other units of the National 
Park System.
    The ambiguity as to the applicable laws and the lack of certainty 
and continuity of non-federal funding could create an untenable 
situation for staffing the park and providing consistent visitor 
services. This uncertainty could lead to the NPS not knowing from month 
to month whether the park would be open. Also, federal land acquisition 
policies generally do not allow the federal government to accept lands 
acquired with a reverter clause attached, as proposed in the bill.
    We would be happy to work with the committee to revise the bill 
into a form that we could support, such as S. 625 from the 111th 
Congress. In that version of the bill, the monument would be 
established based upon the management alternative recommended in the 
SRS, where we estimated that the costs to create the monument would 
include $8.1 million from the identified partners to develop the 
facilities at the monument, with the NPS providing an additional 
$600,000 for enhanced interpretive media. Total operational costs are 
estimated to be $645,000 with the NPS contributing approximately 
$345,000 for NPS staffing of four full-time equivalent positions and 
associated supplies, materials, and equipment. All funds would be 
subject to NPS priorities and the availability of appropriations.
    Mr. Chairman, that concludes my statement. I would be happy to 
answer any questions that you or other members of the Subcommittee may 
have.
                                 s. 858
    Mr. Chairman, thank you for the opportunity to appear before you to 
provide the Department of the Interior's views on S. 858, a bill to 
authorize a special resource study to determine the suitability and 
feasibility of designating the Colonel Charles Young Home in Xenia, 
Ohio, as a unit of the National Park System.
    The Department supports enactment of S. 858. However, we believe 
that priority should be given to the 40 previously authorized studies 
for potential units of the National Park System, potential new National 
Heritage Areas, and potential additions to the National Trails System 
and National Wild and Scenic River System that have not yet been 
transmitted to the Congress.
    S. 858 authorizes a special resource study, in consultation with 
the Secretary of the Army, to determine the suitability and feasibility 
of designating the Colonel Charles Young Home as a unit of the National 
Park System, and to consider other alternatives for preservation and 
protection of the home and interpretation of the life and 
accomplishments of Colonel Young for future appreciation by the public. 
The bill also authorizes consultation and collaboration with the Ohio 
Historical Society, Central State University, Wilberforce University 
and other interested Federal, State or local governmental entities, 
private and nonprofit organizations or individuals in accomplishing the 
resource study. The home is a National Historic Landmark. We estimate 
the cost of this study to range from $200,000 to $250,000, based on 
similar types of studies conducted in recent years.
    Colonel Charles Young was the third African-American to graduate 
from West Point, and a distinguished African-American officer in the 
United States Army, commanding troops in combat in the Spanish-American 
War and the Mexican expedition against Pancho Villa. Colonel Young was 
one of the first military attaches in the United States, serving in 
Haiti and Liberia, and a pioneer of techniques in military 
intelligence. The experience of Colonel Young in the Army between 1884 
and 1922 illustrates the changing nature of race relations in the 
United States during a period spanning from the end of the Civil War to 
the beginning of the Civil Rights movement.
    Colonel Young was a friend and associate of other distinguished 
African-Americans of the period, including poet Paul Laurence Dunbar 
from nearby Dayton, Ohio; and as the commander of an Army unit assigned 
to protect and develop Sequoia National Park and General Grant National 
Park in the State of California, Colonel Young is recognized as the 
first African-American to be the superintendent of a National Park.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to answer any questions that you or other Committee members may 
have regarding this bill.

    Senator Udall. Thank you, Mr. Whitesell.
    I will turn to Mr. Holtrop now. Welcome.

   STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, NATIONAL FOREST 
       SYSTEM, FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Holtrop. Thank you, Mr. Chairman, Chairman Bingaman, 
Ranking Member Burr, thank you for the opportunity to provide 
the Department's views on the 4 bills affecting Valles Caldera, 
Oregon Caves, Chimney Rock, and Camp Hale.
    You have my written statement, and I would like to quickly 
emphasize some key points.
    Regarding Valles Caldera, the Department supports the 
protection of the nationally significant natural and cultural 
resources found at the Valles Caldera National Preserve, and 
has worked with the Trust to accomplish these goals over the 
past several years.
    Given the historical and ecological importance of these 
lands and the work that is required to restore them, there are 
various jurisdictional options for the long-term management of 
the Valles Caldera National Preserve that could be considered.
    There is no debate about the outstanding natural resources 
of the 88,980 preserve with its extraordinary flora, fauna, 
water, and geologic resources. Its spectacular scenic values 
are among the finest in the National Forest system.
    Its archaeological and cultural resources are of major 
significantly to native American Pueblo people.
    It is important to note that restoration and resource 
management issues are already being managed by the Forest 
Service, not only at Valles Caldera, but also on approximately 
895,000 acres on National Forest System land and the Jemez 
Mountains surrounding the preserve on the preserve's southeast 
corner adjacent to Bandelier National Monument.
    The connectivity of forests, range lands, and waters in the 
Jemez Mountains of central and northern New Mexico allows for 
the continuity of natural resource management and for efficient 
restoration practices to be implemented on a landscape scale. 
It is important to keep this all lands cross boundary approach.
    The spirit of cooperation would be paramount for all 
agencies to work together for the thoughtful stewardship of the 
Valles Caldera National Preserve, regardless of Congress's 
decisions regarding administrative jurisdiction. The U.S. 
Forest Service has long cared deeply about the Valles Caldera 
and will continue to care about it and its place in the broader 
landscape.
    Regarding Oregon Caves, I would like to take this 
opportunity to discuss the current status of cooperative 
management of the Rogue River Siskiyou National Forest and the 
Oregon Caves National Monument and provide a few comments on 
the bill.
    Interagency cooperation will carry out the purpose of the 
bill to enhance the protection of the resources associated with 
the monument in National Forest System lands and increase 
public recreation opportunities.
    To this end, the local U.S. Forest Service and National 
Park Service units have been committed to coordination on 
topics such as recreation management, management of cave 
resources, public signing, livestock grazing, trail maintenance 
and construction, fire protection, and fuels reduction, among 
others.
    The U.S. Forest Service remains and will remain committed 
to cooperative management across our respective jurisdictions.
    Regarding Chimney Rock, the Department strongly supports S. 
508. Designated as an archaeological area and national historic 
landmark in 1970, Chimney Rock lies on 4,100 acres of the San 
Juan National Forest surrounded by the Southern Ute Indian 
reservation.
    The Forest Service values archaeological and cultural 
resources and considers it an important part of the agency's 
mission to preserve and interpret them for the public.
    We believe the rich history, spectacular archaeological, 
cultural, scientific, watershed, and scenic resource values, as 
well as community support merits the designation of the area as 
a national monument.
    Regarding Camp Hale, this bill would direct the Secretary 
of Interior to carry out a study to determine the suitability 
and feasibility of establishing Camp Hale as a unit of the 
National Park system.
    Camp Hale is located in the White River National Forest and 
is managed by the U.S. Forest Service. We would request that 
the U.S. Forest Service be a full partner in the study to 
determine the best management options and recommendations for 
Camp Hale so as to provide a complete picture of management 
options.
    Thank you for the opportunity to testify, and I will be 
pleased to answer any questions you may have.
    [The prepared statement of Mr. Holtrop follows:]
   Prepared Statement of Joel Holtrop, Deputy Chief, National Forest 
           System, Forest Service, Department of Agriculture
                   s. 564, s. 765, s. 508, and s. 279
    Mr. Chairman, Ranking Member Burr, and members of the Subcommittee: 
Thank you for the opportunity to provide the Administration's views on 
S.564 (Valles Caldera), S.765 (Oregon Caves), S.508 (Chimney Rock), and 
S.279 (Camp Hale)
                          s.564 valles caldera
    I am pleased to testify today on S. 564 regarding the long-term 
management of the Valles Caldera National Preserve, one of the Nation's 
preeminent scenic and natural areas. The Valles Caldera Preserve 
Management Act would repeal the Valles Caldera Preservation Act of 2000 
(Public Law 106-248) abolish the Valles Caldera Trust, terminate the 
Preserve's inclusion in the National Forest System and turn over 
administration of the land to the National Park Service (NPS). This 
legislation gives us the opportunity to assess the long term management 
of the Preserve. The Department supports the protection of the 
nationally significant natural and cultural resources found at the 
Valles Caldera National Preserve and have worked with the Trust to 
accomplish these goals over the past several years. We would like to 
work with the committee to determine the management structure that will 
provide the best level of protection and care for the unique resources 
that are found within the Valles Caldera. Given the historical and 
ecological importance of these lands and the work that is required to 
restore them, there are various jurisdictional options for the long-
term management of the Valles Caldera National Preserve that could be 
considered.
    There is no debate about the outstanding natural resources of the 
88,900-acre Preserve with its extraordinary flora, fauna, water, and 
geologic resources. Its spectacular scenic values are among the finest 
in the National Forest System. Geologically, the Valles Caldera is one 
of the Nation's best examples of a resurgent caldera. Its 
archaeological and cultural resources are of major significance to 
Native American Pueblo people. The challenge before the Congress and 
the Administration is how best to manage and restore the forested and 
rangeland watersheds, while sustaining the traditional uses of a 
working ranch and the majesty of a National Preserve for the Nation.
Role of the Forest Service
    To assess appropriate future management, some history may be 
helpful. In 2000, at the hearings for the original Valles Caldera 
Preservation Act, the Forest Service was complimented as the ``unsung 
heroes'' in the great effort to preserve and protect what was then 
referred to as the Baca Ranch. That accolade is as valid today as it 
was ten years ago. Beginning in 1990, the Forest Service engaged the 
ranch owners, the Dunigan family, in what turned out to be a decade 
long effort to acquire the Baca Ranch. In 1993, the Forest Service 
cooperating with interested parties including the National Park 
Service, the U. S. Fish and Wildlife Service and affected Indian tribes 
completed a major study, the Report on the Study of the Baca Location 
No. 1 which provided the scientific and public policy underpinnings for 
Federal acquisition of the Ranch in 2000 (PL 106-248). From 1995 to 
2000, the Secretary of Agriculture assigned resource managers and used 
Department of Agriculture legal expertise to negotiate the purchase of 
the Baca Ranch for $101 million. The acquisition of the Baca Location 
No. 1 by the Federal government also resulted in the expansion of the 
Bandelier National Monument in the upper watershed of Alamo Creek as 
authorized by Public Law 105-376. The acquisition of the Preserve also 
permitted the Secretary of Agriculture to assign to the Pueblo of Santa 
Clara rights to acquire at market value approximately 5,045 acres of 
the northeast corner of the Baca Location No. 1 in the Santa Clara 
Creek watershed to promote watershed management within the Santa Clara 
Indian Reservation. More recently, significant effort and expense has 
been invested in acquiring privately owned geothermal rights within the 
Caldera. With some exceptions, the Administration can report today that 
due to the efforts of the Forest Service and the Department of Justice, 
the Federal government is now in possession of title to the Preserve 
and the land is permanently protected from private development. All 
this is to say, the Department of Agriculture and the Forest Service 
have a lot of equity invested in the Valles Caldera
Addition to the National Forest System--Valles Caldera National 
        Preserve
    Upon the enactment of the 2000 Act on July 25, 2000, the Valles 
Caldera National Preserve was added to the National Forest System and 
the boundary of the Santa Fe National Forest was adjusted to include 
the National Preserve. Hailed as a new experiment in public, multiple-
use land management, the nearly 89,000-acre National Preserve, formerly 
known as the Baca Location No. 1, was assigned to a nine-member Board 
of Trustees responsible for the protection and development of the 
Valles Caldera National Preserve. The President of the United States 
appoints seven members and two Federal employees are ex-officio members 
who serve by virtue of their positions as Forest Supervisor of the 
Santa Fe National Forest and Superintendent of the Bandelier National 
Monument. The Trust is the managing board for the National Forest 
System lands that comprise the Valles Caldera National Preserve. The 
Preserve employees report to an Executive Director, who is overseen by 
the Trust Board members. Funding for the Preserve comes from the annual 
Forest Service appropriation, which is $3.5 million for FY 10 and from 
revenues generated by the Preserve for entry and use. In fiscal year 
2009, the Trust generated approximately $650,000. In fiscal year 2010, 
visitation increased by 59 percent and the Trust generated just over 
$700,000. In 2011, in a year of a declining budget, the Preserve was 
funded at the same level as it was in 2010.
    Because the Valles Caldera National Preserve is part of the 
National Forest System, it has the ability to draw upon the 
considerable resources of the Forest Service. The Deputy Areas for 
National Forest Systems, Research and Development and State and Private 
Forestry, as well as Business Operations support and assist the Trust 
and Preserve managers with services and expertise needed to manage the 
Preserve. The Southwest Region and the Rocky Mountain Research Station 
support the Preserve managers through special assignments; such as on-
the-ground consultations and specific disciplinary investigations or 
services. Santa Fe National Forest and Cibola National Forest employees 
with a wide array of skills are within a short driving distance of the 
Preserve and are available for immediate consultation on management 
direction or service program delivery. Wildland fire suppression and 
management resources, including equipment and personnel, are directly 
provided to the Preserve as part of the Santa Fe National Forest 
mission. Over the last decade, the Forest Service has worked closely 
with the Trust to assist with National Preserve operations, including 
archaeology, forestry, law enforcement, infrastructure, technical 
assistance, resource management and wildfire suppression. The Forest 
Service also provides the Trust with administrative assistance in 
financial services and property management. The future success of the 
Preserve under whatever management oversight, will need this sort of 
support as the base minimum to succeed.
Maintaining a Working Ranch, While Managing a National Preserve
    The debate a decade ago was over how to best manage the newly 
acquired Baca Ranch. The consensus then was that the land should be 
preserved as a working ranch where fishing, hunting, grazing, and some 
limited timber management might be retained. Then Congressman Tom Udall 
noted in the hearings in March, 2000, that a working ranch would permit 
both cattle and wildlife to thrive on the land and traditional New 
Mexican families should have the opportunity to join others who had 
previously been able to use the land. The concept of a working ranch 
was widely endorsed. Over the past decade the Trust, with the 
assistance of the Forest Service, has implemented the concept of the 
working ranch.
    The October 2009 report ``Valles Caldera'' by the Government 
Accountability Office found that the Trust had made progress in 
rehabilitating roads, buildings, fences, and other infrastructure, 
created a science program, experimented with a variety of grazing 
options, taken steps to manage its forests, expanded recreational 
opportunities for the public, and taken its first steps toward becoming 
financially self-sustaining. However, according to GAO, the Trust is at 
least 5 years behind the schedule it set for itself. Through FY2009, 
the Trust lacked a strategic plan and annual performance plans and it 
had not systematically monitored or reported on its' progress. The 
Trust's financial management has also been weak and the Trust is 
challenged to become self sustaining by the end of FY2015. The GAO 
recommended that the Trust work with the relevant Committees to seek 
legislative remedies as appropriate for the legal challenges 
confronting the Trust. The Trust has since responded in writing with 
suggested legislative actions.
Forest and Rangeland Restoration
    It is important to note that restoration and resource management 
issues are already being managed by the Forest Service on approximately 
895,000 acres of National Forest System lands in the Jemez Mountains 
surrounding the Preserve and on the Preserve's Southeast corner 
adjacent to Bandelier National Monument. The connectivity of the 
forests, rangelands and waters in the Jemez Mountains of central and 
northern New Mexico allows for the continuity of natural resource 
management and for efficient restoration practices to be implemented on 
a landscape scale. It is important to keep this ``all-lands'' cross-
boundary approach. Active management will be needed to maintain a 
functioning ecosystem at a landscape scale. The Forest Service is well 
positioned to provide landscape and restoration management in the Jemez 
Mountains, as envisioned by the Administration's priorities for 
maintaining and enhancing the resiliency and productivity of America's 
forests.
    The paramount priority for the Preserve is to continue and increase 
watershed restoration work across the Preserve and the surrounding 
National Forest System lands. The land's long history as a ranch where 
timber and mining activities occurred degraded much of the landscape. 
In addition, drought and insect activity threatens the forest and makes 
catastrophic fire a major challenge. Restoration work in this regard 
has been initiated and environmental and watershed assessments for 
developing future restoration projects are in process.
    Some of this restoration work has and will continue to deal with 
roads. When the Baca Ranch was purchased there were approximately 1,400 
miles of logging roads on the land. Initially, it was determined that 
the existing road system and surface design could not be used to 
support recreational opportunities, administration and management or 
uses such as grazing.
    The Trust, with the assistance of the Forest Service, has upgraded 
over 25 miles of road to all-weather gravel standards so they are 
usable for passenger vehicles and are more environmentally stable. To 
enhance safety and public viewing of the preserve, the kiosks, scenic 
turnouts, and a new gate have been installed. In addition, the entry to 
and exit from New Mexico Highway 4, the main access road to the 
preserve, has been reconfigured to meet traffic and road safety 
requirements. To date, approximately 900 miles of the 1,400 have been 
inventoried and once the inventory is completed a determination would 
be made on the number of miles of road required for management of the 
Preserve. Through forest restoration efforts, the existing roads that 
are unneeded for future administrative use would then be closed, 
decommissioned or obliterated. Rehabilitating deteriorating 
infrastructure such as buildings, roads and water systems has proven to 
be an expensive and time-consuming endeavor, perhaps more so than 
originally envisioned. Many of these obligations will need to be 
addressed in any future management regime for the Preserve.
Approaches to Grazing Management
    Given that the 2000 Act requires maintaining the Preserve as a 
working ranch, grazing has been a central activity. Over the years, the 
grazing program's objectives, scope, and size have changed repeatedly, 
in response to annual scientific assessments of forage availability, as 
well as shifting directives from the Board. The ultimate goal is to 
manage the Preserve's livestock operations for multiple aims, 
including, environmental benefits, local community benefit, research, 
and public education.
The Development and Expansion of Recreational Opportunities
    For the public, especially New Mexicans, the Baca Location No.1 was 
an intriguing curiosity. Projected on maps as a prominent rectangle of 
white surrounded by National Forest System lands and on the Preserve's 
Southeast corner adjacent to Bandelier National Monument, there were 
great expectations by the Public for recreating and exploring the new 
National Preserve. At the outset of Forest Service and Trust 
management, the National Preserve was closed to public entry. Beginning 
in 2002, the Preserve was opened to public recreation which was 
confined to guided hikes or van tours. Over the next several years, 
access to the Preserve for varied summer and winter activities was 
allowed, including but not limited to access for fishing, hunting, 
hiking and various other recreational activities provided by outfitters 
and guides such as horse drawn wagon and sleigh rides, stargazing and 
viewing, group tours and birding.
    Given the successful history of Forest Service efforts, its 
commitment to the Preserve and the National Forest System stewardship 
of the vast majority of lands surrounding the Preserve, management by 
the Forest Service is a viable option for the Preserve's future. There 
is ample national precedent for Forest Service administration of such 
lands. The agency currently manages 38 Congressionally designated areas 
(in addition to hundreds of Wilderness Areas and Wild and Scenic 
Rivers), including 21 National Recreation Areas, 6 National Monuments 
(2 of which are national volcanic monuments), and 11 National Scenic 
Areas. For example the Santa Fe National Forest is managing the 57,000-
acre Jemez National Recreation Area established to conserve the 
recreational, ecological, cultural, religious and wildlife values of 
the Jemez Mountains
    The Preserve presents many resource management challenges that must 
be addressed and accounted for if any change in management is 
considered. The largest elk herd in New Mexico has to be carefully 
managed in cooperation with the New Mexico Department of Game and Fish. 
The land needs to be restored after decades of grazing and logging use. 
Indeed, for the Secretary of Agriculture, restoration of forest and 
rangelands watersheds is one of the highest management priorities. 
Under the Forest Landscape Restoration Title of the Omnibus Public Land 
Management Act of 2009 (16 U.S.C. 7303), which established the 
Collaborative Forest Landscape Restoration Fund (CFLRF), the Valles 
Caldera National Preserve, Santa Fe National Forest, the Nature 
Conservancy and the New Mexico Forest and Watershed Restoration 
Institute have developed a proposal for a cross jurisdictional planning 
process to implement a landscape-scale forest restoration strategy in 
the Jemez River Watershed. A key collaborator for this proposal, among 
many, is Bandelier National Monument. This proposal was one of ten 
approved in the nation by the Secretary for funding in FY 2010. To 
achieve the goals of restoration and resiliency under the CFLRF active 
management prescriptions utilizing timber and forest vegetation 
harvesting and removal, prescribed fire, road closures and 
obliteration, as well as controlled livestock herbivory, would be 
required to achieve restored and resilient forest and watershed 
ecological conditions. Currently, CFLRF funding is limited to lands 
administered by the Forest Service.
Congressional Request for Reconnaissance Study by the National Park 
        Service
    At the request of New Mexico Senators Jeff Bingaman and Tom Udall 
(June 24, 2009), the National Park Service performed a reconnaissance 
study of the National Forest System lands comprising the Valles Caldera 
National Preserve for its inclusion in the National Park System. We 
recognize that the Secretary of the Interior could also be an 
appropriate steward of the National Preserve and the Forest Service 
will work cooperatively with all parties to achieve the best outcome 
for the National Preserve.
    If it is the decision of the Committee that permanent Trust 
management of the Preserve is not in the public interest and the land 
is ultimately managed by the Park Service, the Forest Service or some 
other arrangement, then we would request a thorough and orderly 
transfer of responsibilities from the Trust. In the interim, we should 
assure adequate funding for continued operations. In that respect, I 
note the Administration is funding the Trust at $3.4 million for FY 
2011.
    This bill would repeal the Valles Caldera Preservation Act (VCPA), 
in which Congress authorized the acquisition of a fractional mineral 
interest under the Valles Caldera Preserve. Although the condemnation 
action related to the mineral interest has concluded, the judgment and 
some fees have not yet been paid. Accordingly, we believe that the bill 
should state explicitly that it is not intended to affect the authority 
for the condemnation or the amount or source of any outstanding 
obligations of the United States related to the condemnation of the 
fractional mineral interest under the Preserve
    In closing, I would note that the spirit of cooperation would be 
paramount for all agencies to work together for the thoughtful 
stewardship of the Valles Caldera National Preserve, regardless of the 
Congresses' decisions regarding administrative jurisdiction, the U.S. 
Forest Service has long cared deeply about the Valles Caldera and we 
will continue to care about its place in the broader landscape. Forest 
restoration is important to us and we look forward to engaging our 
expertise and capabilities in working across boundaries. If a change in 
administrative oversight were to occur because of this legislation, we 
look forward to collaborating in the achievement of restoration goals 
with the surrounding National Forest.
                           s.765 oregon caves
    S.765 would modify the boundary of the Oregon Caves National 
Monument to include approximately 4,070 acres of land currently managed 
by the Rogue River-Siskiyou National Forest. The resulting Monument 
would be designated as the Oregon Caves National Monument and Preserve. 
The bill would also designates one river segment as part of the 
National Wild and Scenic Rivers System, and it would provide for 
possible termination of grazing use on a Forest Service-managed grazing 
allotment, a portion of which is located within the proposed boundary 
of the Preserve. USDA believes that interagency coordination and 
cooperation, with joint public involvement, is the most effective way 
of managing the Oregon Caves National Monument and surrounding National 
Forest System land.
    I would like to take this opportunity to discuss the current status 
of cooperative management of the Rogue River-Siskiyou National Forest 
and the Oregon Caves National Monument and provide a few comments to 
the bill.
    We believe interagency cooperation would carry out the purpose of 
the bill to enhance the protection of the resources associated with the 
Monument and NFS lands and increase public recreation opportunities 
through a joint public involvement and review process, to ensure that 
public concerns and desires are addressed. To this end, the local U.S. 
Forest Service and National Park Service units have committeds to 
coordination on topics such as recreation management, management of 
cave resources, public signing, livestock grazing, trail maintenance 
and construction, fire protection, and fuels reduction among others.
Boundary Adjustment and Management
    Section 3 of the bill would transfer management of the National 
Forest System Lands from the Secretary of Agriculture to the Secretary 
of the Interior, and adjust the boundary of the Rogue River-Siskiyou 
National Forest accordingly. The 1998 Oregon Caves National Monument 
General Management Plan by the Department of the Interior (DOI), 
developed through the public National Environmental Policy Act (NEPA) 
process, recommended a similar boundary expansion. However, no 
coordinated study or formal dialogue between the Departments (beyond 
that provided under NEPA during development of the DOI's 1998 plan) has 
taken place on the issue of Monument expansion.
    The U.S. Forest Service is committed to cooperative management 
across our respective jurisdictions.
    The land managers of the Rogue River-Siskiyou National Forest have 
three priorities for this area:

          Maintaining and protecting cave resources, hydrologic 
        resources, watersheds, and view sheds.--Critical landscapes, 
        including cave resources and watersheds, are managed by 
        interagency collaboration. These resources, and the need to 
        manage them in a cooperative manner, extend well beyond the 
        proposed Monument boundary.
          Improving forest health by addressing hazardous fuels.--Most 
        of the proposed expansion area is designated in the Land and 
        Resource Management Plan as ``Late-Successional Reserve'' (LSR) 
        as defined under the Northwest Forest Plan. These areas are 
        intended to serve as habitat for late-successional and old-
        growth related species. A majority of the LSR landscape within 
        this watershed, and the larger surrounding landscape managed by 
        the Forest Service, is in fire condition class 3--high risk of 
        damaging wildfire. Currently the Rogue River-Siskiyou National 
        Forest is removing hazardous fuels using timber contracts to 
        reduce fuels, both around the immediate vicinity of the 
        Monument and across watersheds. The Forest plans to treat 
        approximately 1550 acres to reduce hazardous fuels within the 
        proposed expansion area. These treatments are designed to 
        restore fire to this ecosystem and will help ensure that the 
        forest attributes intended for the LSR, including bigger, 
        older, more fire resistant trees, remain intact. About 150 
        acres of treatment have been completed and another 100 acres 
        are under contract. To that end, we fully endorse the intent of 
        section 4(b) of the proposed legislation to have forest 
        restoration activities continue on the proposed expansion area. 
        The hazardous fuel challenge in this region and the danger of 
        catastrophic fire cross all jurisdictions and is one we all 
        must work together to address and thus a seamless management 
        regime is an important goal.
          Managing for multiple uses while minimizing any potential 
        impacts from harvest, grazing, mining, and road construction.--
        On National Forest lands surrounding the Monument, timber 
        harvesting, grazing and special forest product harvesting (i.e. 
        bear grass, firewood, mushrooms, etc.) are allowed only if they 
        meet resource objectives, as described above. Road management 
        is limited to maintenance and reconstruction activities; no new 
        roads are planned. Moreover, interagency collaboration provides 
        additional oversight of these multiple-use activities.
Relinquishment and Retirement of Grazing Permits
    Section 4(d) of the legislation would require the Secretary of the 
Interior to permit livestock grazing at a level not greater than the 
level at which grazing exists on the date of enactment. Section 5 also 
would direct the Secretary of Agriculture to accept any donation of a 
grazing permit by the permit holder for grazing on the Forest Service 
managed Big Grayback grazing allotment and if such a donation is 
received, ensure an end to grazing on the entire allotment. Under this 
legislation, only a small portion of the Big Grayback allotment would 
become part of the proposed Preserve, but the legislation would end 
grazing on a large area of land outside the Preserve. We look forward 
to working with the Committee to address grazing management issues. The 
agency is committed to closing the Big Grayback allotment if the permit 
is donated.
Recreational opportunities
    Current recreation on the portion of the National Forest proposed 
to be transferred includes horseback riding, hunting and fishing, 
gathering, camping, backpacking, and hiking. We support the requirement 
in section 4 that fishing, hunting and trapping be permitted in the 
proposed National Preserve.
           s. 508 chimney rock national monument act of 2010
    The Department strongly supports S. 508. Designated as an 
Archaeological Area and National Historic Landmark in 1970, Chimney 
Rock lies on 4,100 acres of San Juan National Forest land surrounded by 
the Southern Ute Indian Reservation. Between A.D. 900 and 1150, the 
ancestors of modern Pueblo Indians occupied the lands surrounding 
Chimney Rock, and the site remains of archaeological and cultural 
significance to many descendant tribes. At 7,600 feet, Chimney Rock is 
also the most northeasterly and highest Chacoan site known. Chacoan 
culture refers to the way of life of ancient ancestors of modern Pueblo 
Indians and continues to be important to the native people in the 
region.
    The Forest Service values archaeological and cultural resources and 
considers it part of the agency's mission to preserve and interpret 
them for the public. We believe the rich history, spectacular 
archaeological, cultural, scientific, watershed, and scenic resource 
values, as well as community support, merits the designation of the 
area as a National Monument.
    Section 3(a) of S. 508 would establish the Chimney Rock National 
Monument in the State of Colorado by designating 4,726 acres 
surrounding the Chimney Rock Archaeological Area within the San Juan 
National Forest as a National Monument. The purpose of the monument 
would be to preserve, protect, and restore archaeological, cultural, 
historic, geologic, hydrologic, natural, educational and scenic 
resources in the area as well as provide for public interpretation and 
recreation consistent with the protection of these resources. Section 
4(b)(2)) of the bill would also provide for continued use by Indian 
tribes to sites within the National Monument for traditional ceremonies 
and as a source of traditional plants and other materials.
    Section 3(b)(2) would authorize the Secretary to make minor 
boundary adjustments to the monument to include significant 
archeological resources discovered on adjacent public land. Under 
section 4, the Secretary would be authorized to carry out vegetative 
management treatments; except that timber harvest may only be used when 
the Secretary deems it necessary to address the risk of wildfire, 
insects, or disease.
    Section 5 would require the development of a management plan, not 
later than 3 years after the date of enactment, and in consultation 
with Indian Tribes with a cultural or historic connection to the 
monument. In developing the management plan, the Secretary would 
provide an opportunity for comment to the public and such entities as 
State, Tribal government, local, and national organizations. The San 
Juan National Forest land management plan would have to be amended to 
incorporate the management plan for the monument. Because of the 
importance of creating a successful management plan in collaboration 
with the community, Tribes, and the public, and the time needed to 
achieve this, the Department recommends the bill language be changed to 
state that the management plan shall be completed no later than five 
(5) years after the date of enactment.
                            s. 279 camp hale
    This Bill would direct the Secretary of Interior to carry out a 
study to determine the suitability and feasibility of establishing Camp 
Hale as a unit of the National Park System. Currently Camp Hale is 
located in the White River National Forest and managed by the U.S. 
Forest Service. We would request that the U.S. Forest Service be a full 
partner in the study to determine the best management options and 
recommendations for Camp Hale so as to provide a complete picture of 
management options so as to provide a complete picture of management 
options.. Thank you for the opportunity to testify and I am pleased to 
answer any questions you may have.

    Senator Udall. Mr. Holtrop, thank you very much.
    Dr. Loretto, welcome. We are eager to hear your testimony. 
Thank you for making the trip to Washington, DC.

  STATEMENT OF RAYMOND LORETTO, CHAIRMAN, VALLES CALDERA TRUST

    Mr. Loretto. Mr. Chairman and members of the subcommittee, 
I am Raymond Loretto, chairman of the board of trustees for the 
Valles Caldera Trust. I am on behalf of the Presidentially 
appointed members of the board of trustees to express our views 
on S. 564, the Valles Caldera National Preserve Management Act.
    The Trust supports the management and protection of the 
nationally significant natural and cultural resources found at 
the Valles Caldera National Preserve. Since the Trust inherited 
the preserve 11 years ago, our capable staff has led in efforts 
to improve the ecological conditions on the landscape, while 
increasing public access and use.
    Of special note, our staff, in collaboration with personnel 
from the Santa Fe National Forest and several other 
organizations, competed for funding in the USDA collaborative 
forest landscape restoration program, and restoration and 
monitoring activities will proceed across the preserve this 
summer.
    In addition to improving the ecological condition of the 
preserve, our science and education programs have blossomed, 
and the preserve now holds numerous research and educational 
art weeks' projects.
    Although public access to the preserve is limited by the 
lack of infrastructure and a need for environmental analysis, 
we increased participation in our recreational program last 
year, and we anticipate even higher numbers of visitors in the 
coming season.
    Since the Trust was formed in 2000, one of our mandates was 
to operate the preserve as an economically self-sustaining 
organization. In the past decade, the board of trustees made an 
honest effort to take the necessary steps to achieve this goal. 
But during this period, it has become clear that the capital 
improvements to make the preserve financially self-sufficient 
are either too costly or unacceptable to the major stakeholders 
in the region.
    Although approximately 20 percent of our annual operating 
costs are covered by revenues from our various programs on the 
preserve, it now appears that the Valles Caldera Trust will not 
meet the financial self-sufficiency goal that was a major 
objective of our legislation.
    In light of this fact, a majority of the Presidential 
appointees on the board of trustees feel that the proposed 
transfer of the preserve to the National Park Service is 
justified.
    At this time, I would like to briefly comment on four 
sections of the proposed legislation.
    First, the board of trustees recognizes the proposed bill's 
stated goal to retain all eligible employees currently working 
for the preserve.
    We also applaud another bill's stated goal to protect the 
traditional cultural and religious sites within the preserve in 
consultation with Indian tribes and the Pueblos.
    The bill also requires the Secretary to undertake 
activities to improve the health of the forest, grasslands, and 
ripe, aerent areas within the preserve.
    Should the S. 564 be enacted, we hope that the restoration 
of the forest and the watersheds that have planned and 
implemented by the Trust and the Forest Service at the 
preserves will continue under the management of the National 
Park Service.
    In addition, we hope that S. 564 continues the science and 
education programming established under Public Law 106-248, the 
Valles Caldera Preservation Act.
    In conclusion, we believe that the outstanding landscape 
that is the Valles Caldera National Preserve deserves the best 
stewardship possible, situated in a stable administration 
structure that is permanent and adequately funded for public 
use and appreciation
    The board of trustees of the preserve believes the National 
Park Service will provide that home; thus, we support S. 564, 
the Valles Caldera National Preserve Management Act.
    Thank you, and I will happy to answer any questions.
    [The prepared statement of Mr. Loretto follows:]
Prepared Statement of Raymond Loretto, Chairman, Valles Caldera Truston 
                                 S. 564
    Mr. Chairman and Members of the Subcommittee:
    I am Raymond Loretto, Chairman of the Board of Trustees for the 
Valles Caldera Trust, and I am here on behalf of the Presidentially 
appointed members of the Board of Trustees to express our views about 
S. 564, the Valles Caldera National Preserve Management Act. The Trust 
supports the management and protection of the nationally significant 
natural and cultural resources found at the Valles Caldera National 
Preserve.
    Since the Trust inherited the Preserve eleven years ago, our 
capable staff has led an effort to improve the ecological conditions on 
the landscape while increasing public access and use. Of special note, 
our staff, in collaboration with personnel from the Santa Fe National 
Forest and several other organizations, successfully competed for 
funding in the USDA's Collaborative Forest Landscape Restoration 
Program and restoration and monitoring activities will proceed across 
the Preserve this summer. In addition to improving the ecological 
condition of the Preserve, our science and education programs have 
blossomed, and the Preserve now hosts numerous research and educational 
outreach projects. Although public access to the Preserve is limited by 
a lack of infrastructure and the need for environmental analysis, we 
increased participation in our recreational programs last year, and we 
anticipate even higher numbers of visitors in the coming season.
    Since the Trust was formed in 2000, one of our mandates was to 
operate the Preserve as an economically self-sustaining organization. 
In the past decade, the Board of Trustees made an honest effort to take 
the necessary steps to achieve this goal, but during this period, it 
has become clear that capital improvements to make the Preserve 
financially self-sufficient are either too costly or unacceptable to 
the major stakeholders in the region. Although approximately 20% of our 
annual operating costs are covered by revenues from our various 
programs on the Preserve, it now appears that the Valles Caldera Trust 
will not meet the financial self-sufficiency goal that was a major 
objective of our enabling legislation. In light of this fact, a 
majority of the presidential appointees on the Board of Trustees feels 
that the proposed transfer of the Preserve to the National Park Service 
is justified.
    At this time, I would like to briefly comment on four sections of 
the proposed legislation. First, the Board of Trustees recognizes the 
proposed bill's stated goal to retain all eligible employees currently 
working for the Preserve. We also applaud another of the bill's stated 
goals, to protect the traditional cultural and religious sites within 
the Preserve, in consultation with Indian tribes and pueblos. The bill 
also requires the Secretary to undertake activities to improve the 
health of forest, grassland and riparian areas within the Preserve. 
Should S. 564 be enacted, we hope that the restoration of forests and 
watersheds that have been planned and implemented by the Trust and the 
Forest Service at the Preserve would continue under the management of 
the National Park Service. In addition, we hope that S.564 continues 
the Science and Education Program established under PL 106-248 (Valles 
Caldera Preservation Act).
    In conclusion, we believe that the outstanding landscape that is 
the Valles Caldera National Preserve deserves the best stewardship 
possible, situated in a stable administrative structure that is 
permanent and adequately funded for public use and appreciation. The 
Board of Trustees of the Preserve believe that the National Park 
Service would provide that home, thus, we support S. 564, the Valles 
Caldera National Preserve Management Act.
    Thank you and I would be happy to answer any questions.

    Senator Udall. Dr. Loretto, thank you for that testimony. I 
know how important how this is to you, your people, and the 
people of New Mexico.
    Mr. Loretto. Right.
    Senator Udall. We look forward to working with you to make 
this a reality.
    Mr. Loretto. Thank you.
    Senator Udall. We do have a very tight schedule today. I 
hope you will accept my apologies and the ranking member's as 
well. Given that context, I am going to submit my questions for 
the record.
    With that, I would like to turn to Senator Burr for any 
questions he might have.
    Senator Burr. Mr. Chairman, I am going to do exactly the 
same thing. All my questions will be submitted in writing to 
all the appropriate people.
    I appreciate all of you willingness to come in.
    Mr. Whitesell, it will not surprise you that my questions 
are rooted in an understanding of what our current backlog is 
for maintenance and why we would consider diverting any other 
moneys away from maintenance to additions to the Park Service. 
So, just to give you a head's up as to the spirit of those 
questions.
    I thank the chair.
    Senator Udall. I thank the ranking member. I truly will 
miss him, and I will spend the next 10 minutes trying to talk 
him out of his decision to join the Finance Committee. I think 
I will be unsuccessful, but I will still make the effort.
    If there are no further questions, I would like to thank 
our witnesses for their testimony this afternoon.
    The hearing record will be open for 2 weeks to receive any 
additional statements and questions.
    With that, the subcommittee is adjourned.
    [Whereupon, at 3:12 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

 Responses of Stephen E. Whitesell to Questions From Senator Mark Udall
    Question 1. Mr. Whitesell, I noticed in your testimony for S. 279, 
the Camp Hale Study Act, a suggestion to include the Forest Service in 
the study to determine the future of Camp Hale. The legislation directs 
the NPS to carry out the study and provides for the inclusion of other 
Federal entities to have a role in the protection and interpretation of 
Camp Hale. What role do you see the Forest Service playing in the study 
and ultimately, in the future management of Camp Hale?
    Answer. The majority of the land currently within the Camp Hale 
boundaries is managed by the U.S. Forest Service (USFS) and located in 
the White River, San Isabel, and Arapaho National Forests. In addition, 
the LISTS is a partner in the Camp Hale Military Munitions Project, a 
project to improve public safety and reduce the public's risk of 
exposure to hazardous military munitions in the Camp Hale project area 
remaining from past military training. Based upon their long-term 
management of the site and the intimate knowledge they possess of 
resource issues impacting the site, the USFS would be a logical partner 
in completing the study. When completed, the study would present a 
recommendation on the management of Camp Hale and the role that 
agencies such as USES and the National Park Service (NPS) will play in 
that management.
    Question 2. I have concerns about S. 849, the Waco Mammoth National 
Monument. In your testimony, Mr. Whitesell, you made it very clear that 
the language in the bill is contradictory and that without the use of 
Federal funds, establishing a Federal Monument is not feasible. Of the 
almost 400 units on the National Park System, are there any other areas 
where the Park Service is prohibited from spending Federal funds? 
Finally, how do you envision a cooperative agreement with the City of 
Waco, and Baylor University to manage the park unit?
    Answer. No, there are not any other units of the National Park 
System where the NPS is prohibited from spending federal funds.
    The details regarding possible cooperating agreements between the 
NPS, the City of Waco, and Baylor University were conceptualized in the 
Waco Mammoth Site Special Resource Study, completed by the NPS in 2008. 
The management framework recommended by the Study would have the NPS 
prepare a General Management Plan to guide managers of the site by 
defining what level of resource conditions and visitor experiences 
should be achieved over time. NPS would take the lead responsibility 
for ensuring the protection, scientific study, and visitor enjoyment of 
the paleontological resources of the site, enlisting the help of 
partners to accomplish this mission. The Cityof Waco or other partners 
would take the lead for initiating additional recreational, 
interpretive, and environmental education opportunities on the site.
    Question 3. S. 858, the Colonel Charles Young Home Study Act, 
includes a new provision that requires that the study be carried out 
"using existing funds of the National Park Service." I'm not sure 
whether the intent is to authorize funding for the study or not, but 
I'm concerned this language could be interpreted to authorize the use 
of other park funds for the study. Do you have any concerns with this 
provision?
    Answer. It is not clear to us what this language means. If this 
language means that we could only use funds that the NPS has on hand at 
the time the bill is enacted and there is no funding available at that 
time, then the study could not be conducted.
    Responses of Stephen E. Whitesell to Questions From Senator Burr
   first state national historical park/harriet tubman national park
    Question 1. Is creating the First State National Historical Park or 
Harriet Tubman National Historical Park a greater priority than the 
over $9 billion maintenance backlog? If not, should we then wait until 
the backlog is paid down before these new units are established?
    Answer. The proposed First State National Historical Park, which 
has been found to meet the NPS criteria for new units, would be an 
important addition to the National Park System. Its designation should 
not have to be postponed because there is a maintenance backlog within 
existing units of the National Park System.
    Question 2. Can you please outline for me the costs associated with 
the creation of each of these new Park Units as well as the annual 
operation costs? Which maintenance backlog projects would these funds 
go to were they not being used to create new parks?
    Answer. First State National Historical Park--The Special Resource 
Study estimated annual operating costs for the park at $450,000 to 
$550,000, which would fund from five to seven FTEs. There would be a 
one-time cost associated with completing the general management plan of 
$600,000. The federal share to rehabilitate the Old Sheriffs Office as 
well as other park properties would cost up to $5 million. We 
anticipate that all of the properties within the park boundaries would 
be acquired through either donation or through easements at no cost to 
the federal government.
    Harriet Tubman National Historical Park (Auburn, NY)--The Special 
Resource Study estimated annual operating costs for the park at 
$500,000 to $650,000 which would fund five to seven FTEs. S. 323 limits 
the federal share for exhibits and preservation, restoration, and/or 
rehabilitation activities to $7.5 million, which is consistent with the 
SRS estimate. The one-time cost for the general management plan is 
estimated at $600,000 to $700,000.
    Harriet Tubman Underground Railroad National Historical Park 
(Caroline, Dorchester, and Talbot Counties, MD)--The Special Resource 
Study estimated an annual operating cost for the park between $500,000 
to $650,000, which would fund five to seven FTEs. The federal share for 
the Harriet Tubman Underground Railroad visitor center and land 
acquisition related to the park is estimated at up to $11 million. Due 
to the complexity of the site, the SRS estimates a one-time cost of 
$600,000 to $700,000 to prepare a general management plan.
    Maintenance Backlog--Any proposed funding for newly authorized 
units of the National Park System, and any proposed funding for 
reducing the maintenance backlog, would be determined through the 
Administration's budget priority-setting process. Spending for new 
units would not necessarily offset spending for the maintenance 
backlog.
    Question 3. We have another new Park Unit bill before us, S. 849 
Waco Mammoth National Monument, which is using little to no federal 
funds for the creation or operation, should we model future new park 
designations after Waco Mammoth?
    Answer. As we stated in our testimony, we cannot support S. 849 in 
its current form which would require the Secretary of the Interior to 
administer the national monument as a unit of the National Park System; 
but would prohibit the Secretary from expending any federal funds to do 
so. Without federal funding it would be difficult to preserve, protect, 
and interpret the resources of the proposed national monument to the 
level found at other National Park System units. As such, we feel that 
it would not be a good model to pursue for future additions to the 
system.
    Question 3a. Don't you believe that this type of creative 
alterative is necessary to create new Units of the National Park System 
during these difficult economic times?
    Answer. No. The National Park System was created to preserve and 
protect for future generations resources Congress finds to be 
nationally significant. Prohibiting the expenditure of federal funds 
for that preservation and protection makes little sense.
                                 ______
                                 
     Responses of Joel Holtrop to Questions From Senator Mark Udall
        s. 508, chimney rock national monument establishment act
    Question 1. The national archeological community has some concern 
about continued access for research once the Monument is established.  
Would you support a minor amendment to the legislation to clarify that 
archeological and scientific research is allowed within the Monument 
boundaries?
    Answer. Current rules and regulations that the US Forest Service 
operates under already allow for scientific research. In fact this is 
an important priority for the agency. Therefore, the Department would 
not object to an amendment that clarifies that archeological and 
scientific research is allowed.
    Question 2. Does the Forest Service support section 4(h) of S. 508, 
which allows for the designation of a Monument manager, but clarifies 
that such manager shall not be precluded from fulfilling other duties 
on the San Juan National Forest?
    Answer. Yes, the Department supports section 4(h) of S. 508, 112th 
Congress.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                                 February 10, 2011.
Hon. Jim Webb,
U.S. Senate, Senate Russell 248, Washington, DC.
    Dear Senator Webb: We, the undersigned organizations, are writing 
to express our support for legislation to establish a commission to 
commemorate the sesquicentennial of the American Civil War. This 
federal commission will serve as a helpful tool in the efforts already 
underway by states, localities and the National Park Service to promote 
the 150th anniversary of the conflict. In addition, the funding that 
would be provided as a result of this legislation would help ensure the 
sesquicentennial anniversary leaves a legacy of lasting educational 
value through the development of new scholarship, academic programs and 
curriculum, as well as the preservation of key battlefield lands that 
serve as outdoor classrooms for current and future generations of 
Americans.
    The American Civil War was a defining experience in our national 
history, and its legacy continues to exercise a tight hold on the 
imaginations of millions of Americans. The Sesquicentennial of the 
Civil War will begin in earnest with the 150th anniversary of the 
opening guns in April 2011, a date that is fast approaching. 
Unfortunately, at present, there is no federal commission to 
coordinate, help fundraise and assist with the Sesquicentennial 
commemorations being planned by states. The absence of a federal 
commission could result in a piecemeal commemoration that lacks 
cohesion and inclusion on a national level.
    Our generation has been given a rare moment during which to explore 
the legacies of the Civil War and Reconstruction and in the process 
better understand how the events of that era shape contemporary issues 
such as federalism, contested regional heritage, race, and civil 
rights. These last two are especially salient topics for consideration, 
for the years of the Sesquicentennial--2011 through 2015--coincide with 
the fiftieth anniversary of many of the signature events of the 
American Civil Rights Movement.
    Although time is running out--with the anniversary of the firing on 
Fort Sumter just a few months away--we believe that with your timely 
leadership, Americans across the country will work to create a 
meaningful commemoration that will empower America's communities of 
historians, educators, preservationists, librarians, and archivists to 
present educational and commemorative activities for children and 
adults alike to the lasting benefit of all Americans.
    For these reasons, we support the creation of a federal commission 
to commemorate the sesquicentennial of the Civil War and the provisions 
for adequate funding to provide opportunities for lasting legacies of 
educational value. We believe that the creation of a federal commission 
is essential to the creation of a meaningful commemoration on the 
national level. A thoughtful engagement of this important anniversary 
at the national level will be to the ultimate benefit of all Americans.
    Thank you for your consideration. Please let us know if you or your 
staff has any questions.
            Respectfully submitted,
                    American Association of Museums,
                    American Association for State and Local History,
                    Association for the Study of African American Life 
                            and History,
                    Civil War Trust,
                    Federation of State Humanities Councils,
                    History Channel,
                    National Coalition for History,
                    National Council on Public History,
                    National Council for the Social Studies,
                    National History Day,
                    Society for Military History,
                    Southern Historical Association.
                                 ______
                                 
                                     The Conservation Fund,
                                       Arlington, VA, May 11, 2011.
Hon. Mark Udall,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, 304 Dirksen Senate Office 
        Building, Washington, DC.
Hon. Richard Burr,
Ranking Member, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, 304 Dirksen Senate Office 
        Building, Washington, DC.
    Dear Chairman Udall and Ranking Member Burr: As America 
commemorates the sesquicentennial of the Civil War, we write to express 
our strong support of S. 713, the Petersburg National Battlefield 
Boundary Modification Act, and to urge the Senate Subcommittee on 
National Parks to hold a hearing on this important legislation that 
enjoys broad local, federal and private sector support. Identical 
legislation was reported favorably out of your Subcommittee in the 
111th Congress. We appreciate the bipartisan leadership of Senator Webb 
and Senator Warner, along with Representative Randy Forbes, to expand 
the boundary of the Petersburg National Battlefield to conserve 
important historic lands and help tell the story of this remarkable 
battle to the public and for the benefit of future generations.
    As one of the great battles of the Civil War, the 292-day siege of 
Petersburg set the stage for the end of the war at Appamottox. The 
siege took its toll on soldiers and civilians alike as 70,000 
combatants became casualties while some civilians were driven from 
their homes. Almost a quarter of the entire Civil War was fought around 
the city of Petersburg as Generals Ulysses S. Grant and Robert E. Lee 
came head-to-head in their effort to control the rails and other supply 
lines which the Confederacy so desperately needed for its survival. 
Over the course of the nine-and-a-half months and 108 separate 
engagements covering more than 176 square miles, the conflicts at 
Petersburg were the most extensive and complex battles of the entire 
war. The outcome of the longest siege in American history proved 
pivotal as well and set the stage for the surrender of the Confederacy 
only seven days after the fall of Petersburg.
    The Petersburg National Battlefield faces threats to physical 
resources and to the visitor experience from incompatible residential, 
commercial and industrial development along park borders due to the 
impact of high growth in its surrounding counties. Several important 
portions of nationally significant battlefields related to the 
Petersburg Campaign have already been lost with development of an 
industrial park, a steel recycling plant and residential housing. 
Concerned about these losses, National Park Service (NPS) staff 
developed an Assessment of Integrity Report that identified nationally 
significant battlefield lands critical to the park's mission that lie 
outside its boundaries. Twelve nationally significant battlefields 
totaling approximately 7,238 acres met NPS criteria for integrity, 
interpretability, suitability and feasibility for protection. These 
battlefield areas were included in the Final General Management Plan 
and within the recommended boundary expansion for the park.
    If enacted, S. 713 and H.R. 1296, companion legislation introduced 
by Rep. Forbes, would further the Petersburg National Battlefield 
General Management Plan by:

  <bullet> Providing NPS with the authority to acquire land, on a 
        willing seller basis, or via donation within the 7,238-acre 
        boundary expansion area, as recommended by NPS in 2005 as part 
        of its Final General Management Plan.
  <bullet> Authorizing the Secretary of Interior and the Secretary of 
        the Army to move forward with a small exchange of land 
        (approximately 1.17 acres/each) between the Petersburg National 
        Battlefield and the Fort Lee Military Reservation adjacent to 
        the Park.

    We wish to commend Senator Jim Webb and Senator Mark Warner for 
their outstanding leadership to help preserve the unprotected hallowed 
ground on the battlefields in the Petersburg area by introducing this 
legislation to expand the boundary of the Petersburg National 
Battlefield. We urge the Subcommittee to commemorate the Civil War 
sesquicentennial by approving S. 713 and companion House legislation 
(H.R. 1296) this Congress. In addition to honoring those brave men who 
fought and died on these fields, this legislation would increase 
heritage tourism in Virginia, bringing in tourism dollars that are 
extremely important to the local economy. The expanded boundary will 
also enable current and future generations of Americans to learn more 
about Petersburg's critical role in the final year of the Civil War and 
better understand how those events shaped contemporary issues such as 
race and civil rights.
    With the Civil War's sesquicentennial beginning this year, 
Congressional approval and enactment of this boundary expansion 
legislation during the 112th Congress would appropriately commemorate 
this chapter of America's history. Thank you for your leadership on 
this important initiative.
            Sincerely,
                                                Dan Sakura,
 Vice President for Government Relations & Director of Real Estate,
                                             The Conservation Fund.
                                                 Jim Campi,
                                  Policy & Communications Director,
                                                   Civil War Trust.
                                         Pamela E. Goddard,
                             Chesapeake & Virginia Program Manager,
                                      Mid-Atlantic Regional Office,
                           National Parks Conservation Association.
                                           Dr. Frank Smith,
                                                Executive Director,
                        African-American Civil War Memorial Museum.
                                 ______
                                 
                                   American Rivers,
                                          River Protection,
                                      Washington, DC, May 10, 2011.
Hon. Mark Udall,
Chairman, Subcommittee on National Parks, U.S. Senate, Washington, DC.
Hon. Richard Burr,
Ranking Member, Subcommittee on National Parks, U.S. Senate, 
        Washington, DC.
    Dear Chairman Udall and Ranking Member Burr: On behalf of American 
Rivers' members and supporters in Oregon and throughout the United 
States, thank you for holding a hearing on S. 403, the Molalla River 
Wild and Scenic Rivers Act, and S. 765, the Oregon Caves Revitalization 
Act of 2011. American Rivers supports both S. 403 and S. 765.
Molalla River
    The Molalla River is a true remnant of the historical Oregon 
landscape. From its headwaters near the Cascade Mountains, this river 
winds its way through cedar, hemlock, old-growth Douglas-fir forests 
and basalt rock canyons, then travels through fertile agricultural 
lands and the cities of Molalla and Canby before entering the 
Willamette River.
    The Molalla River is a vital resource for human and natural 
communities and is especially worthy of Wild and Scenic protection. One 
of the most important attributes of the Molalla River is its role as 
the primary drinking water source for the cities of Canby and Molalla. 
Protecting the water quality of the river for the future is vital to 
the health and well-being of 20,000 local residents.
    The River is a recreation destination for thousands of visitors 
every year. In 2008, tourism along the corridor increased 33 percent. 
The City of Molalla and Clackamas County support designation as it will 
further increase tourism along the river, help boost jobs and the local 
economy, and protect a source of drinking water.
    The recreational and cultural importance of the river to the local 
community has resulted in the creation of the Molalla River Alliance, 
an all-volunteer coalition of more than 45 local and conservation 
groups, federal, state and local agencies, user groups, individual 
conservationists and local property owners. The Alliance strongly 
supports designation of the Molalla River.
    The Molalla River is also an important resource for native fish and 
other aquatic species. It provides critical habitat for several native 
fish species, including a stronghold population of native winter 
steelhead, a threatened population of spring Chinook salmon, a 
naturalized population of Coho salmon, and resident rainbow and 
cutthroat trout. The river corridor also serves as an important 
wildlife corridor containing breeding and rearing habitat for northern 
spotted owl, pileated woodpecker, red tree vole, red-legged frog and 
pacific giant salamander.
Oregon Caves
    The Oregon Caves National Monument (Monument), located in the 
botanically rich Siskiyou Mountains, hosts a spectacular cave system 
with a rich geologic history and a river systems which provides clean 
drinking water for the Monument, and is nationally significant for its 
hydrological, ecological and geological features.
    The River Styx is a unique segment of Cave Creek that flows 
underground through the cave system and significantly shapes the 
subterranean geologic formations and biological processes with the 
caves. The chemical interactions underground create unique formations 
inside the cave system. Changes in the chemical and biological 
composition of the water can permit changes in the processes affecting 
the cave. Protecting the River Styx as the first underground Wild and 
Scenic River is fundamental to protect and maintain these subterranean 
processes and unique features
    Cave Creek and its tributaries are part of the larger Wild and 
Scenic Illinois River watershed, which itself is a tributary of the 
Wild and Scenic Rogue River watershed. The cold waters and miles of 
spawning and rearing habitat provided by these watersheds for salmon 
and steelhead are critical not only for the survival of these fish, but 
for the economic livelihoods of the multi-million dollar sport and 
commercial fishing industries that rely on healthy native fish runs in 
southern Oregon.
    For all of the reasons described above, American Rivers supports 
Wild and Scenic designation of the Molalla River and the River Styx, as 
Wild and Scenic Rivers. We thank you for holding a hearing to protect 
these Oregon treasures, and we look forward to working with the 
committee to advance this legislation.
            Sincerely,
                                               David Moryc,
                                                   Senior Director.
                                 ______
                                 
 Statement of Jeannette A. Feeheley, President, Citizens for Access to 
       the Lakeshore (CAL) Citizen, Benzie County, MI, on S. 140
    Chairman Udall, Ranking Member Burr, and Members of the 
Subcommittee,
    Thank you for allowing me to submit this testimony to express our 
organization's support of S. 140. Its introduction represents the 
result of over nine years of work by the National Park Service (NPS) 
and input by us and hundreds of other organizations and individuals 
into NPS proceedings to establish a new General Management Plan and 
Wilderness Study for Sleeping Bear Dunes National Lakeshore (SLBE), 
which runs for seventy gorgeous miles along prime Lake Michigan 
shoreline in Benzie and Leelanau Counties in Northwest Michigan. The 
NPS in 2009 finalized and adopted its new General Management Plan for 
this Lakeshore, but significant parts of it cannot be implemented 
unless and until its accompanying Wilderness proposal is adopted by 
Congress and signed into law.
    We are extremely grateful to the Senate sponsor of this bill, the 
Honorable Carl Levin, who has been of immense aid to us and others in 
our negotiations over the years with the NPS, and to the Senate co-
sponsor, the Honorable Debbie Stabenow. We are likewise grateful to our 
current and previous Congressmen for Benzie and Leelanau Counties, who 
also have long been highly engaged in this bi-chamber, bipartisan 
effort. A similar bill to S. 140, H.R. 977, has been introduced in the 
U.S. House of Representatives by the Honorable Bill Huizenga and co-
sponsored by eight Michigan House members, including the Honorable Dave 
Camp, whose district includes a portion of SLBE.
    In 2002, a public outcry erupted in Benzie and Leelanau Counties 
where the Lakeshore is located over the then current General Management 
Plan (GMP) proposals that were nearing their final stage and well on 
their way to adoption by the NPS. Until the 2002 NPS Newsletter had 
been released that gave details of Four Alternatives the NPS was 
considering at that time, along with their Preferred Alternative, most 
of the general public in the area were unaware of its implications. A 
few members of the public began publicizing those implications, and 
many in the area became incensed. After studying the matter and 
attending NPS hearings on such, some of my neighbors and I realized 
that there was no public nor local governmental body nor volunteer 
organization sufficiently manned to mount the sustained effort it would 
take to get the NPS to listen and respond to our concerns, so we formed 
Citizens for Access to the Lakeshore (CAL) as a nonprofit, citizen 
advocacy group to do so. We recruited membership, elected a Board of 
Directors and collected dues and donations sufficient to support our 
newsletters, public presentations, educational outreach and the 
development and maintenance of a CAL Web Site.
    At our founding, CAL never expected it would take nine years for 
the issues to get addressed, nor had we any idea that it would require 
new legislation to be passed by Congress, but the tedious and 
painstaking efforts by all concerned will be worth it if the 
legislation before you is passed. The bill is needed in order to allow 
the Park Service to implement the 2009 outcome of NPS proceedings and 
negotiations with the public which became, over eight years time, a 
true collaboration, in our view, among the Park Service and all its 
stakeholders.
    We are very grateful to SLBE Superintendent Dusty Shultz for the 
new GMP and Wilderness Study subsequently developed and approved at the 
agency level in 2009. Superintendent Shultz had not been a part of the 
development of the former GMP proposals in the early 2000's, having 
arrived at the Park as its new Superintendent after they had already 
reached their final stage. When the Secretary of Interior, in response 
to public outrage, requested withdrawal in October 2002 of that 
previous GMP, Superintendent Shultz responded by thenceforth devoting 
much staff time and resources to learning why the community was so 
alarmed and why the NPS had been so taken by surprise by the outrage.
    Those early years also saw the appointment of a new Director of the 
NPS Midwest Region, Mr. Ernie Quintana, who came to SLBE to view the 
Lakeshore, which had become one of his new responsibilities. During 
that visit, he was kind enough to meet with CAL Board members in the 
presence of Superintendent Shultz. After listening to us, he expressed 
his view that we seemed to have legitimate concerns, that the NPS could 
address them, and that he would be supportive in that effort. He has, 
indeed, been supportive at all crucial, NPS/internal review and 
approval stages over the many years on these efforts, and we are very 
grateful to Director Quintana and his Midwest Region Staff in Omaha.
    One of the first steps taken by the NPS during that contentious 
time was to send new personnel to SLBE who had expertise in public 
relations. CAL and others wondered at the time if Mr. Tom Ulrich had 
been sent simply to tell the local population that we didn't know or 
understand anything and to admonish us for having dared to question the 
federal bureaucracy. However, we soon learned that Mr. Ulrich was not 
sent for window dressing or simply to smooth ruffled feathers. Instead, 
we found him to be a dedicated public servant who was committed to 
listening to the concerns of the agency's stakeholders and who adeptly 
helped establish a working relationship among what had become, by that 
time, two distinct adversaries: the National Park Service vs. the 
SLBE's surrounding local communities.
    CAL strongly believes that, from 2002-2009, these two sides learned 
to listen and talk with each other as never before, and that the NPS 
adopted a new view that it is better to aggressively publicize its 
processes and actively and genuinely solicit input up front rather than 
assume all is well only to learn late in the game that its stakeholders 
had not understood the implications of what it planned to do. The 
materials developed by the NPS in this particular effort are a vast 
improvement over what was available to the public before. For instance, 
after the GMP process was resumed in 2006, inter-active communication 
tools were newly available to the public on an improved NPS Web Site 
that made it much easier for the general public to access, read and 
submit formal comment on each NPS proposal. It also appeared that the 
NPS liberalized, or, at least, publicized better, that any citizen who 
so desired could be put onto their mailing list to receive NPS 
proposals each step along the way where there was opportunity for 
public input.
    In addition, ever since 2002, CAL had been speaking at local and 
county government meetings, road commission hearings, Chamber of 
Commerce meetings, Rotary Clubs, etc., in an attempt to inform as many 
people as possible about our discoveries of the implications of the NPS 
proposals. So the NPS spent the time and resources necessary to do the 
same and more: Superintendent Shultz and Deputy Superintendent Ulrich 
and other NPS staff began to attend meetings of their stakeholders/
customers' organizations to make themselves available for questioning 
at their stakeholders' convenience and on their stakeholders' own 
territory. And, once the new GMP process was restarted in 2006, the NPS 
developed a Power Point Presentation they took ``on the road'' rather 
than relying on the few standard NPS Open Hearing dates which the 
public may or may not be able to attend.
    As for the substance of the problem, it was, in a nutshell, that in 
1981 the NPS had concluded a Wilderness Study and made a wilderness 
recommendation at a very young Park still deep in a contentious 
acquisition phase, its enabling legislation having only been passed in 
1970. The full impact of that Study would not become apparent to the 
public until much later, after most of the land had come under Park 
Service ownership. Two and a half decades passed with issues simmering 
in seemingly piecemeal NPS actions that the public only saw as 
separate, isolated irritants. However, the full implications of the 
1981 Wilderness Study and its inherent incompatibility with reality 
surfaced explosively in the 2002 GMP.
    Complicating matters was that this Park had not originated with 
vast amounts of never-used or never-privately-owned land, but of land 
that had been mostly held and used by small, private landowners for two 
centuries, along with two small areas of state park land. In order for 
the Park to become a reality, most of those private owners had to be 
removed from their land after the 1970 enabling legislation was passed. 
Many of the land parcels had been in the owners' families' possession 
for generations. Some were very willing to sell, some were not, and 
some were taken by eminent domain or its perceived threat. Another 
acquisition method was a sale in which the owners were allowed to 
reside for a specified time, usually through a twenty-five year lease.
    Although generally beloved by the most of the local populace now, 
the Park's very creation had been wrenching and painful. Indeed, it had 
taken the whole decade of the nineteen sixties for proponents of a new 
federalized Park to win sufficient support inside the State of Michigan 
for the 1970 enabling legislation to pass. The promise held out to all 
at the time was that, by taking the land and making it a federal 
Lakeshore, its woods and dunes and beautiful beaches would forever more 
be saved for the recreational uses of the general public rather than 
swallowed up and transformed by large-scale private developers.
    So, in 1981, the general public had little idea that 
``wilderness'', if applied where roads already existed, would require 
the removal of those roads. The Wilderness acreage recommended in 1981 
did, indeed, include many county roads in both Benzie and Leelanau 
Counties, roads which have provided the historical access to the 
beaches. The general public also had little idea that the 1981 
``wilderness'' would be interpreted by the NPS as a call for the 
destruction of many historical features throughout the Park. Indeed, it 
took two other citizens' groups, with the help of Senator Levin, to get 
the NPS to recognize that there were historical resources and cultural 
viewscapes worth saving within a Park where acquisition and a return-
to-nature agenda were on full throttle. Never-the-less, enough was 
understood about the 1981 Wilderness Recommendation that it was 
politically highly contentious from its inception: the Secretary of 
Interior would not approve it nor move it along for further approval. 
The Congress at that time reacted to the Secretary's inaction by 
inserting a few sentences about the 1981 Wilderness Study in a 1982 
amendment to the Park's 1970 enabling legislation. The purposes of the 
1982 amendment had mostly to do with making the acquisition process 
fairer to all property owners and with removing certain areas of land 
around Glen Lake from the Park boundaries. Even though the 1982 
legislation's intent and purposes had nothing to do with wilderness, 
Congress inserted language into that bill that instructed the NPS to 
manage all the land within the 1981 Wilderness Study as if it was 
``wilderness'' unless and until Congress said otherwise. The effect, as 
noted in the Congressional Record at the time, was a wilderness 
designation imposed by the back door, a de facto wilderness where none 
had been formally designated by Congress according to the procedures of 
the Wilderness Act.
    Over the years, the NPS attempted, from time to time, to acquire 
the county roads within those de facto wilderness areas, per the 1982 
Congressional action. However, for thirty years, the Counties have 
adamantly resisted federal acquisition of their roads, having no wish 
for their residents and tourists to lose public access to the beaches. 
The Park Service was never successful in eliminating the historical 
vehicular access on the mainland, but was successful on the Park's two 
islands, North and South Manitou, by disallowing use of the landing 
piers by cars and by a 1987 letter to South Manitou residents.
    The building tension over the NPS's repeated attempts to acquire 
the counties' roads came to a head in the 2002 GMP proposals. Having 
little familiarity with the long forgotten 1981 Wilderness Study and 
having little acquaintance with the fact that the Study's effects had 
become federal law in 1982, most local people were completely 
dumbfounded in 2002 on a number of levels:

  <bullet> Why did the 2002 GMP call for the acquisition and 
        demolishment of the county roads, which provide the only 
        vehicular access of the general public to the beaches?
  <bullet> Why did the 2002 GMP propose ``mouldering'' many of the 
        area's historical resources?
  <bullet> Why did the 2002 GMP proposals portray half the Lakeshore as 
        a place where the human foot had left no mark and where only 
        ``wilderness'' had existed?

    In this aspect, the GMP's tone, as well as the content, was highly 
        offensive to local people who themselves or their parents had 
        been uprooted from the very land now called a ``wilderness'' 
        where, allegedly, no one had ever settled. In reality, the 
        local populace had first hand knowledge that said lands had 
        been farmed, settled and lumbered for generations, and that 
        Native Americans and lumbering companies had worn trails that 
        still exist and are used to this day. South Manitou Island, 
        with its great natural harbor and nautical refuge in Lake 
        Michigan, had been settled, farmed and lumbered even before the 
        City of Detroit was developed. The 2002 GMP proposals were not 
        only offensive for proposing that the general public lose its 
        access to the beaches, the very purpose of the enabling 
        legislation, but added insult to injury by attempting to wipe 
        out the magnificent human history of the area's forebears.

  <bullet> And why did Park Service staff, in attempting to explain 
        these matters to an outraged citizenry, keep saying that it had 
        all been ``mandated'' by Congress?

    It took CAL much study of past legislation and NPS documents to 
track down all the historical events leading to the disastrous 2002 
collision between the Park Service and SLBE's local communities.
    Once CAL identified the 1981 Wilderness Study and the 1982 law as 
the cause of much of the problem, CAL sought to have the offending 
lines in the 1982 legislation removed, which would have freed the Park 
Service from any wilderness ``mandate'' and would have allowed them to 
begin afresh a new GMP unencumbered with de facto wilderness. However, 
we ascertained, to our initial disappointment, that there was no 
Congressional, political or agency will for such. It appeared that 
doing so might be interpreted and maybe contested by wilderness 
proponents as a removal of ``wilderness'' from the Lakeshore, even 
though such had never been officially designated.
    However, our Senators and Congressmen actively supported the 
public's desire to be heard, and, at the same time, they actively 
supported the Park Service's desire to allow for a cooling off period 
and to give the NPS time to look anew at the problems and situation. 
Our Senators and Congressmen supported the NPS' entering into a long, 
multi-year, continuing dialogue with the local communities. Our elected 
officials also supported CAL whenever it appeared to us that the NPS 
was not listening nor understanding us. Thanks to our Senators and 
Congressmen, we learned to read and speak Park Service-ese, and the NPS 
learned to understand us, even though we weren't always conversant or 
familiar with the multitudinous NPS procedures, policies and technical 
terms.
    It worked! The 2009 GMP/Wilderness Study addresses and corrects all 
the unresolved issues of the previous Wilderness Study. Now the areas 
proposed for wilderness make sense, and will provide that the 
primitive, natural areas can remain as much of the local population 
wishes--in their natural state--without cutting off public access where 
it is needed.
    The bill before you, if adopted, will finally, finally throw out 
the flawed 1981 Wilderness Study that has had our Lakeshore tied up for 
so long in administratively applied wilderness sanctions where they 
were inappropriate and unenforceable, and will replace it with the new 
2009 Wilderness recommendation that puts the Lakeshore's counties' 
roads, beaches, fundamental historical resources and all remaining 
private inholdings outside wilderness jurisdiction. At the same time, 
the bill would give a true, Congressionally approved wilderness 
designation to those areas of the Park, a good half of its acreage, 
where a wilderness designation is appropriate and can be easily 
enforced by the Park Service and supported by its stakeholders.
    The bill is a win/win for proponents of wilderness and conservation 
as well as proponents of public access and varied recreation usage. It 
is not a bill where the proponents give grudging, reluctant support, 
feeling compromised and unhappy about something. Rather, this is a bill 
wherein almost everyone involved has emerged quite satisfied.
    CAL highly supports this bill and respectfully asks your 
consideration for its passage.
                                 ______
                                 
                                           Civil War Trust,
                                       Washington, DC, May 9, 2011.
Hon. Mark Udall,
Chairman, U.S. Senate, National Parks Subcommittee, 304 Senate Dirksen 
        Office Building, Washington, DC.
Hon. Richard Burr,
Ranking Member, U.S. Senate, National Parks Subcommittee, 304 Senate 
        Dirksen Office Building, Washington, DC.
    Dear Chairman Udall and Ranking Member Burr: On behalf of the 
55,000 members of the national nonprofit Civil War Trust, I am writing 
to express our strong support for S. 599, legislation to establish a 
commission to commemorate the sesquicentennial of the American Civil 
War. This federal commission will serve as a helpful tool in the 
efforts already underway by states, localities and the National Park 
Service to promote the 150th anniversary of the conflict. In addition, 
the funding that would be provided as a result of this legislation 
would help ensure the sesquicentennial anniversary leaves a legacy of 
lasting educational value through the development of new scholarship, 
academic programs and curriculum, as well as the preservation of key 
battlefield lands that serve as outdoor classrooms for current and 
future generations of Americans.
    The American Civil War was a defining experience in our national 
history, and its legacy continues to exercise a tight hold on the 
imaginations of millions of Americans. The Sesquicentennial of the 
Civil War officially began with the anniversary of the firing on Fort 
Sumter on April 12. Unfortunately, at present, there is no federal 
commission to coordinate, help fundraise and assist with the 
Sesquicentennial commemorations being planned by states. The absence of 
a federal commission could result in a piecemeal commemoration that 
lacks cohesion and inclusion on a national level.
    Our generation has been given a rare moment during which to explore 
the legacies of the Civil War and Reconstruction and in the process 
better understand how the events of that era shape contemporary issues 
such as federalism, contested regional heritage, race, and civil 
rights. These last two are especially salient topics for consideration, 
for the years of the Sesquicentennial--2011 through 2015--coincide with 
the fiftieth anniversary of many of the signature events of the 
American Civil Rights Movement.
    Although the sesquicentennial is already underway, we believe that 
with your timely leadership, Americans across the country will work to 
create a meaningful commemoration that will empower America's 
communities of historians, educators, preservationists, librarians, and 
archivists to present educational and commemorative activities for 
children and adults alike to the lasting benefit of all Americans.
    For these reasons, we support the creation of a federal commission 
to commemorate the sesquicentennial of the Civil War and the provisions 
for adequate funding to provide opportunities for lasting legacies of 
educational value. We believe that the creation of a federal commission 
is essential to the creation of a meaningful commemoration on the 
national level. A thoughtful engagement of this important anniversary 
at the national level will be to the ultimate benefit of all Americans.
    Thank you for your consideration. Please let us know if you or your 
staff has any questions.
            Respectfully submitted,
                                       O. James Lighthizer,
                                                         President.
                                 ______
                                 
    Statement of John R. Dial, Constituent, Glenville, NY, on S. 279
    I am writing to urge you to support ``S. 279--the Camp Hale Study 
Act.'' The Camp Hale Study Act is a bill to direct the Secretary of the 
Interior to carry out a study to determine the suitability and 
feasibility of establishing Camp Hale as a unit of the National Park 
System. Please note, this bill does not authorize any appropriation of 
money.
    As you may know, Camp Hale, Colorado is a completely unique former 
military post in the United States. It is the original training ground 
of the 10th Mountain Division, the ancestor of the light infantry 
division currently posted at Fort Drum, New York. I am a resident of 
New York State, and a veteran of the 27th Infantry Brigade, a New York 
Army National Guard unit that was the round-out brigade for the 10th 
Mountain Division at the time I served in it. I am also a member of the 
National Association of the 10th Mountain Division. As a soldier during 
peacetime, I was humbled and proud to be associated with such a 
glorious military heritage. While there have been many splendid and 
courageous military units in America's history, there has been only ONE 
mountain or alpine division--the 10th during World War 2. In addition 
to fighting in numerous significant battles in Italy during the war, 
veterans of the 10th Mountain Division went on after the war to become 
pioneers and leaders in the U.S. skiing and outdoor industry, including 
the National Park Service. There has never been another division like 
the 10th Mountain in the history of the United States. It would be a 
grand honor to have Camp Hale recognized by the National Park Service 
before all of these aging World War 2 veterans are gone. It would also 
be an honor to the many Fort Drum 10th veterans who currently live and 
vote in New York.
    Please consider supporting this bill--S. 279: the Camp Hale Study 
Act. Below are some links with more information about Camp Hale and the 
10th Mountain Divison. Thank you for your time and consideration, and 
for your public service to our nation.
                                 ______
                                 
 Statement of Aaron Schutt, Senior Vice President and Chief Operating 
                   Officer, Doyon, Limited, on S. 313
    Mr. Chairman and Members of the subcommittee, thank you for the 
opportunity to provide written testimony on S. 313, a bill to authorize 
the Secretary of the Interior to issue permits for a micro hydro 
project in non-wilderness areas within the boundaries of Denali 
National Park and Preserve, to acquire land for Denali National Park 
and Preserve from Doyon Tourism, Inc., and for other purposes. I would 
especially like to thank my home state Senators. Senator Lisa 
Murkowski, Ranking Member of the full Committee, is the sponsor of this 
legislation. Senator Mark Begich is a co-sponsor this year and was the 
lead sponsor of the bill last year. My name is Aaron Schutt, I am the 
Senior Vice President and Chief Operating Officer of Doyon, Limited.
    Doyon is one of thirteen Alaska Native Regional Corporations, 
formed under the Alaska Native Claims Settlement Act of 1971 (ANCSA). 
Doyon has more than 18,000 Alaska Native shareholders, and we are proud 
of our record on behalf of those shareholders. Our mission is to 
promote the economic and social well-being of our shareholders and 
future shareholders, to strengthen our Native way of life and to 
protect and enhance our land and resources.
    The issue that brings my interest to you today involves Doyon's 
effort to improve our energy efficiency and environmental footprint on 
our in-holdings within the Denali National Park. The Kantishna Hills 
Renewable Energy Act provides an avenue for Doyon to develop a 
renewable energy system to provide electrical power to the Kantishna 
Roadhouse. The Kantishna Roadhouse is a full service wilderness lodge 
providing overnight accommodations to Denali National Park visitors.
    Owned and operated by Doyon Tourism, a wholly-owned Doyon 
subsidiary, the Kantishna Roadhouse is located on an in-holding within 
Denali National Park. Kantishna Roadhouse serves thousands of Park 
visitors each year. As it is located 100 miles inside the Park, the 
Roadhouse is not connected to any utility grid and must produce 100% of 
its electrical energy onsite. Currently, our power comes from a diesel 
generator. This system requires trucking several thousand gallons of 
diesel fuel through the Park each year. We run the generator on a 
twenty four hour basis through the entire operating season. Doyon 
Tourism strives to provide our services in the Park and on our lands in 
the most environmentally respectful way.
    Doyon is facing several problems with the construction of this 
renewable energy project, thus the need for this legislation. Of 
primary concern is the land ownership. While Doyon currently owns the 
proposed location of the micro-hydro power plant, it does not own some 
of the land needed for the project. This legislation addresses this 
problem.
    In early 2010, Doyon received a Tribal Renewable Energy Grant from 
the Department of Energy. We wanted to use part of that grant to 
install a micro-hydro power generation system at the Kantishna 
Roadhouse. However, due to time limitations on the use of those funds, 
restricted access periods to our facility inside the Park, the limited 
construction season in Alaska and the lack of an access permit from the 
National Park Service we do not believe we will be able to make use of 
this grant at this time. Doyon remains committed to this project, 
however, if the land ownership issues can be addressed.
    This micro-hydro project is modeled after the system installed at 
the Park Service's recently renovated Eielson Visitors Center, also 
located deep within Denali National Park and Preserve. This renewable 
energy system would potentially provide up to half of our current 
electrical energy needs, offsetting an equivalent amount of diesel 
usage and its incumbent environmental footprint.
    Doyon has worked with the National Park Service for the past year 
to develop this legislation. S. 313 has two parts. First, it allows the 
Park Serve to issue a permit to Doyon Tourism to build the proposed 
renewable energy project. Second, it calls on the Park Service to 
exchange lands with Doyon so that all of the lands needed for the 
construction and operation of the micro-hydro project are owned by 
Doyon Tourism. In exchange, Doyon would provide an equivalent amount of 
acreage on a value-for-value basis from its other land holdings in the 
vicinity of the Kantishna Roadhouse. Under the current agreement, six 
to seven acres would be exchanged between each of the two parties.
    It is Doyon's understanding that the Park Service wished to broaden 
the scope of this bill to include other existing renewable energy 
projects in the Kantishna Hills region of the Park. While Doyon does 
not have any ownership or involvement with these other projects, we do 
not oppose the NPS effort to use this legislation to address their 
other concerns, as long as each of those efforts are treated separately 
in the permit and land exchange process.
    In conclusion, I would like to reinforce my comments that this 
legislation is good for all the parties involved. HR. 441 will allow 
Doyon to move forward with a small renewable energy project. The 
project will substantially reduce all aspects of environmental 
footprint related to our current power generation system: fewer 
truckloads of diesel trucked in over the remote Park roads which in 
turn results in cleaner local air quality and less sound pollution in 
this remote area. Doyon believes this project mirrors the recent 
efforts of the National Park Service to achieve greater use of 
renewable energy at its facilities.
    Thank you for the opportunity to provide input to the subcommittee 
today. I would be pleased to provide written responses to any questions 
the Members of the Subcommittees may have regarding the Kantishna Hill 
Renewable Energy Act of 2011.
    Statement of Pearl Alice Marsh, Ph.D., Vice President, Maxville 
          Heritage Interpretive Center, Wallowa, OR, on S. 271
    Dear Chairman Widen and Subcommittee Members:
    I thank you for taking the time to consider my written testimony in 
support of S. 271, `the Wallowa Forest Service Compound Conveyance 
Act'. This bill is extremely important to the restoration and 
preservation of the social history of the logging communities in 
Wallowa County and the state of Oregon generally.
    My family migrated from Louisiana and Arizona to Maxville, Wallowa 
County, Oregon, in 1939. My grandfather, father, and their co-workers 
were drawn to Maxville in search of work during the depression. As new 
arrivals, they and their families created a vibrant community of 
African American loggers and shared work and friendships with many 
others in the logging industry who had migrated from other parts of the 
country. Many of their ancestors were German, Irish, Scottish, and 
English and brought with them their traditions. These newcomers met the 
indigenous Native people and together creating a rich cultural legacy 
for Wallowa County.
    This bill will allow Wallowa County and its local communities to 
restore and utilize the Wallowa Compound's historic structures for a 
public center that will revive the social and cultural history of the 
County and become a major attraction for the tourism economy. The 
facilities also will serve as a major repository of original historical 
materials documenting the county's past.
    As a descendant of this historic place, I look forward to 
contributing our family archival materials to turn the Wallowa Compound 
into a culturally bountiful place.
                                 ______
                                 
  Statement of Jim Stratton, Alaska Regional Director, National Parks 
             Conservation Association, on S. 313 and S. 302
    The National Parks Conservation Association (NPCA) works to 
protect, preserve, and enhance America's national parks for present and 
future generations. On behalf of NPCA's 325,000 members, and especially 
the national parks in Alaska, we appreciate the opportunity to submit 
these comments for the record.
    The National Parks Conservation Association generally supports the 
purpose and basic concept behind S. 313, a bill to authorize the 
Secretary of the Interior to exchange parcels of non-wilderness lands 
within Denali National Park and Preserve for parcels owned by Doyon 
Tourism, Inc. for the purpose of supporting a micro-hydro project in 
the non-wilderness areas within the boundaries of Denali National Park 
and Preserve. We understand that the permit language in the bill is no 
longer needed and will be removed during mark-up as Doyon's timetable 
for micro-hydro construction no longer calls for immediate permitting.
    This bill would direct the Park Service and Doyon to enter into a 
land exchange agreement that would bring the land necessary to support 
Doyon's micro-hydro site, and other lands adjacent to the existing 
Doyon properties in Kantishna, into Doyon's ownership in exchange for a 
Doyon-owned parcel identified by the Park Service as a priority for 
acquisition and inclusion in the park.
    The land exchange resulting from this legislation would help 
Doyon's businesses in the Kantishna region of Denali National Park & 
Preserve reduce its dependency on diesel powered electrical generation 
in favor of power produced by micro-hydro sites. As such, this switch 
to renewable hydro energy would also reduce the number of trips that 
fuel trucks would have to make over the park road to deliver diesel to 
power the existing generators. The micro-hydro site proposed by Doyon 
for its Kantishna Roadhouse property would occur on a stream that was 
mined as recently as 1995. This is definitely not wilderness.
    Given the purpose of this bill is to promote the use of micro-hydro 
by private businesses in the Kantishna Region, we would urge lawmakers 
to work with the National Park Service on additional language that 
would authorize NPS, after careful environmental review, to authorize 
micro-hydro facilities on NPS lands for other Kantishna businesses, 
such as Camp Denali.
    The National Parks Conservation Association also supports the 
purpose and concept behind S. 302, a bill to authorize the Secretary of 
the Interior to issue right-of-way permits for a natural gas 
transmission pipeline in non-wilderness areas within the boundary of 
Denali National Park. Our interest in this bill lies in the fact that 
if the natural gas pipeline is built down the Parks Highway corridor 
the right-of-way would be located either through or around the Nenana 
Canyon and Denali National Park & Preserve.
    The apparent logical environmentally preferable choice for the gas 
pipeline through this area is along the six miles of highway corridor 
as the Parks Highway passes through Denali National Park & Preserve. 
This routing seems to make the most sense from both an engineering and 
an environmental perspective as going around the park would necessitate 
construction of new road into what is now de facto wilderness to the 
east of the park boundary. Key to making this bill work is the language 
and understanding that NPS will issue a right-of-way permit through the 
park only if the environmental review finds that the route along the 
highway poses the least environmental impact. Without that language in 
the bill, NPCA would not be supportive.
    It is important to note that this legislation would not negate the 
need for an ANILCA Title XI review, but it would allow the Park Service 
to make the decision and issue a right-of-way permit without any 
additional review by the administration or Congress.
    Assuming the route is found to be the environmentally preferred 
choice, there are several potential benefits to the National Park 
Service. We applaud the opportunity for the potential for a pathway to 
be constructed atop the pipeline ROW and a new pedestrian bridge across 
the Nenana River at McKinley Village. We feel this expansion of the 
existing front-country trail system would be a benefit to park visitors 
and would link the many visitors at McKinley village into the park 
entrance area by trail and we strongly urge this to be included in any 
mitigation package. In addition, we encourage investigation into how 
the Park Service could benefit from a lateral gasline into the park to 
support both the energy needs of the park headquarters complex and also 
possible use of natural gas for park buses.
    Thank you for the opportunity to comment.
                                 ______
                                 
                  National Trust for Historic Preservation,
                                       Washington, DC, May 9, 2011.
Hon. Jeff Bingaman,
Chairman, Senate Committee on Energy and Natural Resources, U.S. 
        Senate.
Hon. Lisa Murkowski,
Ranking Member, Senate Committee on Energy and Natural Resources, U.S. 
        Senate.
    Dear Chairman Bingaman and Ranking Member Murkowski: On behalf of 
our thousands of members, we write to thank you for reconsidering 
several bills that were placed on the Senate Calendar but not given the 
opportunity for a vote on the floor before the end of the 111th Session 
of Congress. Many of these bills were strongly supported by the 
National Trust for Historic Preservation and we are grateful you have 
scheduled a hearing for them in the Subcommittee on National Parks on 
May 11, 2011. In particular we strongly support: S. 508, the Chimney 
Rock National Monument Establishment Act; S. 564, the Valles Caldera 
National Preserve Management Act; S. 177, Gold Hill-Wakamatsu 
Preservation Act; S. 858, Colonel Charles Young Home Study Act; and S. 
279, Camp Hale Study Act.
    We are pleased to see the addition of several additional bills for 
consideration in the hearing that we have supported in the 111th 
Congress and continue to support including: S. 247, Harriet Tubman 
National Historical Parks Act; S. 713, Petersburg National Battlefield 
Boundary Modification Act; and S. 779, American Battlefield Protection 
Program Amendments Act of 2011; S. 599, Civil War Sesquicentennial 
Commission Act; S.161, Pinnacles National Park Act; S. 323, First State 
National Historical Park Act; S. 114, San Antonio Missions National 
Historical Park Boundary Expansion Act of 2011; S. 127, and Buffalo 
Bayou National Heritage Area Act.
    For over 20 years, the National Trust for Historic Preservation has 
worked to preserve irreplaceable historic and cultural resources 
located on federal public lands throughout the United States, including 
the National Park Service, U.S. Forest Service, the Bureau of Land 
Management and the National Landscape Conservation System. The 
preservation of America's irreplaceable historic and cultural resources 
benefits American's today and our future generations as well as 
supporting heritage tourism which supports diverse and vibrant local 
communities.
    The National Trust for Historic Preservation is a non-profit 
membership organization bringing people together to protect, enhance 
and enjoy the places that matter to them. With headquarters in 
Washington, D.C., nine regional and field offices, 29 historic sites 
and partner organizations in all 50 states, we provide leadership, 
education, advocacy and resources to a national network of people, 
organizations and local communities committed to saving places, 
connecting us to our history and collectively shaping the future of 
America's stories.
            Sincerely,
                                          Patrick J. Lally,
                      Acting Senior Director of Government Affairs.
                                 ______
                                 
                   National Parks Conservation Association,
                                         Seattle, WA, May 10, 2011.
Hon. Jeff Bingaman,
U.S. Senate, Energy and Natural Resources Committee, 304 Dirksen Senate 
        Building, Washington, DC.
RE: Support for S. 765

    Dear Senator Bingaman: On behalf of the National Parks Conservation 
Association, I write in support of S. 765--Oregon Caves Revitalization 
Act of 2011 and encourage the committee to vote in favor of it.
    In 1998, the National Park Service (NPS) finalized a general 
management plan with a proposed action calling for the expansion of 
Oregon Caves NM by roughly 3,400 acres. According to NPS the expansion 
will better protect the monument's cave hydrology, surface forest 
environment, public water supply and park viewsheds.
    Besides protecting the monument's ecology and wildlife, the Oregon 
Caves expansion has the added benefit that it will require no private 
lands. All land proposed for the monument expansion is already owned by 
the federal government within the Rogue River-Siskiyou National Forest. 
Transfer would merely require Congressional authorization.
    The Oregon Caves expansion may also produce significant economic 
benefits for gateway communities. Research shows that national parks 
are huge economic engines, generating $4 in value for every federal 
dollar invested in them. Further, national parks support approximately 
267,000 jobs nationwide and pump $13 billion into the national economy. 
Perhaps more importantly, park gateway communities have higher economic 
growth rates than non-park communities.
    Support for the expansion is growing. Local papers including the 
Oregonian and the Eugene Register Guard have come out in support of the 
effort. Meanwhile, citizens from the surrounding and gateway 
communities recognize the benefits of this bill and are voicing their 
approval as well.
    Some have argued that the expansion land should be left under 
Forest Service management. Primarily it's argued that only the Forest 
Service has the ``authority, ability and know-how to manage the forest 
appropriately by reducing the risk of catastrophic wildlife.'' This is 
simply not true. The Park Service has conducted at least 19 fuel 
reduction projects this year alone. NPS treatment projects including 
one at Oregon Caves National Monument in 2007 range in size from a few 
acres to thousands and include both mechanical and prescribed fires to 
reduce fuel loads. These efforts have been highly successful. A ten-
year fuel reduction program at Lake Chelan that saved every threatened 
building in Stehekin Washington during the roughly 8,000 acre Flick 
Creek fire in 2006. We are glad to see the current bill makes 
accommodations for continued necessary fire management.
    Oregon Caves National Monument is a northwest gem. The monument's 
cave, as well as the area ecology, wildlife and surrounding communities 
deserve the higher level of recognition, the benefits and protection 
that would come from their inclusion within the national preserve. NPCA 
urges the committee's support for S. 765.
            Sincerely,
                                                Sean Smith,
                                                   Policy Director.
                                 ______
                                 
                                                      May 11, 2011.

Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, U.S. Senate, 304 
        Dirksen Senate Building, Washington, DC.
    Dear Senator Bingaman, We write in strong support of S. 161, the 
Pinnacles National Park Act, and ask that our comments be made a part 
of the official hearing record for this important legislation.
    Introduced by Senator Barbara Boxer, S. 161 will establish the 
existing Pinnacles National Monument as a component of the National 
Park System and designate additional wilderness within Pinnacles. 
According to the National Park Service (NPS), national monuments 
receive their designation because they contain objects of historic, 
prehistoric, or scientific interest. However, national parks are deemed 
to feature the inspirational, educational, and recreational values--all 
of which we believe are robustly represented at Pinnacles. The existing 
national monument status for Pinnacles ensures the protection of 
important natural and cultural resources and ecological processes of 
the central California coast--including one of its newer missions to 
serve as a release site for the reintroduction of the endangered 
California condor. We believe national park designation will enhance 
visitors' experience and enjoyment of Pinnacles, while also improving 
the protection of this unique natural area.
    While not as large as many of our classic national parks, we 
believe Pinnacles is of sufficient size ``to yield to effective 
administration and broad use,'' as NPS criteria suggests.
    The legislation also proposes expanding the Pinnacles Wilderness by 
2,715 acres and will mark the second expansion of the wilderness since 
its original designation in 1976. This will bring the total wilderness 
acreage to nearly 16,000 acres. The bill will also rename the Pinnacles 
Wilderness as the Hain Wilderness in honor of brothers Arthur and 
Schuyler Hain, early homesteaders in the area, recognizing their 
efforts that lead to the creation of the original 2,500 acre National 
Monument in 1908.
    In conclusion, we strongly support both the designation of 
Pinnacles National Monument as a national park and the addition to its 
wilderness areas. We encourage the Committee's support of this public 
lands legislation.
            Sincerely,
                               Jim Mathews, Policy Manager.
                                 Campaign for America's Wilderness.
                 Ryan Henson, Senior Conservation Director,
                                   California Wilderness Coalition.
                                  Gordon Johnson, Director,
                                     California Wilderness Project.
                        Paul McFarland, Executive Director,
                                       Ventana Wilderness Alliance.
                              Dan Smuts, Regional Director,
                                            The Wilderness Society.
                                 ______
                                 
           National Parks Conservation Association,
                                   Pacific Regional Office,
                                   San Francisco, CA, May 10, 2011.
Hon. Mark Udall,
Energy and Natural Resources Committee, 304 Dirksen Senate Building, 
        Washington, DC.
RE: Testimony in Support of S. 161

    Dear Chairman Udall: On behalf of the National Parks Conservation 
Association, I am writing to extend our support for S.161, ``Pinnacles 
National Park Act.'' Pinnacles National Monument was established in 
1908 by President Roosevelt as a result of its unique rock formations, 
and since that time, the park has grown ten-fold to around 26,000 
acres. We support its redesignation as a national park.
    Today, the park unit protects more resources than it did previously 
and has several thousand acres designated as wilderness, protecting the 
natural heritage of this park. The park is home to more than 30 state 
and federally protected species, including the endangered California 
condor. Two years ago, a California condor nest was documented in the 
region for the first time in more than 70 years. The involvement of the 
National Park Service was critical to this success and other recovery 
efforts for the condor. Pinnacles offers visitors to the region a 
superb, unique night sky viewing experience, an opportunity to explore 
caves, and to hike in wilderness terrain amongst unique, jagged spires.
    Pinnacles National Monument and the surrounding area provide the 
visitor an excellent example of plate tectonic movement and other 
geological occurrences. S.161 would protect more than 2,500 acres of 
naturally significant lands as wilderness.
    In summary, NPCA supports Senator Boxer and Feinstein's important 
legislation to provide Pinnacles with the designation of national park.
            Sincerely,
                                                Neal Desai,
                                                Associate Director.
                                 ______
                                 
                                American River Conservancy,
                                          Coloma, CA, May 10, 2011.
Hon. Mark Udall,
Chairman, Subcommittee on National Parks, Senate Committee on Energy 
        and Natural Resources, Dirksen Senate Office Building, SD-304, 
        Washington, DC.
Hon. Richard Burr,
Ranking Member, Subcommittee on National Parks, Senate Committee on 
        Energy and Natural Resources, Dirksen Senate Office Building, 
        SD-304 Washington, DC.
    Dear Chairman Udall and Ranking Member Burr, We write to express 
enthusiastic support for S. 177, the Gold Hill Wakamatsu Preservation 
Act. Given the recent tragedy in Japan, we believe this legislation 
takes on more significant importance demonstrating the shared cultural 
ties and enduring bond between our two nations.
    This legislation would authorize the Bureau of Land Management to 
acquire and manage the Gold Hill Ranch near Coloma, California. This 
site was the location of the Wakamatsu Tea and Silk Colony from 1869 to 
1871, recognized by the State of California and Japanese American 
Citizens League as the first Japanese settlement in the United States. 
More recently it was listed on the National Register of Historic Places 
receiving a designation of National Significance.
    After Commodore William Perry opened Japanese ports to U.S. trade, 
the weakness of Japan's shoguns was exposed, leading to a revolution 
and return to imperial rule under the Meiji emperor. In 1869, seven 
Japanese individuals and a European expatriate fled the turmoil in 
Japan and sailed across the Pacific to San Francisco aboard a side 
wheeler called the ``China.'' The group made their way eastwards and 
purchased land in Gold Hill just above the site where John Marshal 
first discovered gold in California. Within two years, the colony grew 
to 22 Japanese settlers and began producing traditional Japanese crops 
such as tea, silk, rice, and bamboo. These agrarian feats introduced 
many important crops to California now the largest and most diverse 
agricultural state in the nation. Local and San Francisco newspapers 
wrote about the colony, and the settlers began to receive acceptance in 
American society.
    Unfortunately, the colony was short-lived--drought and financial 
problems forced the group to disperse and settle throughout California 
beginning in 1871. The Veerkamp family, which owned neighboring lands, 
purchased the property in 1875. Despite the short history of the 
colony, it was an important milestone that helped bridge Japanese and 
American cultures and paved the way for large-scale emigration of 
Japanese settlers to the United States. It also contributed to major 
Japanese influences on the agricultural economy of California.
    Many of the original structures on the site remain intact, 
including a farmhouse, the grave of a young girl named Okei, numerous 
artifacts, and agricultural plantings. Japanese-Americans and other 
visitors come to see the site and place offerings on Okei's grave. As a 
testament to the cultural exchanges that occurred at this site, the 
Gold Trail Middle School, located on an in holding carved out of this 
site, now maintains an exchange program with a sister school in 
Wakamatsu, Japan. Governor Reagan recognized the property as a state 
historic site in 1969, and the site is currently being considered for 
listing on the National Register of Historic Places.
    The 272-acre ranch encompassing the original colony site has been 
passed down for generations through the Veerkamp family. Thanks to the 
hard work of the American River Conservancy and Wakamatsu Gold Hill 
Colony Foundation as well as the generous accommodation of the Veerkamp 
family, the site has been preserved for visitors to come and learn 
about the history of the Wakamatsu colonists and Japanese-American 
culture. The site provides multiple other benefits, including wildlife 
habitat, open space with numerous hiking trails and picnic areas, and 
grazing and pastureland. The family and non-profit partners agree that 
federal acquisition would help guarantee that the site's cultural 
history, agricultural character, and open space are permanently 
preserved for generations to come. The Bureau of Land Management is 
well-suited to manage this site since it has an excellent relationship 
with the local community and manages several other sites nearby.
    We note with emphasis that this project is supported by a wide and 
diverse representation of national, state and local organizations 
including the Japanese American Citizens League, the National Japanese 
American Historical Society, the Consul General of Japan, the Governor 
of Fukushima Prefecture and the Mayor of Wakamatsu in Japan, People-to-
People International, the El Dorado County Board of Supervisors, the El 
Dorado County Chamber of Commerce, numerous elected officials including 
Assemblyman Ted Gaines, who represents this district, and numerous 
other members of the local community.
    The significance of this site for Japanese Americans has been 
compared to the significance of the Mayflower journey and Plymouth Rock 
landing for European Americans. This site is testament to Japanese 
history, California's agricultural economy, and the American tradition 
of bringing together people of diverse cultures in the common pursuit 
of freedom and prosperity.
            Sincerely,
                                              Alan Ehrgott,
                                                Executive Director.
                                 ______
                                 
 Statement of Laurie Edwards, Constituent, Cameron Park, CA, on S. 177
    I am writing to express enthusiastic support for SB 177, the Gold 
Hill Wakamatsu Preservation Act. This legislation would authorize the 
Bureau of Land Management to acquire and manage the Gold Hill Ranch 
near Coloma, California. This site was the location of the Wakamatsu 
Tea and Silk Colony from 1869 to 1871, recognized by the State of 
California and Japanese American Citizens League as the first Japanese 
settlement in the United States. More recently it was listed on the 
National Register of Historic Places receiving a designation of 
National Significance.
    As you are well aware of the historical significance of this site 
from personal knowledge and review of other letters submitted, I will 
provide you with a local resident's perspective. I was raised in the 
Gold Hill area and attended Gold Trail Elementary School, which is 
adjacent to the site. I was a third grade student in 1969, when then 
Governor Ronald Reagan was one of the keynote speakers during the 100-
year anniversary ceremony of the Wakamatsu Tea and Silk Colony. Gold 
Trail Elementary School also has a sister school in Aizu Wakamatsu. I 
have visited this school, Higashiyama Elementary School, on three 
occasions and have served as an ambassador when their school officials 
have visited. I have stayed with host families and visited the 
duplicate gravesite for Okei each time I visited Aizu Wakamatsu. 
Currently, I am serving as a docent at the Gold Hill Ranch.
    Due to the ongoing efforts of the American River Conservancy and 
Wakamatsu Gold Hill Colony Foundation, as well as the generous 
accommodation of the Veerkamp family, I am very pleased and proud that 
the 272-acre ranch has been preserved for visitors to come and learn 
about the history of the Wakamatsu colonists and Japanese-American 
culture. Many of the original structures remain intact, including a 
farmhouse, the grave of a young girl named Okei, numerous artifacts, 
and agricultural plantings.
    This ranch provides multiple other benefits, including wildlife 
habitat, open space with numerous hiking trails and picnic areas, and 
grazing and pastureland. Federal acquisition would help guarantee that 
the site's cultural history, agricultural character, and open space are 
permanently preserved for generations to come. The Bureau of Land 
Management is well-suited to manage this site since it has an excellent 
relationship with the local community and manages several other sites 
nearby.
    In addition to the important historical, cultural, agricultural, 
and wildlife aspects, preserving this site will continue to build 
relations and goodwill between our two countries. Given the recent 
tragedy in Japan, it is my opinion that this legislation takes on more 
significant importance demonstrating the shared cultural ties and 
enduring bond between our two nations.
    As the late President Eisenhower once said, ``Peaceful relations 
between countries begin with peaceful relations between people.'' I 
have witnessed firsthand the closeness citizens from our two nations 
have become during exchange homestays. In fact, one of the nicest and 
most gracious men I met in Aizu Wakamatsu was a former bomber pilot 
from World War II, who tearfully apologized for his role in World War 
II. He also told me, ``We were once enemies but are now friends.''
    Thank you for your support on this very worthwhile bill.
                                 ______
                                 
             National Japanese American Historical Society,
                                    San Francisco, CA, May 6, 2011.
Hon. Mark Udall,
Chairman, Subcommittee on National Parks, Senate Committee on Energy 
        and Natural Resources, Dirksen Senate Office Building, SD-304, 
        Washington, DC.
    Dear Chairman Udall, We write to express enthusiastic support for 
S. 177, the Gold Hill Wakamatsu Preservation Act. The National Japanese 
American Historical Society, Inc, is dedicated to the collection, 
preservation, authentic interpretation, and sharing of historical 
information of the Japanese American experience for the diverse broader 
national and global community. It has been supportive of this project 
over the years. Given the recent tragedy in Japan, we believe this 
legislation takes on more significant importance demonstrating the 
shared cultural ties and enduring bond between our two nations.
    This legislation would authorize the Bureau of Land Management to 
acquire and manage the Gold Hill Ranch near Coloma, California. This 
site was the location of the Wakamatsu Tea and Silk Colony from 1869 to 
1871, recognized by the State of California and Japanese American 
Citizens League as the first Japanese settlement in the United States. 
More recently it was listed on the National Register of Historic Places 
receiving a designation of National Significance.
    After Commodore William Perry opened Japanese ports to U.S. trade, 
the weakness of Japan's shoguns was exposed, leading to a revolution 
and return to imperial rule under the Meiji emperor. In 1869, seven 
Japanese individuals and a European expatriate fled the turmoil in 
Japan and sailed across the Pacific to San Francisco aboard a side 
wheeler called the ``China.'' The group made their way eastwards and 
purchased land in Gold Hill just above the site where John Marshal 
first discovered gold in California. Within two years, the colony grew 
to 22 Japanese settlers and began producing traditional Japanese crops 
such as tea, silk, rice, and bamboo. These agrarian feats introduced 
many important crops to California now the largest and most diverse 
agricultural state in the nation. Local and San Francisco newspapers 
wrote about the colony, and the settlers began to receive acceptance in 
American society.
    Unfortunately, the colony was short-lived--drought and financial 
problems forced the group to disperse and settle throughout California 
beginning in 1871. The Veerkamp family, which owned neighboring lands, 
purchased the property in 1875. Despite the short history of the 
colony, it was an important milestone that helped bridge Japanese and 
American cultures and paved the way for large-scale emigration of 
Japanese settlers to the United States. It also contributed to major 
Japanese influences on the agricultural economy of California.
    Many of the original structures on the site remain intact, 
including a farmhouse, the grave of a young girl named Okei, numerous 
artifacts, and agricultural plantings. Japanese-Americans and other 
visitors come to see the site and place offerings on Okei's grave. As a 
testament to the cultural exchanges that occurred at this site, the 
Gold Trail Middle School, located on an in holding carved out of this 
site, now maintains an exchange program with a sister school in 
Wakamatsu, Japan. Governor Reagan recognized the property as a state 
historic site in 1969, and the site is currently being considered for 
listing on the National Register of Historic Places.
    The 272-acre ranch encompassing the original colony site has been 
passed down for generations through the Veerkamp family. Thanks to the 
hard work of the American River Conservancy and Wakamatsu Gold Hill 
Colony Foundation as well as the generous accommodation of the Veerkamp 
family, the site has been preserved for visitors to come and learn 
about the history of the Wakamatsu colonists and Japanese-American 
culture. The site provides multiple other benefits, including wildlife 
habitat, open space with numerous hiking trails and picnic areas, and 
grazing and pastureland. The family and non-profit partners agree that 
federal acquisition would help guarantee that the site's cultural 
history, agricultural character, and open space are permanently 
preserved for generations to come. The Bureau of Land Management is 
well-suited to manage this site since it has an excellent relationship 
with the local community and manages several other sites nearby.
    We note with emphasis that this project is supported by a wide and 
diverse representation of national, state and local organizations 
including the Japanese American Citizens League, the National Japanese 
American Historical Society, the Consul General of Japan, the Governor 
of Fukushima Prefecture and the Mayor of Wakamatsu in Japan, People-to-
People International, the El Dorado County Board of Supervisors, the El 
Dorado County Chamber of Commerce, numerous elected officials including 
Assemblyman Ted Gaines, who represents this district, and numerous 
other members of the local community.
    The significance of this site for Japanese Americans has been 
compared to the significance of the Mayflower journey and Plymouth Rock 
landing for European Americans. This site is testament to Japanese 
history, California's agricultural economy, and the American tradition 
of bringing together people of diverse cultures in the common pursuit 
of freedom and prosperity
    Thank you for your support.
            Very sincerely yours,
                                             Rosalyn Tonai,
                                                Executive Director.
                                 ______
                                 
Statement of Myrna Hanses, Past President, El Dorado County California, 
               Chapter of People to People International
    I write to you with enthusiastic support for S. 177, the Gold Hill 
Wakamatsu Preservation Act. This legislation means a great deal to 
Japanese-Americans in California, to people of Japanese ancestry around 
the world and all Californians who love and cherish our history.
    This act gives the Bureau of Land Management acquisition of the 
Wakamatsu Tea and Silk Farm Colony near Gold Hill, California, which 
was the destination of a mere 20 (twenty) Japanese colonists in 1869 
who fled Aizu Wakamatsu for the peace and safety of California. Though 
the colonists were few in number, their attempt to establish an 
agricultural colony had a huge impact on the future of California-now 
the largest, most varied producer of food for the world.
    This property includes the gravesite of the first Japanese woman 
who died and was buried in North America, the original house used by 
the Japanese colonists, a wetlands, a wild-life habitat and 
pastureland. Federal acquisition would help guarantee that the site's 
cultural history and natural open space beauty would not be lost, but 
could and would provide a bridge of understanding and appreciation for 
our past.
                                 ______
                                 
                          Japanese Amencan Citizens League,
                                   San Francisco, CA, May 10, 2011.
Hon. Mark Udall,
Chairman, Subcommittee on National Parks, Senate Committee on Energy 
        and Natural Resources, Dirksen Senate Office Building, SD-304, 
        Washington, DC.
Hon. Richard Burr,
Ranking Member, Subcommittee on National Parks, Senate Committee on 
        Energy and Natural Resources, Dirksen Senate Office Building, 
        SD-304, Washington, DC.
    Dear Chairman Udall and Ranking Member Burr, We write to express 
enthusiastic support for S. 177, the Gold !fill Wakamatsu Preservation 
Act. This legislation would authorize the Bureau of Land Management to 
acquire and manage the Gold Hill Ranch near Coloma. California. This 
site was the location of the Wakamatsu Tea and Silk Colony from 1869 to 
1871. recognized by the State of California and Japanese American 
Citizens League as the first Japanese settlement in the United States. 
More recently it was listed on the National Register of Historic Places 
receiving a designation of National Significance.
    After Commodore William Perry opened Japanese ports to U.S. trade 
in 1854, the foreign policy weakness of Japan's shoguns was exposed, 
leading to a revolution and return to imperial rule under the Meiji 
emperor. In 1869, seven Japanese individuals and a European expatriate 
fled the turmoil in Japan and sailed across the Pacific to San 
Francisco aboard a side wheeler called the ``China.'' The group made 
their way eastwards and purchased land in Gold Hill just above the site 
where John Marshal first discovered gold in California. Within two 
years, the colony grew to 22 Japanese settlers and began producing 
traditional Japanese crops such as tea, silk, rice, and bamboo. These 
agrarian feats were the beginning of the introduction by Japanese 
farmers of many important crops to California, now the largest and most 
diverse agricultural state in the nation. Local and San Francisco 
newspapers wrote about the colony, and the settlers began to receive 
acceptance in American society. Unfortunately, the colony was short-
lived--drought and financial problems forced the group to disperse and 
settle throughout California beginning in 1871. The Veerkamp family, 
which owned neighboring lands, purchased the property in 1875. Despite 
the short history of the colony, it was an important milestone that 
helped bridge Japanese and American cultures and paved the way for 
large-scale emigration of Japanese settlers to the United States. It 
also contributed to major Japanese influences on the agricultural 
economy of California.
    Many of the original structures on the site remain intact, 
including a farmhouse, the grave of a young girl named Okei, numerous 
artifacts, and agricultural plantings. Japanese-Americans and other 
visitors come to see the site and place offerings on Okei's grave. As a 
testament to the cultural exchanges that occurred at this site, the 
Gold Trail Middle School, located on an in holding carved out of this 
site, now maintains an exchange program with a sister school in 
Wakamatsu, Japan. Governor Reagan recognized the property as a state 
historic site in 1969, and the site is currently being considered for 
listing on the National Register of Historic Places.
    The 272-acre ranch encompassing the original colony site has been 
passed down for generations through the Veerkamp family. Thanks to the 
hard work of the American River Conservancy and Wakamatsu Gold Hill 
Colony Foundation as well as the generous accommodation of the Veerkamp 
family, the site has been preserved for visitors to come and learn 
about the history of the Wakamatsu colonists and Japanese-American 
culture. The site provides multiple other benefits, including wildlife 
habitat, open space with numerous hiking trails and picnic areas, and 
grazing and pastureland. The family and non-profit partners agree that 
federal acquisition would help guarantee that the site's cultural 
history, agricultural character, and open space are permanently 
preserved for generations to come. The Bureau of Land Management is 
well-suited to manage this site since it has an excellent relationship 
with the local community and manages several other sites nearby.
    We note with emphasis that this project is supported by a wide and 
diverse representation of national, state and local organizations 
including the Japanese American Citizens League, the National Japanese 
American Historical Society, the Consul General of Japan in San 
Francisco, the Governor of Fukushima Prefecture and the Mayor of 
Wakamatsu in Japan, People-to-People International, the El Dorado 
County Board of Supervisors, the El Dorado County Chamber of Commerce, 
numerous elected officials including Assemblyman Ted Gaines, who 
represents this district, and numerous other members of the local 
community.
    The significance of this site for Japanese Americans has been 
compared to the significance of the Mayflower journey and Plymouth Rock 
landing for European Americans. This site is testament to Japanese 
history, California's agricultural economy, and the American tradition 
of bringing together people of diverse cultures in the common pursuit 
of freedom and prosperity
    Please support S. 177, the Gold Hill Wakamatsu Preservation Act so 
the history of our most successful trade partnership remains intact.
    Thank you.
            Sincerely,
                                                 Larry Oda,
                                           Past National President.
                                 ______
                                 
                                                       May 5, 2011.

Hon. Jeff Bingaman,
Chairman, Senate Committee on Energy and Natural Resources, 304 Dirksen 
        Office Building, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Senate Committee on Energy and Natural Resources, 709 
        Hart Office Building, Washington, DC.
    Dear Chairman Bingaman and Ranking Member Murkowski:
    We are respectfully writing to thank you for scheduling a hearing 
on S. 322, the Alpine Lakes Wilderness Additions and Pratt and Middle 
Fork Snoqualmie Rivers Protection Act. As you know, this bill, 
introduced by Senator Murray and cosponsored by Senator Cantwell, would 
protect over 22,000 acres of Washington forestlands as wilderness and 
would designate the Pratt River and key segments of the Middle Fork 
Snoqualmie as wild and scenic rivers.
    We are part of the broad, locally based support for Senator 
Murray's proposal. This group includes more than 100 businesses, 
locally-elected officials, hunter and angler organizations, 
conservation and outdoor recreation groups and religious leaders. For 
your information, we have included a full list* of the supporters of 
this legislation.
---------------------------------------------------------------------------
    * List has been retained in subcommittee files.
---------------------------------------------------------------------------
    The broad support for S. 322 is the result of several factors. 
These areas are within an hour's drive of Washington's major population 
center and will be a key addition to the existing Alpine Lake 
Wilderness, one of our nation's most popular wilderness areas. In 
addition, the Pratt, Middle Fork and South Fork watersheds are sources 
of clean water, important for downstream fisheries and commercial and 
residential water users. Preserving these areas will ensure maintenance 
of flow during the dry summer months and aid in flood control.
    The broad base of support for this legislation also reflects the 
strong work of Senator Murray in reaching out to all interested parties 
in developing this legislation. Through this collaborative approach, 
the Senator was able to minimize conflicts and gain support by blending 
a wilderness bill with complementary companion designation protections 
of Wild and Scenic Rivers. For example, the wilderness boundaries 
exclude a popular mountain bike trail. As a result, this bill is 
supported by the local biking group, the Evergreen Mountain Bike 
Alliance and the International Mountain Bicycling Association.
    The level of support for S. 322 was reflected in Congressional 
action last year. Not only was S. 322 favorably reported by the Energy 
and Natural Resources Committee but it was the only wilderness 
designation bill approved by the full House of Representatives.
    We hope that you will look at this strong legislative record and 
favorably move S. 322 in the near future. Thank you for your 
consideration.
            Sincerely,**
---------------------------------------------------------------------------
    ** Other signatures have been retained in subcommittee files.
---------------------------------------------------------------------------
                                           Daniel J. Evans,
             Former Governor of Washington and Former U.S. Senator.
    Freya Brier, Senior Vice President and General Counsel,
                                                   Eddie Bauer LLC.
                         Reagan Dunn, Council Member (R-9),
                                               King County Council.
                             Dan Brewster, General Manager,
                                          The Summit at Snoqualmie.
                                 ______
                                 
  Statement of Clifford Lucero, Chair, Board of County Commissioners, 
            Archuleta County, Pagosa Springs, CO, on S. 508
    By a vote of 2-1, we are pleased to convey to you, on behalf of the 
citizens of Archuleta County, our support for the proposed legislation 
to designate Chimney Rock Archeological Site as a National Monument.
    We have reviewed the proposed legislation language and are in 
agreement that the designation of this important landmark as a National 
Monument would bring this area national attention and serve as a 
significant economic driver.
    Our community is very excited about the prospect of the National 
Monument designation and is looking forward to the completion of the 
management plan as soon as possible.
    Finally, we would like to commend you for your vision and support 
for this legislation to protect what we know to be a valuable geologic 
and cultural resource for this nation. If there is anything we can do 
to assist you or provide additional information, please do not hesitate 
to contact us.
                                 ______
                                 
  Statement of Mike Alley, Chair, Board of Directors, Pagosa Springs 
              Community Development Corporation, on S. 508
    On behalf of the many people who live, work and play in Southwest 
Colorado, the Pagosa Springs Community Development Corporation is 
pleased to extend its support for S.508, the Chimney Rock National 
Monument Establishment Act. We appreciate your leadership toward 
accomplishing the designation of national monument status for the 
Chimney Rock Archeological Area.
    The Pagosa Springs Community Development Corporation is committed 
to enhancing the quality of life for the citizens of the area by 
creating quality new jobs, encouraging capital investment and creating 
a business friendly environment.
    The economic development and tourism opportunities that this 
designation would bring to this area are numerous and the Pagosa 
Springs Community Development Corporation is supportive of such an 
endeavor.
                                 ______
                                 
Statement of Mary Jo Coulehan, Executive Director, Pagosa Springs, Area 
           Chamber of Commerce, Pagosa Springs, CO, on S. 508
    I am writing on behalf of the Pagosa Springs Chamber of Commerce in 
support of the national monument designation for the Chimney Rock 
Archeological Site in Archuleta County, Colorado.
    Chimney Rock is one of the gems of the Pagosa Springs area and a 
popular visitor attraction. Especially with the recent Major Lunar 
Standstill phenomenon, Chimney Rock has received a considerable amount 
of public attention. Combine this natural phenomenon with the increased 
marketing efforts of the organization, and you find that visitor 
numbers continue to increase; a boon to our tourism based economy here 
in Pagosa Springs. Chimney Rock Archeological Area is of substantial 
importance to our community and they have worked over the years to 
improve the actual site, the tours, and the information that is 
available to visitors.
    Given its proximity to Mesa Verde and Chaco Canyon, national 
monument designation for the Chimney Rock site will increase heritage 
tourism as well as providing a significant boost to the town of Pagosa 
Springs in an economy where every economic opportunity is necessary. 
The additional stewardship and protection of the Chimney Rock site 
provided by national monument designation will also ensure conservation 
of this regional landmark. The site is maintained by the hard working 
efforts of the US Forest Service supported by thousands of hours of 
dedicated volunteers honored to share their love and knowledge of this 
archeological site with those who come to visit.
    We hope that you too will support our efforts to attain national 
monument designation for this important Native American heritage site. 
We would appreciate your favorable consideration and support of this 
initiative.
                                 ______
                                 
               Statement of the Caldera Action, on S. 564
    Caldera Action, together with twenty-two organizations from New 
Mexico and across the nation, supports S. 564 to transfer the 
management of the Valles Caldera National Preserve (VCNP) to the 
National Park Service (NPS) as a national preserve.
    Caldera Action is inspired by the majesty of the Valles Caldera; we 
envision the restoration and protection of its unique natural and 
cultural heritage so that present and future generations can experience 
the sense of wonder that comes from individual discovery in this 
ecologically and culturally significant landscape.
    Caldera Action and its predecessor organization, the Valles Caldera 
Coalition, have been continuously and deeply involved with the VCNP 
since well before the acquisition of the property by the federal 
government in 2000. We have worked with the VCNP staff and have closely 
watched the struggles of the Preserve as it has tried to deal with the 
conflicting demands of the original legislation, a continually changing 
Board of Trustees, and the public's expectations for its management.
    This experience has led us to conclude that the long-term 
preservation and public enjoyment of this landscape cannot be achieved 
by the present trust structure. We therefore fully support S. 564 to 
transfer VCNP to the National Park Service to be operated as a Preserve 
where hunting and fishing are allowed.
    We are joined in this effort by a large number of local, statewide, 
and national organizations who have formally indicated their support 
for this position. A list of these organizations is included in this 
statement.
                           previous testimony
    On June 24, 2010, Caldera Action submitted testimony in support of 
S. 3452, the Valles Caldera Preserve Management Act of the 111th 
Congress. That testimony detailed the flaws in the original legislation 
that created the VCNP, failures of management of the Trust created by 
the original legislation (P.L. 106--248), and the many advantages that 
would accrue to the land and to the American people from National Park 
Service management of the VCNP. We ask that our previous testimony on 
S. 3452 be entered into the record of S 564. A copy of that testimony 
is included with this submission.
                    collaborative forest restoration
    Over the past several years, the staff of the VCNP has been engaged 
in a landscape-scale planning effort focused on the restoration of 
natural ecological processes to the forested landscape of the southwest 
Jemez Mountains in New Mexico, including the VCNP. These efforts have 
included a diverse group of stakeholders in a science-based plan that

          (1) encourages ecological, economic, and social 
        sustainability;
          (2) leverages local resources with national and private 
        resources;
          (3) facilitates the reduction of wildfire management costs, 
        including through reestablishing natural fire regimes and 
        reducing the risk of uncharacteristic wildfire; and
          (4) demonstrates the degree to which

                  (A) various ecological restoration techniques

                          (i) achieve ecological and watershed health 
                        objectives; and
                          (ii) affect wildfire activity and management 
                        costs; and

                  (B) the use of forest restoration byproducts can 
                offset treatment costs while benefitting local rural 
                economies and improving forest health.

    In 2010, these efforts resulted in a successful application to the 
Secretary of Agriculture for funding from the Collaborative Forest 
Landscape Restoration Program (CFLRP) established under Title IV of the 
Omnibus Public Land Management Act of 2009 (P.L. 111-11). The project, 
anticipated to extend over 10 years, will do much to restore ecological 
functions to the forests of the VCNP and the watershed of the Jemez 
River, upon which many rely for their drinking water, irrigation, and 
spiritual sustenance.
    Title IV of P.L. 111-11 encourages multijurisdictional projects and 
anticipates application of the CFLRP to lands administered by the 
Secretary of Interior. However, Section 4003 c 3 B requires an approved 
funding plan for projects on lands under separate jurisdiction. It 
clearly would have been impossible for the Secretary of Interior to 
have provided a plan when the grant was developed because the VCNP is 
presently under the jurisdiction of the Secretary of Agriculture. The 
future of this program is essential to the long-term ecological health 
of the Preserve and surrounding lands. Caldera Action believes that S. 
564 should include a provision requiring the Secretary of Agriculture 
to recognize the National Park Service as successor to the Valles 
Caldera Trust with respect to the funding of the CFLRP grant awarded in 
2010 or should include report language to that effect.
                          aircraft overflights
    One of the greatest values of the VCNP is the sense of quiet 
isolation that prevails in most areas of the Preserve. In particular, 
commercial air-tour flights should be prohibited above the VCNP. In 
order to preserve the soundscape of the Preserve, Caldera Action 
believes that the airspace above the VCNP should be withdrawn from 
general or commercial aviation below an altitude of 22,500 ft or should 
include report language to that effect.
                                summary
    The original legislation created an experimental model that has 
provided important lessons, both positive and negative, for public land 
management. However, the experience of the last ten years has 
demonstrated overwhelming deficiencies and shortcomings of that 
legislation and its implementation. This requires a new approach. S. 
564 eliminates the shortcomings and deficiencies of the original 2000 
act that created the Valles Caldera National Preserve. S.564 will 
ensure that this magnificent national preserve will be permanently 
protected and professionally managed by the National Park Service for 
the benefit and enjoyment of all citizens of New Mexico, the nation, 
and visitors from around the world. Inclusion of language in response 
to the two concerns expressed above would strengthen the management of 
the Preserve and help ensure a quality experience for visitors.
  Groups That Have Explicitly Endorsed Transfer of the Valles Caldera 
         National Preserve to National Park Service Management
    Audubon including

          National Audubon Society (NY)
          The New Mexico Audubon Council
          Sangre de Cristo Audubon Society (Los Alamos-Santa Fe)
          Southwestern New Mexico Audubon Society (Silver City)

    Center for Biological Diversity (Tucson)
    Coalition of National Park Service Retirees (Tucson)
    Los Alamos Mountaineers
    Los Alamos Ski Club
    National Parks and Conservation Association (Washington DC)
    NM Mountain Club
    NM Native Plant Society
    NM Trout
    NM Wilderness Alliance
    NM Wildlife Federation
    People United for Parks (Wash DC)
    Republicans for Environmental Protection (New Mexico)
    The Sierra Club, including

          The Rio Grande Chapter (New Mexico)
          The Pajarito Group (Los Alamos)
          The Central Group (Albuquerque)

    Trout Unlimited
    VallesCaldera.com
    Wild Earth Guardians
              Statement of the Caldera Action, on S. 3452
    Caldera Action together with twenty-two organizations from New 
Mexico and across the nation supports S. 3452 to transfer the 
management of the Valles Caldera National Preserve (VCNP) to the 
National Park Service (NPS) as a national preserve.
    Caldera Action is inspired by the majesty of the Valles Caldera; we 
envision the restoration and protection of its unique natural and 
cultural heritage so that present and future generations can experience 
the sense of wonder that comes from individual discovery in this 
ecologically and culturally significant landscape.
    Caldera Action and its predecessor organization, the Valles Caldera 
Coalition, have been continuously and deeply involved with the Valles 
Caldera National Preserve (VCNP) since well before the acquisition of 
the property by the Federal Government in 2000. We have worked with the 
VCNP staff and have closely watched the struggles of the Preserve as it 
has tried to deal with the conflicting demands of the original 
legislation and a continually changing Board of Trustees.
    This experience has led us to conclude that the long-term 
preservation and public enjoyment of this landscape cannot be achieved 
by the present trust structure. We therefore fully support S. 3452 to 
transfer VCNP to the National Park Service to be operated as a Preserve 
where hunting and fishing would be allowed.
    We are joined in this effort by a large number of local, statewide, 
and national organizations who have formally indicated their support 
for this position. A list of those organizations is included in this 
statement.
    Our support is based on three main points:
1. The Valles Caldera Trust Model Established in 2000 Is Fatally Flawed
    The ``trust'' model put in place for the VCNP in 2000 has also been 
tried at the Presidio, an old Navy facility in San Francisco, 
California. The objective of the trust model was to create an 
experiment in public land management strongly influenced by private-
sector principles, including managers from outside the public land 
system. The trust model was intended to introduce private-sector ideas 
into public land management by allowing private development to fund the 
VCNP. While these ideas may be applicable in certain urban conditions, 
they have proven to be unworkable at the VCNP.
    The VCNP's enabling legislation (PL 106-248) instructed the Board 
of Trustees to protect and preserve the scientific, scenic, geologic, 
watershed, fish, wildlife, historic, cultural, and recreational values 
of the Preserve while achieving financial self-sufficiency by 2015 and 
operating the Preserve as a ``working ranch.'' Different Boards of 
Trustees have interpreted these conflicting ``mandates'' in varying 
ways during the first nine years of operation. The fact that the 
primary purpose of the legislation is preservation and protection is 
often ignored.

  <bullet> The requirement for financial self-sufficiency has biased 
        and restricted public access opportunities and resulted in fees 
        higher than those charged at similar public lands. Even the 
        current Trustees have admitted that the requirement for 
        financial self sufficiency cannot be met;
  <bullet> The original legislation said that the VCNP is to be 
        operated as a ``working ranch.'' That language has been used to 
        justify prioritizing livestock production at the VCNP over 
        other programs, even though livestock grazing has produced 
        questionable economic returns for the Trust while resulting in 
        direct conflicts with environmental protection mandates and the 
        public recreational fishing program. The ``working ranch'' 
        language has been a constant source of confusion and conflict.
  <bullet> The Trust has focused on the ``financial self-sufficiency'' 
        language of the current legislation in the last two years to 
        the detriment of comprehensive planning. In 2008, the Trust 
        contracted with ENTRIX Inc. to study options for increased 
        revenue, including such ideas as privatizing elk-hunting 
        permits, building hotels, an RV park, and providing food and 
        alcohol services. However, the study's highest income sources 
        for the VCNP--green burials and private elk tags--proved not to 
        be politically feasible and have been eliminated from 
        consideration. Without these, the Preserve cannot be projected 
        to achieve financial self-sufficiency. The present Board of 
        Trustees has acknowledged this reality.
  <bullet> Since the VCNP is public land, the U.S. government would own 
        any facilities built, and the funding for construction 
        presumably would come from the taxpayer. Funding for 
        infrastructure to support financial self sufficiency would be 
        better spent improving visitor services at the Preserve under 
        the National Park Service.
  <bullet> The Trustees for the VCNP have been drawn largely from the 
        private sector. However their lack of experience in public land 
        management has created a multitude of problems for the staff 
        and the public. Since the work of a public land agency requires 
        an understanding of the importance of strategic planning, 
        performance monitoring, and compliance with federal 
        environmental and administrative standards, the staff and 
        public have continually struggled to get an ever-changing Board 
        of Trustees to recognize these critical issues.
  <bullet> The Trustees have term limits, which causes the makeup of 
        the Board to change every two years. Consequently, the 
        Trustees' priorities have changed markedly over time, with the 
        result that large, expensive, previous work products have been 
        discarded and a continuing education process for new Board 
        members is necessary. Further, this turnover has led to 
        dissonance with the staff as shown by an excessive turnover of 
        executive directors at the VCNP and a constantly shifting set 
        of priorities being imposed upon lower-level staff, many of 
        whom have also left.
  <bullet> The Board of Trustees is appointed by the President of the 
        United States. Seats on the Board open up relatively 
        frequently, and this legislative requirement often results in 
        delays of several months while the White House tends to 
        nationally important appointments. It is inappropriate for 
        public land managers to be politically appointed in this way, 
        and the White House should not be involved in such 
        appointments.
  <bullet> The current system of political appointments allows the 
        majority party senator from New Mexico to choose and send to 
        the White House nominees for the Board of Trustees. The result 
        is Trustees from the political party in power. This system 
        gives the appearance of patronage and ideological bias on the 
        part of the Board of Trustees, which should function fully 
        outside of partisan politics.
  <bullet> The Trust effectively lies outside the federal system of 
        public land agencies and is, in effect, an orphan. As a 
        consequence, no agency advocates for its financial needs in 
        Washington. Thus the Trust has been forced to lobby for its 
        budget every year. This process has led to uncertainty for the 
        public and staff and has added an unnecessary tension and 
        political dimension to annual VCNP funding. Putting the VCNP in 
        the National Park System would embed the VCNP's budget in the 
        normal Department of the Interior appropriations process.
  <bullet> The Trust exists outside the system of federal land 
        management agencies that provides a network of scientific and 
        logistical services. The Trust must borrow law enforcement and 
        resource management staff from other agencies, contract for 
        services, or build its own resources management from scratch at 
        great expense.
  <bullet> Because the Trust is not within the federal insurance system 
        that covers federal land agencies, it must procure private 
        liability insurance for its operations. Liability concerns have 
        been used by the Trust (and perhaps its insurance underwriters) 
        to severely limit public access to the Preserve.
2. Failure of the Trust's Management of the Valles Caldera National 
        Preserve
    Beyond these structural problems with the Trust model and 
inconsistencies in the enabling legislation, there have been recurring 
problems with the management of the Preserve as practiced by the Trust.

  <bullet> The General Accountability Office analyzed documents and 
        financial records, and interviewed staff and stakeholders to 
        determine the Trust's progress between 2000 and 2005 and 
        reported to Congress in November, 2005, that the: ''Valles 
        Caldera: Trust Has Made Some Progress but Needs to Do More to 
        Meet Statutory Goals'' (GAO-06-98).
  <bullet> The GAO presented a second report to Congress on progress 
        since the 2005 report. They considered the extent to which the 
        Trust has fulfilled its obligations as a government 
        corporation, and the challenges the Trust faces to achieve the 
        Preservation Act goals. The results of the second study were 
        published in an October 2009 Report to Congress, concluding 
        that ``The Trust Has Made Progress but Faces Significant 
        Challenges to Achieve Goals of the Preservation Act.'' (GAO-10-
        84). The Trust has failed to implement an effective management 
        program and management controls as required for all government 
        corporations under federal law (GPRA and GCCA Acts).
  <bullet> The Trust has failed to produce the Comprehensive Management 
        Program (CMP) required by Section 108 of the VCNP's enabling 
        legislation. A CMP is a basic tool from which all public-land 
        planning starts and has been required by courts and agencies as 
        a basic part of the National Environmental Policy Act (NEPA) 
        process. The Trust's failure to complete a comprehensive 
        management plan after ten years has led to disconnected, 
        haphazard planning that could lead to serious environmental 
        damage, wasted funding, and legal challenges. As a result, 
        isolated initiatives such as the Forage Plan do not take into 
        account broader public use, environmental, and cultural issues.
3. Advantages of the National Park Service as the Manager for the VCNP
    The National Park Service (NPS) has existed since 1916 and manages 
89 million acres of some of the most important, high value, and 
sensitive public lands in America including eighteen other national 
preserves The National Park Service has experience with managing a wide 
variety of landscapes and structures from national parks and monuments 
in Alaska that cover millions of acres to single buildings in areas 
requiring complex natural resources management. The agency manages many 
lands where hunting and fishing are allowed and some where limited 
livestock grazing are allowed. The National Park Service specializes in 
scientifically based land management and visitor services and 
management.
    Management as a Preserve by the National Park Service, as call for 
in S. 3452 would:

  <bullet> bring almost 100 years of experience with managing a wide 
        variety of landscapes, specializing in scientifically-based 
        land and visitor management services;
  <bullet> Increase public access and enjoyment of this extraordinary 
        national treasure while protecting and restoring its unique 
        natural resources;
  <bullet> Integrate the VCNP into the National Park System budget 
        process through the Department of the Interior. Integration 
        would ensure annual budgeting through the normal agency 
        process, eliminating the need for individual budget requests 
        now required for the VCNP;
  <bullet> Provide comprehensive land management planning at the onset 
        of NPS management as called for in Section 3 (b) (4) of S. 3452 
        by developing a general management plan for the Preserve and 
        then preparing specific management plans for visitor services, 
        natural resource management and cultural resource protection. 
        this integrated planning process will provide for public input 
        and financial efficiencies;
  <bullet> Provide visitor services using their long experience with 
        the public, which would include a visitation management plan 
        tailored to the attractions and constraints of the VCNP;
  <bullet> Provide career-track, well-vetted professional management 
        personnel to lead the existing staff at the VCNP, replacing the 
        current politically appointed Trust;
  <bullet> Provide law enforcement to protect the VCNP and its 
        visitors. The NPS has a long tradition of intensive and careful 
        law enforcement focused on protecting natural and historic 
        sites;
  <bullet> Provide natural resource management based on decades of 
        experience over millions of acres of wild land throughout the 
        United States. Resource management involves using science-based 
        techniques to restore plant communities, wildlife populations, 
        watersheds, and airsheds. The NPS has a well-developed, 
        flexible, and professional natural resources management 
        approach tailored to each of its units. The Trust has developed 
        an outstanding and effective adaptive management program that 
        should be maintained and expanded and could be a model for 
        other NPS units;
  <bullet> Continue to provide sensitive protection for active cultural 
        use sites such as Pueblo religious sites, prehistoric sites 
        such as the obsidian mines in the Preserve, and protection and 
        restoration for historic sites;
  <bullet> With its national presence, the NPS would provide the VCNP 
        with linkage to key management and science capabilities with, 
        for example, the US Geologic Survey, which provides science 
        research for Bandelier and other National Park Service units. 
        It could continue and enhance the science programs developed 
        under Dr. Bob Parmenter at the VCNP while providing an expanded 
        youth and teacher education and university research program.

    The original legislation (P.L. 106--248) created an experimental 
model that has provided important lessons, both positive and negative, 
for public land management. However, the experience of the last ten 
years has demonstrated overwhelming deficiencies and shortcomings of 
that legislation and its implementation. This requires a new approach. 
S. 3452 eliminates the shortcomings and deficiencies of the original 
2000 Act that created the Valles Caldera National Preserve. S.3452 will 
ensure that this magnificent national preserve will be permanently 
protected and professionally managed by the National Park Service for 
the benefit and enjoyment of all citizens of New Mexico, the nation, 
and visitors from around the world.
    Caldera Action urges Congress to pass S. 3452 transferring the VCNP 
to the National Park Service at the earliest opportunity.
                                 ______
                                 
                                                      May 15, 2011.

Hon. Jeff Bingaman,
Senator, Energy & Natural Resources Committee Office, 304 Dirksen 
        Senate Building, Washington, DC.
    Dear Senator Bingaman,
    On behalf of the undersigned organizations we are writing to thank 
you for your work and leadership in crafting and re-introducing the 
Valles Caldera National Preserve Management Act, S. 564.
    Valles Caldera is one of just three supervolcanoes in the U.S. and 
the oldest of the three. It is one of the western United States's great 
outdoor places--often referred to as New Mexico's Yellowstone. The 
public gained a great treasure when the Valles Caldera was brought into 
public ownership over a decade ago.
    However, the public has rightfully been frustrated by the 
experimental management system that was established based on an urban 
public space--the Presidio in San Francisco, California.
    As a result of this experimental management system, public access 
to the Valles Caldera National Preserve has been severely restricted in 
comparison to other public lands and has sometimes been seen to be run 
more like a private ranch than a public natural heirloom.
    Hunters and anglers in particular have been frustrated by the 
experimental mandate to achieve ``self-sufficiency'' often having to 
fight off proposals for outrageously high access fees of tens of 
thousands of dollars to hunt our own public land. In fact, for 6 of the 
16 total annual wild turkey hunts in the Caldera, many hunters are 
currently excluded by astronomical access fees ($1,200 per hunter) that 
limit the turkey hunting opportunities to just a wealthy few.
    Fishing fees have also been unusually high in comparison to other 
public lands, with a half-day of fishing for a family of four exceeding 
$100.
    As a result of these elite access fees and restricted public access 
local businesses are also not experiencing the full economic potential 
of the Valles Caldera.
    S. 564 would fix these problems by transferring management of the 
Valles Caldera to the National Park Service as a National Preserve 
where hunting and fishing are mandated by law to continue. We believe 
the National Preserve model is a good fit for Valles Caldera. It 
ensures a sufficient staffing level to manage visitors and prevent 
overuse or abuse of the resource, but also guarantee that important 
hunting and fishing opportunities will continue and be brought back 
within reach of the average citizen who equally owns and enjoys our 
public lands.
    The adjacent management infrastructure of Bandelier National 
Monument is already in place and operational, and it is clear that S. 
564 will provide considerable long term cost savings through management 
efficiency.
    In short S. 564 will bring management of one of New Mexico's and 
the Nation's top national treasures back in line with the great 
American tradition of equality of access to public land hunting and 
fishing opportunities, save taxpayer dollars and provide a needed boost 
to local economies. We thank you for your leadership on this critical 
issue.
            Sincerely,
                    Bill Schudlich, State Council Chairman,
                                                Trout Unlimited NM.
                                 Toner Mitchell, President,
                                  Truchas Chapter, Trout Unlimited.
                        Jeremy Vesbach, Executive Director,
                                    New Mexico Wildlife Federation.
                                      Oscar Simpson, Chair,
                         Backcountry Hunters & Anglers, NM Chapter.
                Ben Brown, New Mexico Field Representative,
                       Theodore Roosevelt Conservation Partnership.
                              Dr. Sanford Schemnitz, Chair,
                                  Southwest Consolidated Sportsmen.
                                       Jesse Deubel, Chair,
                                   United Bowhunters of New Mexico.
                                 ______
                                 
                              Los Amigos de Valles Caldera,
                                        Santa Fe, NM, May 10, 2011.
Hon. Jeff Bingaman,
Chairman, Senate Energy and Natural Resources Committee, Energy and 
        Natural Resources Committee Office, 304 Dirksen Senate 
        Building, Washington, DC.
Re: SB564

    Dear Senator Bingaman: As we have mentioned to you before, the most 
critical work to be accomplished on the Preserve in the foreseeable 
future is the restoration of the forest ecosystem to a manageable 
condition and restoration of the wetlands damaged in part by 
indiscriminate logging in the 1960s and 1970s.
    The Southwest Jemez Mountains Collaborative Forest Landscape 
Restoration Program (CFLRP) Project has been funded by the Department 
of Agriculture, under legislation that you sponsored because of your 
concern for forest health in New Mexico. That project, which has begun, 
is designed to improve the resilience of ecosystems on the Preserve and 
on the Santa Fe National Forest to recover from wildfires and other 
natural disturbances and sustain healthy forests and watersheds by 
thinning and prescribed burning to restore more natural fire regimes.
    The July 16, 2010 letter from Laura Joss, Acting Regional Director 
of the National Park Service, Intermountain Region, about the CFLRP 
proposal seems to indicate that the Park Service is not setting aside 
any money to continue this much-needed forest restoration to replace 
the USDA's approximately $1 million a year for 10 years for the 
Preserve if it transfers to the Department of the Interior. They have 
indicated only that they will ``initiate'' a project fund request in 
competition with other Park Service requests. This potentially means 
that the funding and the restoration values it represents would be lost 
to the Preserve.
    This is a major concern to Los Amigos, the Trust, and the neighbors 
of the Preserve. If forest restoration is not accomplished in the near 
future, the Preserve will be at great risk for a catastrophic fire. We 
in New Mexico are already in the midst of a dangerous fire season. The 
moisture at the Preserve is at only 65% of normal for this time of 
year. This is frightening, given the forecast for continued lack of 
significant precipitation in the area.
    The CFLRP project on the Preserve is being financed with USDA funds 
and those funds are not available to the Department of Interior without 
specific, special reallocation. This is something that has almost never 
been done between Departments.
    We hope that you will consider this. We feel that forest 
restoration being of such great concern, it might be best to leave the 
Preserve under Trust management until this work is completed. Forest 
restoration is not part of the Park Service mission and therefore might 
not be successfully accomplished as quickly as needed.
    If the Preserve is transferred to the Park Service, it would be 
critical to place restrictions on overnight camping--or any other fire 
related activities--until needed forest restoration is accomplished.
    We appreciate your ongoing willingness to consider and address our 
concerns. Thank you.
            Very truly yours,
                                        Doug Fraser, Chair,
                                                Board of Directors.
                                 ______
                                 
           National Parks Conservation Association,
                                 Southwest Regional Office,
                                      Washington, DC, May 10, 2011.
Hon. Jeff Bingaman,
U.S. Senate, 703 Hart, Washington, DC.
    Dear Senator Bingaman:
    Valles Caldera National Preserve is a national treasure. For 
decades, this extraordinary landscape has been regarded as a place 
worthy of protection a nd management in such a way as to promote 
opportunities for recreation, interpretation for visitors of its 
geology and scientific inquiry. The National Parks Conservation 
Association, America's leading voice for our national parks with a 
membership of over 325,000, fully supports Senate Bill 564 that would 
transfer management responsibility for this publically owned landscape 
to the National Park Service.
    We believe that this remarkable and unique landscape, its unique 
geology and profound connection to the culture at nearby by Bandelier 
NM is ideally suited for inclusion and management by the National Park 
Service. Your proposed legislation reflects the appropriate public 
purpose of protecting this rich and varied resource while providing and 
managing recreational opportunities and insightful interpretive 
services for visitors. It further identifies the responsibility to 
develop a management plan that recognizes the rights of indigenous 
Pueblos and honors hunting, fishing and grazing practices. Furthermore, 
Senate Bill 564 reinforces and sustains the continuation of a strong 
and vibrant culture of science and research at the Caldera. Balancing 
resource protection with public enjoyment, recreation, interpretation 
and traditional uses is what the National Park Service does well and 
efficiently. This is absolutely the core function and mission of the 
National Park Service and we regard this change in management 
responsibility reflected in this bill, one of our most important 
national priorities.
    Since 2000, Valles Caldera has been publically owned by managed in 
an experimental fashion by a congressionally appointed Trust. Based 
upon a Government Accounting Office report completed in October 2009 
that evaluated this experiment ten years on, it is apparent that core 
goals from this Trust management model have not been achieved. There 
continues to be a high level of uncertainty about achieving any level 
of self sufficiency, visitation and recreational opportunities have 
been meager at best and development of infrastructure to accommodate 
visitors is scant. On many levels, it is apparent that the bold 
experiment has not been successful.
    In contrast, the recently completed suitability study that Senator 
Bingaman requested that was completed in December, 2009 underscores how 
appopriate and compatible a Valles Caldera National Preserve as part of 
the national park system and indeed, as a special and comprehensive 
complement to Bandelier NM, would serve. It would further burnish these 
iconic and culturally significant landscapes with the special luster of 
national park designation.
    NPCA fully and enthusiastically endorses this proposed legislation. 
By an measure or standard, national park designation and management 
responsibility is overdue.
            Sincerely,
                                              David Nimkin,
                                                          Director.
                                 ______
                                 
                                           Trout Unlimited,
                                      Washington, DC, May 11, 2011.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, 304 Dirksen Senate 
        Building, Washington, DC.
    Dear Chairman Bingaman,
    On behalf of Trout Unlimited's 140,000 members nationwide, 
including more than 1,000 in New Mexico, I write to thank you for your 
leadership and hard work in developing S. 564, the ``Valles Caldera 
National Preserve Management Act.'' Trout Unlimited strongly supports 
this bill, which would direct the Park Service to take over management 
of the Valles Caldera in a way that protects the Preserve's 
unparalleled natural and cultural resources.
    The Valles Caldera National Preserve's current management system 
runs the resource more like a private ranch than a public natural 
heirloom. It has always been exclusive rather than inclusive in its 
management approach.
    Furthermore, the GAO reports that the Preserve is at least five 
years behind schedule in the development of an effective management 
control system and that the requirement to achieve financial self-
sustainability by 2015 is the Trust's biggest challenge and will be 
difficult to achieve. It also notes that the revenue enhancement study 
commissioned by the Trust estimated the need for at least $21 million 
for infrastructure improvements to support greater public access.
    S. 564 provides better access, a strong commitment to traditional 
land uses like hunting and fishing, promotes responsible and 
sustainable management practices and considerable long term cost 
savings by combining agencies. The adjacent management infrastructure 
of Bandelier National Monument is already in place and operational. 
Additionally, the measure strengthens protections for tribal cultural 
and religious sites and ensures access by pueblos to the area. Clearly, 
the Park Service is best equipped to manage the Caldera for myriad 
reasons.
    Trout Unlimited and its New Mexico membership stand in full support 
of S. 564. The Valles Caldera is undoubtedly New Mexico's most iconic 
sub-alpine ecosystems--the ``Yellowstone'' of New Mexico. Your efforts 
to preserve the cultural and biotic integrity of this superlative 
natural wonder are greatly appreciated.
            Sincerely,
                                              Keith Curley,
                                    Director of Government Affairs.

                                    

      

</pre></body></html>
